<html>
<title> - H.R. 5319, THE DELETING ONLINE PREDATORS ACT OF 2006</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



             H.R. 5319, THE DELETING ONLINE PREDATORS ACT OF 
                                  2006


                                 HEARING

                               BEFORE THE

               SUBCOMMITTEE ON TELECOMMUNICATIONS AND THE 
                                INTERNET

                                 OF THE 

                        COMMITTEE ON ENERGY AND 
                                COMMERCE

                        HOUSE OF REPRESENTATIVES


                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION


                             JULY 11, 2006

                           Serial No. 109-121

       Printed for the use of the Committee on Energy and Commerce


Available via the World Wide Web:  http://www.access.gpo.gov/congress/house

                    U.S. GOVERNMENT PRINTING OFFICE
30-410                      WASHINGTON : 2006
_____________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; DC area (202) 
512-1800 Fax: (202) 512-2250  Mail: Stop  SSOP, Washington, DC 20402-0001



                    COMMITTEE ON ENERGY AND COMMERCE
                       JOE BARTON, Texas, Chairman
RALPH M. HALL, Texas                      JOHN D. DINGELL, Michigan
MICHAEL BILIRAKIS, Florida                  Ranking Member
  Vice Chairman                           HENRY A. WAXMAN, California
FRED UPTON, Michigan                      EDWARD J. MARKEY, Massachusetts
CLIFF STEARNS, Florida                    RICK BOUCHER, Virginia
PAUL E. GILLMOR, Ohio                     EDOLPHUS TOWNS, New York
NATHAN DEAL, Georgia                      FRANK PALLONE, JR., New Jersey
ED WHITFIELD, Kentucky                    SHERROD BROWN, Ohio
CHARLIE NORWOOD, Georgia                  BART GORDON, Tennessee
BARBARA CUBIN, Wyoming                    BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois                    ANNA G. ESHOO, California
HEATHER WILSON, New Mexico                BART STUPAK, Michigan
JOHN B. SHADEGG, Arizona                  ELIOT L. ENGEL, New York
CHARLES W. "CHIP" PICKERING,  Mississippi ALBERT R. WYNN, Maryland
  Vice Chairman                           GENE GREEN, Texas
VITO FOSSELLA, New York                   TED STRICKLAND, Ohio
ROY BLUNT, Missouri                       DIANA DEGETTE, Colorado
STEVE BUYER, Indiana                      LOIS CAPPS, California
GEORGE RADANOVICH, California             MIKE DOYLE, Pennsylvania
CHARLES F. BASS, New Hampshire            TOM ALLEN, Maine
JOSEPH R. PITTS, Pennsylvania             JIM DAVIS, Florida
MARY BONO, California                     JAN SCHAKOWSKY, Illinois
GREG WALDEN, Oregon                       HILDA L. SOLIS, California
LEE TERRY, Nebraska                       CHARLES A. GONZALEZ, Texas
MIKE FERGUSON, New Jersey                 JAY INSLEE, Washington
MIKE ROGERS, Michigan                     TAMMY BALDWIN, Wisconsin
C.L. "BUTCH" OTTER, Idaho                 MIKE ROSS, Arkansas                       
SUE MYRICK, North Carolina
JOHN SULLIVAN, Oklahoma
TIM MURPHY, Pennsylvania
MICHAEL C. BURGESS, Texas
MARSHA BLACKBURN, Tennessee


                       BUD ALBRIGHT, Staff Director
                      DAVID CAVICKE, General Counsel
        REID P. F. STUNTZ, Minority Staff Director and Chief Counsel


                SUBCOMMITTEE ON TELECOMMUNICATIONS AND THE 
                                 INTERNET
                       FRED UPTON, Michigan, Chairman
MICHAEL BILIRAKIS, Florida                EDWARD J. MARKEY, Massachusetts
CLIFF STEARNS, Florida                      Ranking Member
PAUL E. GILLMOR, Ohio                     ELIOT L. ENGEL, New York
ED WHITFIELD, Kentucky                    ALBERT R. WYNN, Maryland
BARBARA CUBIN, Wyoming                    MIKE DOYLE, Pennsylvania
JOHN SHIMKUS, Illinois                    CHARLES A. GONZALEZ, Texas
HEATHER WILSON, New Mexico                JAY INSLEE, Washington
CHARLES W. "CHIP" PICKERING,  Mississippi RICK BOUCHER, Virginia
VITO FOSSELLA, New York                   EDOLPHUS TOWNS, New York
GEORGE RADANOVICH, California             FRANK PALLONE, JR., New Jersey
CHARLES F. BASS, New Hampshire            SHERROD BROWN, Ohio
GREG WALDEN, Oregon                       BART GORDON, Tennessee
LEE TERRY, Nebraska                       BOBBY L. RUSH, Illinois
MIKE FERGUSON, New Jersey                 ANNA G. ESHOO, California
JOHN SULLIVAN, Oklahoma                   BART STUPAK, Michigan
MARSHA BLACKBURN, Tennessee               JOHN D. DINGELL, Michigan
JOE BARTON, Texas                           (EX OFFICIO)                            
  (EX OFFICIO)

                               CONTENTS


                                                                        Page
Testimony of:
        Abbott, Hon. Greg, Attorney General, Office of the 
                Attorney General, State of Texas	                  25
        Aftab, Esq., Parry, Executive Director, WiredSafety.org	          31
        Collins, Michelle, Director, Exploited Child Unit, 
                National Center for Missing and Exploited Children	  90
        Davis, Ted, Director, Knowledge Asset Management, IT 
                Department, Fairfax County Public Schools	          95
        Kelly, Chris, Vice President, Corporate Development 
                and Chief Privacy Officer, Facebook	                 104
        Lenhart, Amanda, Senior Research Specialist, Pew 
                Internet and American Life Project	                 111
        Yoke, Beth, Executive Director, ALA Young Adult 
                Library Services Association	                         127
        Zellis, David W., First Assistant District Attorney, 
                Office of the Bucks County District Attorney, 
                Commonwealth of Pennsylvania	                         135
Additional material submitted for the record:
        Racine, Elizabeht, prepared statement of	                 154
        Resnick, Michael A., Associate Executive Director, 
                National School Boards Association, prepared 
                statement of	                                         158

          H.R. 5319, THE DELETING ONLINE PREDATORS ACT OF 
                                   2006


                          TUESDAY, JULY 11, 2006

                         HOUSE OF REPRESENTATIVES,
                     COMMITTEE ON ENERGY AND COMMERCE,
          SUBCOMMITTEE ON TELECOMMUNICATIONS AND THE INTERNET,
                                                             Washington, DC.


        The subcommittee met, pursuant to notice, at 10:10  a.m., in 
Room 2123 of the Rayburn House Office Building, Hon. Fred 
Upton [Chairman] presiding.
        Members present:  Representatives Upton, Gillmor, Whitfield, 
Cubin, Shimkus, Wilson, Bass, Walden, Terry, Ferguson, 
Blackburn, Barton [ex officio], Markey, Engel, Wynn, Gonzalez, 
Inslee, Eshoo, and Stupak.
        Also Present:  Representatives Fitzpatrick and Kirk.
Staff Present:  Howard Waltzman, Chief Counsel for 
Telecommunications and Internet; Anh Nguyen, Legislative Clerk; 
Jaylyn Jensen, Senior Legislative Analyst; Johanna Shelton, 
Minority Counsel; and David Vogel, Minority Research Assistant.  
        MR. UPTON.  Morning, everyone.  Today we are holding a 
hearing on H.R. 5319, the Deleting Online Predators Act of 2006, 
which was introduced recently by Representatives Fitzpatrick and 
Kirk.  
        Under the leadership of Chairman Whitfield and Chairman 
Barton, the Oversight and Investigations Subcommittee has held 
multiple hearings, exposing the appalling sexual exploitation of 
children on the Internet.  This includes the dark underside of social 
networking websites, which have become stalking grounds for 
sexual predators who are preying on children all across the Nation.  
We have had many such cases in my own State of Michigan, far 
too many.  
        Federal law enforcement officials have described the sexual 
abuse and exploitation of our Nation's youth as an "epidemic" 
propagated by the unlimited access of the Internet.  The statistics 
are alarming.  The FBI has seen a 2,026 percent increase in its 
caseload of online sexual predators in the last 10 years.  Of the 
estimated 24 million child Internet users, one in five kids has 
received unwanted sexual solicitations.  It is estimated that at any 
given moment, 50,000 predators are prowling for children online, 
many of whom are lurking within social networks.  
At a minimum, what our hearings have taught us is that both 
children and parents need to become better educated about the 
dangers of social networking websites, and parents need to police 
their children's online use at home to guard against sexual 
predators.  
        However, to the extent that children are using the Internet 
outside the home, particularly at school or at the public library, 
parents are not able to monitor their children's online use, and that 
is a situation that H.R. 5319 is designed to address.  
        At its heart, H.R. 5319 would require schools and libraries 
which receive E-rate funding to restrict minors' access to 
commercial social networking websites through which such minors 
may easily be subject to unlawful sexual advances, unlawful 
requests for sexual favors, or repeated offensive comments of a 
sexual nature from adults.  
        The approach taken by H.R. 5319 is not dissimilar to the 
approach taken by the Children's Internet Protection Act, through 
which Congress requires schools and libraries that receive E-rate 
funding to impose filtering technology to protect kids from online 
visual depictions of an inappropriate sexual nature.  
        I have long supported and remain a strong supporter of the 
E-rate.  I visit a school every week and I have seen the tremendous 
educational value which the Internet has brought to students 
throughout my congressional district, and I recognize the 
importance of the E-rate in making this a reality.  
        However, as with all technologies, the Internet is a 
double-edged sword, and Congress has a responsibility to ensure 
that, to the extent that a Federal program is involved, it is doing all 
that it can to ensure that kids are protected from  online dangers.  
        H.R. 5319 represents yet another step in making our children's 
online experience at school or at the library safe.  I want to thank 
our witnesses for being with us today, and I look forward to 
hearing their views on H.R. 5319, and I yield to the gentlelady 
from California for an opening statement.  
        [Prepared statement of Hon. Fred Upton follows:] 

PREPARED STATEMENT OF THE HON. FRED UPTON, CHAIRMAN, 
SUBCOMMITTEE ON TELECOMMUNICATIONS AND THE INTERNET 

        Good morning.  Today we are holding a legislative hearing on 
H.R. 5319, the "Deleting Online Predators Act of 2006," which 
was introduced by Representatives Fitzpatrick and Kirk.  
        Under the leadership of Chairman Whitfield and Chairman 
Barton, the Oversight and Investigation Subcommittee has held 
multiple hearings exposing the appalling sexual exploitation of 
children on the internet.  This includes the dark underside of social 
networking websites, which have become stalking grounds for 
sexual predators who are preying on children all across the nation.  
We have had many such cases in my own home state of 
Michigan.far too many.  
        Federal law enforcement officials have described the sexual 
abuse and exploitation of our nation's youth as an "epidemic" 
propagated by the unlimited access of the Internet.  The statistics 
are alarming - the FBI has seen a 2,026% increase in its caseload 
of online sex predators in the last 10 years.  Of the estimated 24 
million child Internet users, one in five kids has received unwanted 
sexual solicitations.  It is estimated that at any given moment, 
50,000 predators are prowling for children online - many of whom 
are lurking within social networks.  
        At a minimum, what our hearings have taught us is that both 
children and parents need to become better educated about the 
dangers of social networking websites, and parents need to police 
their children's on-line use at home to guard against sexual 
predators.  
        However, to the extent that children are using the Internet 
outside the home, particularly at school or at the public library, 
parents are not able to monitor their children's on-line use - and 
this is the situation that H.R. 5319 is designed to address.
        At its heart, H.R. 5319 would require schools and libraries 
which receive e-rate funding to restrict minors' access to 
commercial social networking websites through which such minors 
may easily be subject to unlawful sexual advances, unlawful 
requests for sexual favors or repeated offensive comments of a 
sexual nature from adults.   
        The approach taken by H.R. 5319 is not dissimilar to the 
approach taken by the Children's Internet Protection Act, through 
which Congress requires schools and libraries that receive e-rate 
funding to impose filtering technology to protect kids from on-line 
visual depictions of an inappropriate sexual nature.  
        I have long supported the e-rate, and I continue to do so.  I visit 
a school a week and have seen the tremendous educational value 
which the Internet has brought to students throughout my district, 
and I recognize the importance of the e-rate in making this a 
reality.  
        However, as with all technologies, the Internet is a double-
edged sword, and Congress has a responsibility to ensure that, to 
the extent that a federal program is involved, it is doing all that it 
can to ensure that children are protected from on-line dangers.   
H.R. 5319 represents yet another step in making our children's on-
line experience at school or at the library safe.  
        So, I want to thank our witnesses for being with us today, and I 
look forward to hearing their views on H.R. 5319.  

        MS. ESHOO.  Thank you, Mr. Chairman.  And thank you to all 
of the witnesses that are here today.  We are going to learn from 
you.  I would particularly like to welcome Chris Kelly, who is 
representing Facebook, a company that is located in the heart of 
my congressional district, Palo Alto.  So thank you for traveling 
across the country and being here with us today.  
        Without a doubt, everyone here today, everyone, whether they 
are at the witness table, in the audience in the hearing room, and 
the Members of Congress that are here, are concerned about 
predators that stalk the most vulnerable in our society, our 
children.  I think the most important thing that can come out of the 
hearing today is raising the awareness of the problem and what 
some of the solutions are.  
        Certainly the bill directs itself to be a solution.  I think we need 
to build on that.  This is an issue that parents--I don't think we 
need to teach them more about it.  They are already concerned.  
They want solutions; that is our job.  
        I think it is important for us to all understand that the computer 
that is in our den or in the family room or in our children's 
bedrooms is really a public space, and I don't think we think of it 
that way.  A computer with Internet access is no more private than 
a busy street or the mall or the grocery store unless we take steps to 
secure it.  No parent or teacher would drop a child off in Times 
Square and say, "Have fun, make sure you don't leave the Disney 
store."  That just isn't a reality.  So why would anyone turn their 
children loose on the Net without supervision and other safeguards 
to protect them?  
        Nothing is more important than close supervision, and 
monitoring of a child's Web surfing, and a host of tools are 
available to make this difficult task even easier and more effective.  
        Ten years ago, I introduced legislation, the On-Line Parental 
Control Act, to encourage the use of technology, and most Internet 
service providers now offer parental control tools to their 
customers.  Combined with technological support, parental 
vigilance is the single most effective thing anyone can do to stop 
online predators.  I believe that, and I think it has been borne out.  
        I think we also have to bear in mind that the Internet and many 
of the sites we will be discussing today are the source of great 
convenience, enriching our educational experiences, and 
collectively are the leading sector of our economy.  Just as the Net 
has revolutionized communications, e-mail, instant messaging, 
VOIP, and e-commerce, websites like Friendster, MySpace, and 
Facebook have transformed the way we, particularly young people, 
socialize, make new friends, and establish business contacts.  
These are tremendous new services, and Web networking is by no 
means a negative development, but it does create real challenges 
for companies, for policymakers, and for parents to ensure the 
safety and well-being of our kids.  
        We have to confront these challenges in a way that addresses 
the dangers that exist, without causing unnecessary collateral 
damage to some of the very valuable sites and services now 
available on the Net.  And I think that this is going to be a real 
valuable exercise in terms of this hearing because the working 
knowledge of Members that are going to make these policy 
decisions, in my view, needs to be broadened and deepened at the 
same time.  
        So I look forward to hearing from each one of the witnesses.  
Mr. Chairman, thank you for your able leadership of our 
subcommittee, and thank you for having this hearing today.  
        MR. UPTON.  I thank the gentlelady.  I would ask at this point 
unanimous consent that the two sponsors of the bill, Mr. Kirk and 
Mr. Fitzpatrick, might be able to participate in the hearing and, 
obviously, follow the regular order, which would be after the 
members of the subcommittee.  And without hearing objection, 
that should be the case.  
        We would recognize for an opening statement the Chairman of 
the full committee, the good gentleman from Texas, Mr. Barton.  
        CHAIRMAN BARTON.  Thank you Mr. Chairman.  I want to 
extend a personal welcome to my good friend, personal friend of 
longstanding, Attorney General of Texas, Greg Abbott.  Glad to 
have you here, General.  We appreciate you being willing to testify 
on this small panel of seven other people.  We appreciate your 
humility, and we certainly appreciate your service to the State of 
Texas and extension of some of the things you are doing for the 
citizens of our entire country.  
        We are here today to have a legislative hearing on H.R. 5319, 
the Deleting Online Predators Act of 2006.  It has been authored 
by Congressman Fitzpatrick, who is also with us up here on the 
dais.  I would like to welcome some of our witnesses who have 
testified before Mr. Whitfield's subcommittee, who has been 
holding a hearing on this malaise.  We have Mr. Chris Kelly from 
Facebook, we have Parry Aftab from WiredSafety.org.  They have 
already participated in Mr. Whitfield's hearings, and we are glad to 
have you here at the legislative hearing.  
        We were not able to get a representative of MySpace to testify 
at today's hearing, which I think is unfortunate.  The Oversight and 
Investigations Subcommittee has been holding a series of hearings 
to investigate the sexual exploitation of children on the Internet.  
The hearings have focused on the growing Internet child 
pornography trade, and the tools that sexual predators use to 
victimize our children.  We have also tried to determine what, if 
anything, is being done or can be done to find, prosecute, and 
convict the child predators in our society.  
        The Oversight Subcommittee has heard from the Federal Trade 
Commission, Federal Communication Commission, law 
enforcement agencies, children subjected to sexual abuse, victims' 
advocates, and some of these Internet service providers.  
        H.R. 5319 targets children's use of social networking websites 
and chat rooms in schools and libraries.  As participation in these 
Internet "social communities" rises to record numbers, so do the 
news reports of a multitude of potential dangers they pose.  
        There is no question that the Internet does and will continue to 
provide innovative benefits to society.  However, we must take 
steps now to protect our children, and this is a priority of this 
subcommittee and also of the full committee, and, I might add, it is 
a priority on both sides of the aisle.  Mr. Dingell shares this 
concern just as much as I do.  We need to prevent predators from 
using the Internet and social networking sites, in particular to prey 
on our children.  
        I look forward to hearing from our witnesses today in order to 
better understand the social networking phenomenon, the benefits 
and the problems that it creates.  If we can understand this, it will 
enable us to strike the right balance regarding the appropriate role 
for the Federal government and Federal legislation to play in 
helping our educators keep our children safe on the Internet.  
        It would seem to me that H.R. 5319 is a step in the right 
direction.  Schools and libraries that receive universal service 
subsidies have an obligation to ensure that their subsidized 
communication services do not become a hunting ground for 
pedophiles.  If social networking sites are not taking the necessary 
precautions to prevent the exploitation of children, then, at the very 
least, Congress should prohibit the use of federally mandated funds 
to access Internet sites that put children in harm's way.  
        Again, I want to thank Attorney General Abbott for being here.  
I want to thank the other witnesses for being here.  And I thank 
you, Mr. Chairman, for holding this hearing. 
        [Prepared statement of Hon. Joe Barton follows:] 

PREPARED STATEMENT OF THE HON. JOE BARTON, CHAIRMAN, 
COMMITTEE ON ENERGY AND COMMERCE 

        Mr. Chairman, thank you for holding this hearing today on 
H.R. 5319, the "Deleting On-line Predators Act of 2006" authored 
by Congressman Fitzpatrick.  I'd like to once again welcome Mr. 
Chris Kelly from Facebook, and Ms. Parry Aftab from 
WebSafety.org, both of whom have participated in earlier hearings 
held by our Oversight and Investigations Subcommittee, on the 
issue of sexual exploitation of children over the Internet.  Although 
I am disappointed that Myspace declined to send a representative 
to attend today's hearing, I would like to offer a warm welcome to 
the Attorney General from my home state of Texas, The Honorable 
Greg Abbott.  Thank you - and all of the witness on the panel  - for 
taking the time out of your busy schedules to appear before us 
today.  
        The Oversight and Investigations Subcommittee is currently 
holding a series of hearings to investigate the sexual exploitation of 
children on the Internet.  The hearings have focused primarily on 
the growing Internet child pornography trade, the tools sexual 
predators use to victimize children, and what can, and is, being 
done to find, prosecute and convict child predators.  The 
Subcommittee has heard from the FTC, FCC, law enforcement 
agencies, children subjected to abuse, victims advocates, and most 
recently from Internet Service Providers and social networking site 
owners.
        H.R. 5319 targets children's use of social networking websites 
and chat rooms in schools and libraries.  As participation in these 
Internet "social communities" rises daily in record numbers, so do 
the news reports of a multitude of potential dangers they pose.  
        There is no question that the Internet does and will continue to 
provide innovative benefits to society far into the future.  However, 
the protection of our children must be a priority of this government 
and of our society.  We need to prevent predators from using the 
Internet, and social networking sites in particular, to prey on 
children.  
        I look forward to hearing from our witnesses today in order to 
better understand the social networking phenomenon and the 
benefits and problems it creates.  Understanding this will enable us 
to strike the right balance regarding what role, if any, the Federal 
Government and educators should play in keeping our children 
safe on the Internet.  
        H.R. 5319 is certainly a step in the right direction.  Schools and 
libraries that receive universal service subsidies have an obligation 
to ensure that their subsidized communications services do not 
become a hunting ground for pedophiles.  If social networking 
sites are not taking the necessary precautions to prevent the 
exploitation of children on their sites, then, at the very least, 
Congress should prohibit the use of federally-mandated funds to 
access Internet sites that put children in harm's way.
        I look forward to hearing from our witnesses, and I yield back 
the balance of my time.

        MR. UPTON.  At this point I would recognize the gentleman 
from Texas, Mr. Gonzalez.  
        MR. GONZALEZ.  I commend you for all of your efforts, and I 
want to welcome all of the witnesses but, again, I want to echo the 
sentiments of the full committee, Mr. Barton, in welcoming our 
esteemed Attorney General Greg Abbott who served admirably on 
our Supreme Court.  It is good to see you again.  As we speak, 
there are different maps being drawn regarding our congressional 
districts.  So I really do welcome you, Greg.  
        But, seriously, what we are dealing with today cannot be 
adequately emphasized as to the importance of our respective 
constituencies.  This is something that is commonly held no matter 
where you go, whether it is a Republican or a Democratic district, 
regardless of the region and such.  The question really is:  What 
can we do in a practical sense and technologically that is feasible, 
and looking at the legalities too?  
        So I really do welcome Greg's perspective on this.  But overall, 
at the end of the whole process, this is really quite limited when 
you think in terms of libraries, schools, and so on.  And the legal 
nexus that allows us to provide or mandate certain conditions on 
these institutions and such is really the Universal Service Fund; 
and that is another issue, by the way, which has still not been 
resolved by this committee as we move forward regarding that 
particular issue.  
        So it is important to keep that in mind.  In other words, what 
gives this Congress jurisdiction to impose those particular 
conditions?  At the end of the process, though, we have to see what 
is the potential of the unintended consequence of the legitimate use 
of the Internet, and I think this committee is always driven with 
that particular goal in mind.  And it is what we are doing because 
we know there are always going to be criminal and illegitimate 
uses of the Internet, but as we attempt to govern those and address 
the concerns of our constituents, the big picture, though, is the 
majority of the use of the Internet is legitimate, and it has been a 
tremendous economic accelerator and such for this country, and we 
can't again impede its progress.  But nevertheless, I think that we 
can still have the best of both worlds, and hopefully the testimony 
of the witnesses will guide us there today, and I yield back.  
        Thank you, Mr. Chairman. 
        MR. UPTON.  Mr. Gillmor.  
        MR. GILLMOR.  Thank you very much, Mr. Chairman, and I 
appreciate your holding this hearing.  As a member of both this 
subcommittee and as a strong advocate of strong sex offender 
laws, I think this hearing is an important step in protecting our 
children from violent predators.  As a sponsor of two bills, H.R. 95 
and H.R. 4815, which were aimed at giving American families 
access to necessary information they need to protect themselves 
from violent sexual offenders through a national database.  I point 
out that both of those bills have been incorporated in other 
legislation and have now passed the House of Representatives.  
However, I believe that our schools and our libraries have been 
taken for granted as a safe haven that is free of illicit and illegal 
cyber content.  Unfortunately, we know that is not the case.  And I 
agree with the concepts promoted by H.R. 5319--but I believe that 
today's discussion is simply the beginning of an in-depth dialogue 
between policymakers and industry leaders.  Clearly, social 
networking and chat technologies are not inherently bad and they 
offer many benefits.  Yet, in using them, we have to be sure that 
we protect the safety of our children.  
        A recent study funded by the National Center For Missing and 
Exploited Children, Dr. David Finkelhor, Director of Crimes 
Against Children Research Center, found that one out of every five 
children received a sexual approach or a solicitation over the 
Internet in the past year.  Additionally, in a separate study 
commissioned by the National Association of School Resource 
Officers and conducted by the National School Safety and Security 
Services, the leading independent national school safety and 
security firm based in Cleveland, Ohio, showed 55 percent of 
school safety officers stating that concerns regarding 
Internet-based crimes had increased in their school community in 
the past 2 years.  These are alarming statistics and I think we ought 
to take the necessary steps to protect our Nation's families before 
tragedy can befall other witnesses.  
        Mr. Chairman, I have been pleased to work closely with the 
Safe Now Project on the two bills of mine that I mentioned, and I 
look forward to working with them, members of this committee, 
industry, and leadership to ensure that our Nation's children are 
protected, while allowing consumers to continue to realize the 
benefits of these technologies.  And I yield back.  
[Prepared statement of Hon. Paul E. Gillmor follows:] 

PREPARED STATEMENT OF THE HON. PAUL E. GILLMOR, A 
REPRESENTATIVE IN CONGRESS FROM THE STATE OF OHIO 

        Thank you for holding this very important hearing.  As a 
member of this subcommittee and as a strong advocate for 
increasing our nation's sex offender laws, I see this hearing as an 
important step in protecting our country's children from violent 
predators.
        As the sponsor of two bills, H.R. 95 and H.R. 4815, aimed at 
giving American families unfettered access to the necessary 
information they need to protect themselves from violent sexual 
offenders, I believe that our schools and libraries have been taken 
for granted as a safe haven that is free from illicit and illegal cyber 
content.  Although I agree with the concepts promoted by H.R. 
5319, I believe today's discussion is simply the beginning of an in-
depth dialogue between policymakers and industry leaders because 
social-networking and chat technologies are not inherently bad and 
offer many benefits-yet we must ensure the safety of our 
children.  
        In a recent study funded by the National Center for Missing 
and Exploited Children, Dr. David Finkelhor, Director of the 
Crimes Against Children Research Center, found that one in every 
five children received a sexual approach or solicitation over the 
Internet in the past year.  Additionally, in a separate study 
commissioned by the National Association of School Resource 
Officers and conducted by National School Safety and Security 
Services, a leading independent national school safety and security 
firm based in Cleveland, Ohio, showed 55% school safety officers 
stating that concerns regarding Internet-based crimes had increased 
in their school-community in the past two years.  Mr. Chairman, 
these are alarming statistics and we must take the necessary steps 
to protect our nation's families and before tragedy can befall 
another needless victim.  
        Mr. Chairman, I have been pleased to work closely with the 
Safe Now Project on both of my bills, and I look forward to 
continuing to work with them, members of this committee, 
industry, and leadership to ensure that our nation's most precious 
assest-our children-are protected while allowing consumers to 
continue to realize the benefits of these technologies.  This 
challenge must be met and a delicate balance must be struck, but 
we must come together in good faith to make certain that our 
schools and libraries continue to be a sanctuary for learning and 
growth.

        MR. UPTON.  I thank the gentleman, and recognize the Ranking 
Member of the subcommittee, Mr. Markey from Massachusetts.  
        MR. MARKEY.  Thank you, Mr. Chairman, very much.  And I 
want to commend you, Mr. Chairman, for calling this hearing this 
morning on Internet chat rooms and social networking sites and 
legislation making certain requirements on K through 12 schools 
and libraries seeking to receive E-rate funding.  There is a rising 
concern over Internet sites in the context of child exploitation.  The 
Oversight and Investigations Subcommittee has held several 
hearings on this subject.  While there are age and other restrictions 
on many of the sites, including MySpace.com and Facebook, there 
are questions as to how such restrictions are verified and enforced.  
This subcommittee has a long history of working to ensure a safe 
environment for children on the Internet.  
        In 2000, Congress enacted the Internet safety requirements for 
schools and libraries receiving E-rate funding to ensure that such 
entities were monitoring children's online activities, to thwart 
access to material that was harmful to minors.  
        In addition, I cosponsored legislation with Representative John 
Shimkus, which promoted healthy and safe Internet surfing for 
children with the dot-kids law.  That law establishes a domain for 
sites with content safe for kids and prevents any links outside of 
the domain.  
        Legislation before this subcommittee seeks to go further and 
proposes to create additional requirements on schools and libraries.  
These requirements would require K through 12 schools and 
libraries to certify that they prohibit access to social networking 
sites and chat rooms through which minors may easily access or be 
presented with indecent materials or easily be subjected to 
unlawful sexual advances.  Without question, combating child 
exploitation and safeguarding children is a high priority.  
        In pursuit of that goal, we should be mindful, however, of 
devising new requirements that may be plagued by terminological 
inexactitude, a standard that is based upon what may or may not be 
easily accessed may be difficult to define and enforce.  
        In addition, I have reservations about utilizing the E-rate 
funding mechanism as the legislative hook for Federal involvement 
in this area.  That is because the E-rate program was not designed 
to be a cop on the beat in the front lines, battling child predators.  
Rather, it was designed to enhance Internet access and bridge the 
digital divide.  As a result, it is a program which may not help or 
assist all K through 12 schools at any time, or individual schools in 
every funding cycle.  
        In other words, if the goal is protecting children and combating 
child exploitation, why should these requirements only apply in 
schools receiving E-rate funding?  In other words, only the poorest 
schools.  Why should we not ensure that every child in every 
school be protected?  
        Our colleague, Representative Melissa Bean of Illinois, has 
similar legislation, the Safeguarding America's Families by 
Enhancing and Reorganizing New and Efficient Technologies Act 
of 2006, or the SAFER NET Act.  This legislation puts authority in 
the Federal Trade Commission to establish an Office of Internet 
Safety and Public Awareness.  That office would have the task of 
evaluating Internet safety efforts and activities provided at various 
levels of government, eliminating redundancy of efforts at various 
levels of government and serving as the primary contact in the 
Federal government, and as a national clearinghouse for 
information and public awareness efforts regarding Internet safety.  
        I commend that legislation as well to the subcommittee's 
attention, recognizing, Mr. Chairman, quite well, that it is not 
within our subcommittee's jurisdiction.  However, it is within the 
full committee's jurisdiction, and it may warrant our attention as 
we continue to look into these matters.  
        I think it is important, Mr. Chairman, that we not be limited 
just to E-rate beneficiaries.  I don't think that really should be the 
purpose of this legislation; otherwise, only if you are in a poorer 
school would you be protected.  Whereas, we want to ensure that 
as we look at this issue, that there is, in fact, a universal 
application, or else in many ways it may be struck down as being 
unconstitutional, as not being a ubiquitous piece of legislation.  So 
I yield back the balance of my time. 
        MR. UPTON.  Mr. Shimkus.  
        MR. SHIMKUS.  Mr. Chairman, I waive for questions.  
        MR. UPTON.  Mrs. Wilson.  
        MRS. WILSON.  Thank you, Mr. Chairman, and thank you for 
holding this hearing today.  I wanted to also thank Congressman 
Fitzpatrick for his leadership on this issue.  When kids are at a 
point in their lives where they are listening to their peers more than 
they are listening to their parents, it is at the point of which they 
are really most vulnerable, and that is really in the teen years 
where they are vulnerable to people who, if they met them in 
person, there might be more flags that went off that said there is 
something not right here, I don't like this, and they would be 
willing to walk away.  But on the Internet, those flags that kids 
learn from a very young age about what is safe and what doesn't 
feel safe are often not there, or are intentionally hidden by people 
who want to exploit them.  
        It is very hard to raise G-rated kids in an R-rated world.  And 
we should be able to give schools and parents more tools to allow 
their kids to grow up safely and to move towards being more 
independent, which is a very natural thing for teenagers while 
being still in a safe place.
        My colleague, Mr. Shimkus, has led this effort on this 
committee on the dot-kids legislation, and Mr. Green of Texas and 
I sponsored legislation that ultimately became the CAN SPAM Act 
to allow parents to have control about the junk e-mail that comes 
into their homes, which has led to several prosecutions and a 
significant reduction in unsolicited commercial e-mail, particularly 
with pornographic content.  
        I think this legislation we are looking at here today will help 
schools battle a problem.  In most middle schools, and certainly 
most high schools, kids can eat their lunch fast and go to the 
library to play games on the computers or use the Internet.  Yet 
they are there, largely or loosely unsupervised.  We need to make 
sure that that is a safe place for them to be.  
        I will also be interested in hearing from our panel, what other 
tools does law enforcement and industry need to track and 
prosecute predators, who are using places that may seem safe to 
kids, to prey on kids.  
        Thank you, Mr. Chairman, for this hearing, and I look forward 
to working on this legislation. 
        [Prepared statement of Hon. Heather Wilson follows:] 

PREPARED STATEMENT OF THE HON. HEATHER WILSON, A 
REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW MEXICO 

        Mr. Chairman, I thank you for holding this important hearing 
and compliment Congressman Fitzpatrick for his leadership on this 
issue.   
        Popular websites like myspace.com, thefacebook.com, 
xanga.com, and friendster.com have become the way teenagers 
communicate.  When kids are at the point when their peers are 
starting to be more important than their parents, they are very 
vulnerable.  Predators know this and are trolling the chat rooms 
pretending to be someone they are not.   
        Several of us on this committee have worked together to make 
the internet safer for children.   It is hard to raise G-Rated children 
in an R-Rated world.   In the 108th Congress, Mr. Green and I 
authored legislation that was enacted into law as part of the CAN-
SPAM Act to give parents a way to control unsolicited email and 
put the electronic equivalent of a "brown paper wrapper" in the 
body of a message.   We saw results with this piece of legislation 
with 4 people being indicted soon after the legislation was enacted 
and a dramatic reduction in spam - particularly pornographic 
spam.   
        In 2002 our colleague, Mr. Shimkus, authored the "Dot Kids 
Act" which passed the Congress and became law.   The legislation 
created a second-level domain within the internet which promotes 
positive experiences for children and families using the internet 
and provides a safe online environment for children.   Ultimately, 
it helps prevent children from being exposed to harmful material 
over the internet.   
        According to the Center for Missing and Exploited Children, 
more than 2,600 incidents have occurred where adults have used 
the internet to target children online in order to engage in sexual 
activity.  Teenagers 13-18 often communicate over the internet 
with someone they have not met in person and 1/3 of those 
teenagers have talked about meeting someone they have only met 
through the internet.  
        The legislation we are considering today will help schools 
battle this problem by creating additional internet safety 
requirements for schools to receive universal service funding.  
Websites like myspace.com and the facebook.com do not belong in 
our schools.  Parents need to be educated as to what these websites 
are and how their children's personal information can be made 
available by the click of a mouse.  And law enforcement may need 
more tools to track these predators and prosecute them.   
        I look forward to the testimony today and how we can make 
the internet a safer place for children.

        MR. UPTON.  Mr. Inslee. 
        MR. INSLEE.  Thank you.  Having sat through the oversight 
hearings, I can tell you this makes the hair stand up on the back of 
your neck when you hear what is going on. And I do look forward 
to getting some legislation, but I have some concerns about this, 
though, both from not going far enough and also going too far.  
        Not going far enough, I do hope at some point the full 
committee will look at the issue of storage of records to help law 
enforcement.  The one thing we have heard from law enforcement 
over and over again during oversight hearings, is the inability to 
track these offenders to get the information that needs to be 
retained so they can search them out and find them, is what we 
really need.  That is the silver bullet for law enforcement.  I hope at 
some point our full committee will do that.  I don't think that is in 
this bill particularly.  
        Second, the bill doesn't really address the 99 percent of the 
communications where these take place, which is at home.  And, 
finally, getting parents to have access to filtering software is where 
the real megatonnage is in this issue, and I hope at some point our 
committee will look at it.  
        Third, an overly broad aspect of it.  This is a great utility and I 
think it is important when we talk about all the bad things 
happening on the Net; one of the reasons the kids are so much 
smarter than us is because they have access to the Internet.  And 
you hate to shut it down.  And, frankly, the way this bill is written, 
one of our concerns, it would essentially disable Web-based sites 
for schools.  If you want to set up a school government on a 
website, you want to allow kids to vote for one another, to e-mail 
to one another, as I understand it this bill currently would shut that 
down.  I don't think that is something we want to do.  We do have 
prank calls, but we haven't outlawed the phone system.  That is 
something we need to get to to outrefine this bill.  Thank you.  
        MR. UPTON.  Mr. Walden.  
        MR. WALDEN.  Thank you, Mr. Chairman.  I am going to 
waive my opening statement.  
        MR. UPTON.  Mr. Terry.  
        MR. TERRY.  I waive as well.
        [Prepared statement of Hon. Lee Terry follows:] 

PREPARED STATEMENT OF THE HON. LEE TERRY, A 
REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEBRASKA 
        
	Thank you Mr. Chairman Upton for holding today's hearing on 
how we can take action to protect our children from online 
predators.
	My wife and I monitor my three young boys' internet activity 
at home closely.  However, I'm appalled to think that my boys or 
other young children might be using taxpayer dollars and 
computers that are intended to be used for educational purposes to 
access social networking websites as MySpace.com, 
Facebook.com, or similar social networking websites that leave 
them vulnerable to online predators. 
	The focal point of today's hearing is primarily over the bill, HR 
5319, the Deleting Predators Act of 2006.  HR 5319 would require 
schools and libraries that receive Universal Service funds (E-Rate 
money) to enforce a policy that prohibits access to a commercial 
social networking website or chat room through which minors may 
access obscene material, or be solicited for offensive comments or 
actions.  
	I support this limited policing of the Internet because it is 
unacceptable that our students in public schools could be allowed 
to access harmful material.  We would certainly not condone 
pornographic material being accessed in our schools and, after I 
visited MySpace.com I would say at best that some of the material 
on MySpace.com was highly suggestive and borderline offensive, 
if not in some cases clear pornography. 
	The fact that schools and libraries could lose Universal Service 
E-Rate money if violations occur does not bother me in the least.  
The intention of the E-Rate program is to ensure that our schools 
and libraries are connected so that every child has the potential to 
reach their capacity regardless of their location.  Those goals are 
consistent with the over all Universal Service Fund and any 
attempt to permit this public system to be a conduit to a 
Commercial website should not be allowed.
	HR 5319 is a step in the right direction to protect our minors 
from pedophiles that prey on our youth via the Internet.  I look 
forward to hearing from today's witnesses and I hope that we 
move swiftly on legislation that will raise the profile on the 
dangers that the Internet can pose to our youth.

        MR. UPTON.  Mr. Ferguson.  
        MR. FERGUSON.  Thank you, Mr. Chairman.  Thank you for 
holding this hearing.  I particularly appreciate Mr. Fitzpatrick's 
and Mr. Kirk's work on this issue, and I am certainly looking 
forward to hearing from our distinguished panel of witnesses 
today.  
        I particularly want to welcome Ms.  Parry Aftab who is from 
New Jersey.  She is the Executive Director of WiredSafety.  She 
testified in our hearing yesterday, in our Oversight and 
Investigations Subcommittee field hearing in my district in New 
Jersey yesterday.  She is familiar to members of this committee 
and she has done extraordinary work on this particular issue, and 
we are glad she is here.  
        As a member of the O and I Subcommittee of this committee, 
this is an issue that I have become very familiar with over the past 
several months, and it is probably the ugliest and most disturbing 
issue that I have seen in my years in Congress.  We are all aware of 
the promises that the Internet holds for education, for socialization, 
for fun for our children.  However, there is unfortunately a much 
darker side to the Internet that we all need to be very much aware 
of.  This is the side of the Internet that poses hidden dangers for 
unsuspecting children who may think that they are just chatting 
with a friend a few States away or perhaps even in their own 
neighborhood.  
        In these hearings our subcommittee has heard from Internet 
service providers, from social networking sites, from law 
enforcement officials, and from young people themselves.  All of 
these witnesses have done well in helping us to understand the 
problem of child exploitation over the Internet and what can be 
done to help protect our children from these predators who set out 
to harm them.  
        Just yesterday at the field hearing in my district in New Jersey, 
we heard testimony from an impressive group of witnesses, all 
with extensive experience in the field of child exploitation and 
Internet safety.  They offered several suggestions not only to help 
our children stay safe while surfing the Net, but also in 
apprehending these people who prey on our children not only in 
their schools and in their friend's house, but even in the protection 
of their own bedrooms.  Some of these suggestions included more 
Internet education and awareness for both children and their 
parents, extended data retention by Internet service providers to 
help law enforcement officials track these predators down, harsher 
penalties for sex offenders, and closer monitoring by parents of 
what their children are doing on the Internet.  
        I am pleased to be able to say that New Jersey has an 
exemplary law enforcement unit, dedicated to fighting cyber crime 
and apprehending child predators, and I am proud of our New 
Jersey law enforcement officers who told us their stories yesterday 
and who work tirelessly to put these offenders behind bars.  
        I also, of course, again want to commend the gentleman from 
Pennsylvania and the gentleman from Illinois for the work that 
they have done on this issue and for taking time from their 
schedules to testify at our--Mr. Fitzpatrick testified at our hearing 
yesterday--and for their attendance at our hearing today.  
        As our Energy and Commerce Committee moves forward with 
these hearings, we are all becoming acutely aware of the dangers 
facing our children on the Internet today.  There has never been a 
greater need for us as lawmakers and, for many of us, as we can 
speak as parents, to take a stand to protect our children.  
        Again, thank you, Mr. Chairman, for holding this hearing and I 
look forward to hearing from our witnesses. 
        MR. UPTON.  Mr. Stupak.  
        MR. STUPAK.  Thank you, Mr. Chairman, for holding this 
important hearing on what Congress can do to delete online 
predators.  As Ranking Member of the Oversight and 
Investigations Subcommittee I have been impressed, until recently, 
with the bipartisan and thorough nature of the subcommittee's 
continued work in this area.  I am hopeful the O and I 
Subcommittee work will guide this committee as we draft 
legislation to best protect our children from online pornographers 
and child abusers.  
        We heard at the Oversight and Investigations Subcommittee 
hearings that ISPs have widely varied methods for blocking 
predators and pornography from their networks and records of 
reporting offenders to authorities.  We must hold the ISPs, 
including social networking sites, accountable.  As a result of the 
O and I Subcommittee's work, many ISPs have made or are 
planning substantial changes to their policies to protect our 
children.  
        While these recent actions are certainly welcome, they are not 
enough.  The reporting requirements for ISPs need to be updated 
and enforced.  This should be the primary focus of this committee.  
Furthermore, the committee should not ignore the testimony of the 
Federal Communications Commission and the Federal Trade 
Commission, whose hands are tied by lack of authority and 
insufficient laws, respectively.  
        It is important to note, however, that during the series of O and 
I hearings, there is no mention of online child exploitation being 
specific problems at schools and libraries.  Perhaps this is because 
there is already a law on the books that requires schools and 
libraries who receive E-rate support to monitor children's Internet 
use and to employ blocking technology from viewing obscene or 
harmful materials.  Many schools and libraries already block sites 
such as MySpace.  
        While I support holding today's hearings to see if schools and 
libraries need to enact further safeguards, I believe the real threat 
lies in children using these sites in his or her own room without 
adult supervision.  
        The legislation before us today lacks many of the important 
reforms needed that came to light as a result of the O and I 
hearings and investigation.  I commend the Chairman for holding 
today's hearing and starting down a path to craft comprehensive 
bipartisan legislation that responds to the concerns voiced by the 
experts, law enforcement, ISPs, and the victims themselves, and 
not to go off in a direction that will do nothing to really crack 
down on this problem.  
        So with that, Mr. Chairman, I will yield back the balance of my 
time.
        MR. UPTON.  Mrs. Blackburn.  
        MRS. BLACKBURN.  Thank you, Mr. Chairman.  I want to 
welcome our witnesses and thank you for the hearing today and 
also to thank Chairman Stearns.  I am on the O and I committee 
and we have spent a lot of time holding hearings and working on 
this issue.  We appreciate that many of you have been with us 
before, and we appreciate that you have returned to us today.  
        I do want to say that as we worked through these hearings and 
have addressed some of the issues, that we have seen some pretty 
encouraging signs from the industry and from some of those that 
have been involved in the issue.  Fox Interactive Media, the parent 
company of MySpace, in some of the work that MySpace is doing, 
they are taking some steps that are focused on security and 
protections for our minors, those that are under 18, and they have 
also taken some initiatives to start working with law enforcement 
agencies to protect children and to rout out the child predators.  
And this is the kind of activity that we appreciate seeing, and the 
kind of partnerships that we are anxious to see, and we are anxious 
to monitor this progress.  
        And I would encourage all of you to remember, now is the time 
for innovative ideas and now is the time for thinking outside the 
box, and now is the time to participate with us as we move forward 
on this.  This is a tragic, tragic issue, online sexual predators who 
are using computers and the Internet to enter the safe haven of the 
home and attack these children.  
        So your presence and your work, the diligence of our Chairman 
and our committees and our staff, who has been so committed as 
we work through this, we do appreciate.  I know there are lots of 
concerns with the bill that is before us, but I do want to thank 
Mr. Fitzpatrick and Mr. Kirk for their work on the issue in bringing 
the legislation before us.  Their concerns are well placed.  
        We are looking forward to working through this bill.  We are 
looking forward to hearing from the witnesses and, Mr. Chairman, 
I yield back the balance of my time.  
        MR. UPTON.  Mr. Wynn.  
        MR. WYNN.  Thank you, Mr. Chairman, for holding this very 
important hearing on Internet predators.  I would also like to 
compliment the O and I committee for the work they have already 
done on this very important issue.  You know, it is actually very 
refreshing to be discussing an issue with such a direct impact on 
American families, because in this committee we often hear from 
commercial interests basically promoting their bottom line.  But I 
think we can do a great deal of good here today, and I hope we are 
able to work in a bipartisan fashion to produce a product that is 
helpful to all American families.  
        Let me just make an observation that of all the places our 
children go on the Internet, chat rooms are the most difficult sites 
for parents to monitor.  These locations permit the kinds of persons 
you would usually avoid in person to easily and readily approach 
our children.  One in four U.S. teen girls reported they had met 
strangers off the Internet.  One in seven boys admitted that they did 
as well.  While most of these Internet friends turn out to be another 
teen or preteen, that is not always the case.  Unfortunately, children 
are now dying at the hands of the Internet child molesters and not 
all sexual exploitation occurs off line.  At a disturbing rate, child 
predators are forming an online community, a bond that is 
unparalleled in history.  They are openly uniting against legal 
authorities and discussing ways to influence public thinking and 
legislation on child exploitation.  
        In a 2000 study, the National Center for Missing and Exploited 
Children and the Justice Department said one out of every five 
children ages 10 to 17 surveyed said they received a sexual 
solicitation over the Internet during the previous year.  I believe 
parents have primary responsibility.  They must work to minimize 
the chances of this happening by monitoring the hours their 
children spend online.  As a general rule, the later at night one is 
online, the more suspect the activity that occurs.  
We should be sure to point out stories in the newspapers about 
cyber predators and make sure children do not give out information 
over the Internet that would lead a person to find out their child's 
true identity or their location, their address.  
But government has an important role, and this is where this 
committee can do some real good.  We must put together on a 
bipartisan basis a productive bill that will address this problem, not 
inhibit the use of the Internet, but make sure that predators cannot 
exploit the Internet for their nefarious purposes.  
I look forward to hearing from the witnesses today and 
working on producing a quality bill.  I relinquish the balance of my 
time.  
[Prepared statement of Hon. Albert R. Wynn follows:] 

PREPARED STATEMENT OF THE HON. ALBERT R. WYNN, A 
REPRESENTATIVE IN CONGRESS FROM THE STATE OF MARYLAND 

        Mr. Chairman, 
        Thank you for holding this important hearing on Internet 
predators. Since we often hear from commercial interests 
promoting their ideas, it is refreshing to deal with an issue with a 
direct impact on families.  Of all the places your child goes to on 
the Internet, chat rooms are the most difficult sites parents to 
monitor. These locations permit the kind of person you would 
usually avoid in person to easily and readily approach your 
children.  
        One in four US teen girls reported that they met strangers off 
the Internet. One in seven boys admitted they did as well. While 
most of these "Internet friends" turn out to be another teen or 
preteen, that's not always the case. Unfortunately, children are now 
dying at the hands of their Internet child molesters and, not all 
sexual exploitation of children occurs offline.
        At a disturbing rate, child predators are forming an online 
community and bond that is unparalleled in history. They are 
openly uniting against legal authorities and discussing ways to 
influence public thinking and legislation on child exploitation.  In a 
2000 study, the National Center for Missing and Exploited 
Children and the Justice Department said that one of every five 
young people ages 10 to 17 surveyed said they had received a 
sexual solicitation over the Internet in the previous year.
        Parents have primary responsibility to minimize the chances of 
this happening by monitoring the hours that kids can spend online. 
As a general rule, the later at night one is on line, the more suspect 
the activity that occurs.  We should be sure to point out stories in 
the newspaper about cyber predators and make sure children do not 
give out information over the Internet that would lead a person to 
find your child in real life.
        I look forward to hearing from the panelists today to find out 
more information on what can be done to stop this disturbing trend.

        MR. UPTON.  The gentleman from Pennsylvania, 
Mr. Fitzpatrick, is recognized for an opening statement.  
        MR. FITZPATRICK.  Thank you, Chairman Upton and members 
of the committee, for permitting me to participate in today's 
hearing and for allowing me to address what I feel is a new and 
emerging danger to our Nation's children and their safety while 
using the Internet.  
        Your work in this area will help shed new light on this difficult 
problem that affects both law enforcement and America's families, 
and I appreciate the committee's dedication to this issue.  
        I first want to welcome David Zellis, Bucks County, PA's First 
District Attorney, to Washington and thank him for his 
participation today.  David spent his life in a career prosecuting 
crime in my district, and I know that his testimony will be of great 
use and help to the committee today.  
        As the father of six children I know very well the challenges 
technology poses to our families.  In a world that moves at a 
dizzying pace, being a father gets harder all the time.  Monitoring 
our children's use of emerging technologies is a huge task and the 
Internet remains the focus of many parents' concerns.  
        Recently, one aspect of the Internet has attracted a great deal of 
attention and considerable concern:  the rise in popularity of social 
networking sites.  Social networking sites, best known by the 
popular examples of MySpace, Facebook, and Friendster have 
literally exploded in popularity in just a few short years.  MySpace 
alone has over 90 million users and ranks as the sixth most popular 
English language website, and the eighth most popular in the 
world.  
        While these sites were designed to allow their users to share 
virtual profiles of themselves to friends and like-minded users, 
social networking sites have also become a haven for online sexual 
predators who have made these corners of the Web their own 
virtual hunting ground.  
        The danger our children are exposed to by these sites is clear 
and compelling.  According to a study conducted by the National 
Center For Missing and Exploited Children in 1998, there were 
3,267 tips reporting child pornography.  Since then the number has 
risen by over 3,000 percent to an astounding 106,119 tips in 2004.  
        The Department of Justice recognizes child pornography as a 
precursor for pedophiles and is often linked to online predators.  
According to Attorney General Gonzalez, one in five children have 
been approached sexually on the Internet.  One in five children.  
On the face, these numbers are startling.  Even more startling has 
been the visual evidence offered to millions of Americans through 
the news outlets like NBC Dateline's To Catch a Predator series.  
        Chris Hansen testified before this committee last month.  
However, the findings of his reports cannot be understated or 
forgotten.  Throughout his investigations, Chris Hansen proved 
time and again, with disturbing regularity, that child predators are 
ready and willing to approach the prey they stalk online.  
        Who could forget the Dateline investigation in Florida where 
one predator arrived with his own 5-year-old son to meet what he 
thought was a 14-year-old boy?  
        Who can erase from their memory the man who entered the 
"Dateline" house naked, or the man who brought rope and duct 
tape with him for his encounter?  
        What would have happened in these circumstances if the 
children these predators were to meet were not decoys or if Chris 
Hansen were not there?  How many assaults, rapes, and ruined 
lives would have resulted in these encounters?  
        Mr. Chairman, the fact, however disturbing it may be, is that 
child predators have harnessed the power and anonymity of the 
Internet and social networking sites to hunt for their prey.  
Something must be done to stop the spread of sexual predators 
online, and I believe that my legislation is a step in the right 
direction.  
        My legislation would limit access to minors to social 
networking sites in schools and in public libraries.  However, this 
is no substitute for parental supervision, the first line of defense for 
our children's safety.  That is why H.R. 5319 would require the 
FTC to design and publish a website specifically meant to serve as 
a clearinghouse for information for parents and educators.  Finding 
a solution to the problem of sexual predators online and the 
Internet would take the combined efforts of parents, children, law 
enforcement, and the legislature to take action against these 
crimes; and it is my hope that the legislation that lead to the 
On-line Predators Act will assist in that effort.  Thank you, 
Mr. Chairman.  
        MR. UPTON.  The gentleman from Illinois, Mr. Kirk.  
        MR. KIRK.  Thank you, Mr. Chairman, and thank you for 
having an appropriator on the committee here.  I did do the 
customary courtesy--
        MR. UPTON.  Well, we supported the line-item veto here.  
        MR. KIRK.  I did kiss the Chairman's ring before approaching 
the--
My involvement in this issue started from a unique source.  I 
have a student leadership advisory board, made up of the junior 
and senior class presidents of my high schools.  And I asked them, 
what is the biggest threat to kids that your parents do not know 
about?  And they said it was MySpace.com.  
        Julie Wachtenheim, who is the student body president of 
Wheeling High School, said that she took a particularly good class 
picture and put it up on MySpace and within 45 minutes, a creep 
from Wheeling was trying to contact her.  One of our students said 
that they felt that MySpace.com was really mycreepzone.com and 
it represented a unique danger to kids.  That is outside the 
experience of nearly every Member of Congress who, when they 
grew up, did not have this threat to them.  
        I particularly want to admire the work of Congressman 
Fitzpatrick on this, a leader on suburban issues, and this legislation 
as well as several others are part of a bipartisan suburban agenda 
that we have.  But this bill is particularly important because it was 
written by Congressman Fitzpatrick and cosponsored by 
Congresswoman Bean, representing a bipartisan view towards 
protecting kids in the 21st Century.  
        I would hope that the committee would remember we should 
have the conviction of our own convictions represented in 900 
years of legal tradition, that we want a free and open discourse in a 
democracy, but our 900-year legal tradition also says that when 
you make money in doing business with children, you have a 
unique set of obligations to protect your customers and clients.  
And finding a way to apply that 900-year legal tradition of when 
you do business with children, the State has a unique role in 
making sure they are protected is what this legislation is about.  So 
I applaud you, Mr. Chairman, for having it.  Thank you again for 
having it.  
        MR. UPTON.  I thank you again for your leadership and also 
Congressman Fitzpatrick and also Congresswoman Bean for their 
leadership on this issue.  
        We look forward to proceeding.  At this point I would ask 
unanimous consent that all members of the subcommittee be 
allowed to submit their statements as part of the record and we are 
prepared now to listen to our panel of expert witnesses. 
        [Additional statements submitted for the record follows:] 

PREPARED STATEMENT OF THE HON. BARBARA CUBIN, A 
REPRESENTATIVE IN CONGRESS FROM THE STATE OF WYOMING 

        Thank you, Mr. Chairman.  As a mother of two, this issue is of 
particular importance to me.
        When my two sons were young boys in Wyoming, my husband 
and I worried about their safety all the time - like any parent does.  
We did our best to protect them when we could, but we could not 
be with them 24 hours a day.  So we also did our best to teach 
them how to protect themselves from dangerous people and 
dangerous circumstances.  But, boys will be boys, and we are still 
finding out about the risks my sons took.  I thank God they are 
both alive and healthy today.
        My family has come a long way since those days of worrying 
about being wary of strangers on the street, or looking both ways 
before crossing. Now parents and kids must be wary of strangers 
invading our computers and our technological way of life, making 
our very homes the target of their evil designs.  I do not envy the 
work parents of young children must do to teach and protect their 
kids today.  But just like my sons, kids will be kids, and the allure 
of the internet is too great to assume they will not experiment with 
it.
        In many cases I am firm believer in state and local control over 
issues, but this is an interstate problem that requires an interstate 
solution.  When predators can lure kids to ride a bus across state 
lines for the purpose of sexual exploitation, it is a problem that 
Congress must address.  Similarly, I truly believe that parents are 
the single most influential people in kids lives.  Just like efforts at 
stopping underage drinking, smoking and drug use, kids will 
respond to their parent's teaching regarding internet safety.  While 
Congress can and should never replace parents as the role models 
for children, Congress can play a role in assisting parents as they 
struggle to raise children in the online age.  That is the intention of 
this bill we are discussing today.
        I am interested in hearing from the panelists if this particular 
legislation before us would result in any real reductions in online 
predatory activity.  Would this legislation adequately help parents 
keep their children safe from predators?  Are there other policies 
this subcommittee should be pursuing that would result in further 
protection of our children?  Perhaps most importantly, are there 
solutions outside of legislation currently available in the 
marketplace that would protect children without undue restrictions 
on innovation and technology use?  I look forward to hearing the 
opinions of the panelists.
        Thank you again, Mr Chairman, for your leadership on this 
issue.  I yield back.

        MR. UPTON.  We are going to be joined by the Honorable Greg 
Abbott, the Texas Attorney General; Ms. Parry Aftab, Executive 
Director of WiredSafety.org; Ms. Michelle Collins, Director of the 
Exploited Child Unit of the National Center for Missing and 
Exploited Children; Mr. Ted Davis, Director of Knowledge Asset 
Management, IT Department, from Fairfax County Public Schools; 
Mr. Chris Kelly, Vice President of Corporate Development and 
Chief Privacy Officer of Facebook; Ms. Amanda Lenhart, Senior 
Research Specialist for Pew Internet and American Life Project; 
Ms. Beth Yoke, Executive Director of ALA Young Adult Library 
Services Association from Chicago; and Mr. David Zellis, First 
Assistant District Attorney for the Office of Bucks County District 
in Pennsylvania.  
        We welcome you all.  We appreciate you having submitted 
your testimony in advance.  We would like you to take no more 
than 5 minutes to summarize your statement.  I would note that the 
House is expecting votes within the next 20 or 30 minutes.  So we 
will probably take a brief recess when that starts.  

STATEMENTS OF HON. GREG ABBOTT, TEXAS 
ATTORNEY GENERAL; PARRY AFTAB, ESQ., 
EXECUTIVE DIRECTOR, WIREDSAFETY.ORG; 
MICHELLE COLLINS, DIRECTOR, EXPLOITED CHILD 
UNIT, NATIONAL CENTER FOR MISSING AND 
EXPLOITED CHILDREN; TED DAVIS, DIRECTOR, 
KNOWLEDGE ASSET MANAGEMENT, IT 
DEPARTMENT, FAIRFAX COUNTY PUBLIC SCHOOLS; 
CHRIS KELLY, VICE PRESIDENT, CORPORATE 
DEVELOPMENT AND CHIEF PRIVACY OFFICER OF 
FACEBOOK; AMANDA LENHART, SENIOR RESEARCH 
SPECIALIST, PEW INTERNET AND AMERICAN LIFE 
PROJECT; BETH YOKE, EXECUTIVE DIRECTOR, ALA 
YOUNG ADULT LIBRARY SERVICES ASSOCIATION; 
DAVID ZELLIS, FIRST ASSISTANT DISTRICT 
ATTORNEY, OFFICE OF BUCKS COUNTY DISTRICT 
ATTORNEY, COMMONWEALTH OF PENNSYLVANIA 

        MR. UPTON.  Mr. Abbott, we welcome you.
        MR. ABBOTT.  Mr. Chairman, and members of the 
subcommittee--
        MR. UPTON.  I think you just need to hit the mic button there 
too.  
        MR. ABBOTT.  Thank you very much for the instruction.  My 
name is Greg Abbott.  I am the Attorney General of Texas, and I 
appreciate the opportunity to testify before you today.  
        I would like to very quickly follow up on a comment by 
Congressman Gonzalez from Texas.  I think it is fair to say that 
from the brilliance and eloquence spoken by both you and 
Chairman Barton, I think it is clear that the draft drawers of new 
congressional maps in Texas, as we speak, should understand that 
there is no way you two should be paired against each other, so 
Texans can continue to benefit from the brilliance of both of you.  
        That being said, let me get right to the point, and that is that the 
dangers--
        MR. UPTON.  Mr. Burgess is on his way.  He is a member of 
the committee as well, I want you to know.  
        MR. ABBOTT.  You must be present to win.  
        The dangers to children created by social networking websites 
and chat rooms are all too real.  Our experience in Texas is both 
illustrative and alarming.  Three years ago we created a cyber 
crimes unit in the Texas Attorney General's office.  Our goal was 
to find, arrest, and put behind bars child predators who use the 
Internet to stalk children.  
        A remarkable success is also tragic evidence of the risk 
children face when using chat rooms or social networking sites.  
Our investigators log onto chat rooms that are used by teenagers.  
Sometimes they log onto social networking sites, such as 
MySpace.  The investigators typically assume the identity of a 13- 
or 14-year-old girl.  Not long after they log on, and not long after 
they assume the identity of an underage child, they are barraged 
with uninvited, aggressive, and vulgar language.  
        The offensive Internet chat often turns into action.  The 
predator sets a time, date, and location to sexually assault what he 
believes to be a 13- or 14-year-old girl.  Now, on more than 80 
occasions, the predator has shown up at the location of his 
choosing to act out on his criminal intent.  The location is 
sometimes a motel, sometimes an apartment, sometimes a parking 
lot, sometimes other locations.  And it is not uncommon for the 
predator to bring with him things like condoms, alcohol, or even a 
bed.  Each of those more than 80 occasions has resulted in an arrest 
of a child predator by the Texas Attorney General's Office.  
        The 80th arrest was particularly notable.  It was the arrest of a 
man who chatted with what he thought was a 13-year-old girl on 
MySpace.  In reality, the graphic sexual conversations he was 
having were with a Texas Attorney General investigator.  But what 
makes this case particularly frightening is that at the time he was 
arrested, the predator was out on bail from an arrest that had 
occurred 6 months prior.  At the time of his most recent arrest, he 
was already under indictment for the solicitation of a minor.  In 
other words, while he was out on bond, awaiting trial for illegal 
Internet solicitation of a minor, he was back on the Internet trolling 
for his next victim.  This highlights how dangerous and 
incorrigible these predators are.  
        Children simply cannot be safe with the current landscape of 
cyberspace chat rooms and social networking sites.  Unfortunately, 
not all the people chatting with predators are undercover officers 
and not all of the predators are caught in stings.  Real children are 
real victims of real predators.  
        Recently a 14-year-old girl from central Texas was raped by a 
man she chatted with on a social networking site.  Yesterday this 
story appeared on a TV station in Houston.  To summarize it, the 
headline is "Woodlands Man"--Woodlands is a suburb of Houston-
-"Woodlands Man Admits He Seduced Teen Online."  Quickly, 
the story says that Dale Beckham was charged with luring a 
14-year-old boy he met over the Internet into a hotel room, where 
they had sex.  Beckham traveled from his home in Houston to the 
Ottawa, Canada area with a laptop computer and digital camera.  
His home was later searched and authorities found hundreds of 
images of child pornography on his computers, including pictures 
of children younger than 12 engaged in sexual acts with adults.  
        Perhaps the most disturbing thing about these stories is that 
they are becoming all too common, so frequently posted in 
newspapers that the public may become desensitized to the reality, 
the harsh reality for the victim of Dale Beckham and the victims of 
thousands of predators across this country.  
        No one would allow their children to invite a predator over to 
the house for the evening.  The fact is, that is exactly what happens 
when children log on to these social networking sites and chat 
rooms.  Clearly, safeguards are needed at schools, at libraries, as 
well as in our homes if we are to protect our children against these 
predators.  Such safeguards are the kinds of protections that 
Americans have come to expect.  Streets, neighborhoods, and 
playgrounds are essential to our daily lives and are a part of the 
American social and economic fabric.  Nevertheless, we must 
police our streets, neighborhoods, and playgrounds to ensure their 
safety.  
        Similarly, the Internet Super Highway and social network sites 
are vital to our modern-day economy and they provide an effective 
platform for exchange of ideas, information, and commerce.  They 
also have developed into virtual neighborhoods where people can 
simply socialize.  But these modern-day neighborhoods and 
playgrounds are proving just as susceptible to criminal predators as 
their traditional counterparts, if not more so.  
        Countless Federal laws aim to protect our streets and 
neighborhoods.  The need to protect our virtual neighborhoods is 
just as great.  It is time to end the games of pretend and denial.  
Even worse is that some use a nod and wink to imply it is the 
child's fault or the parents' fault when a child is victimized by 
someone they met online.  Well, when a 14-year-old is raped in the 
streets, we don't blame the girl.  Instead, we work to catch the 
rapist and work to ensure that we have safe neighborhoods where 
kids don't get raped.  The scenario doesn't change just because the 
rape victim chatted with the rapist online.  
Your ongoing vigilance is needed to protect children across 
this entire country and make the Internet a safe place for children 
to play, to learn, to explore, and to grow.  We look forward to 
working with you to get that job done.  
        MR. UPTON.  We look forward to working with you too.  
Thank you for your service.  
        MR. ABBOTT.  Thank you.  
        [The prepared statement of Hon. Greg Abbott follows:] 

PREPARED STATEMENT OF THE HON. GREG ABBOTT, ATTORNEY 
GENERAL, OFFICE OF THE ATTORNEY GENERAL, STATE OF TEXAS

        Mr. Chairman and members of the subcommittee, my name is 
Greg Abbott, I am the Attorney General for the state of Texas, and 
I thank you for the opportunity to testify before you today.  
        Let me start by thanking you for shining a spotlight on the 
growing national nightmare of the Internet being used as a 
playground for child predators.  Your legislative proposal - 
appropriately named "Deleting Online Predators Act" - is an 
important step towards making the Internet safer for our children 
and families.  I wish the solution to the growing problem was as 
easy as hitting a delete button.  Unfortunately, it is much more 
complex.  With your active involvement, though, Internet safety 
will become more of a reality for millions of American children.
        The dangers to children created by social networking websites 
and chat rooms are very real.  The Texas experience is both 
illustrative - and alarming.
        Three years ago, we created a Cyber Crimes Unit in the Office 
of the Attorney General of Texas.  One of its primary missions was 
to find, arrest and convict child predators who use the Internet to 
stalk their prey.  The unit's nationally recognized success is tragic 
evidence of the risk children face when using chat rooms or social 
networking websites.
        Our Cyber Crimes Unit has investigators who log onto chat 
rooms that are used by teenagers.  Sometimes they log on to social 
networking sites like MySpace.   The investigators typically 
assume the identity of a teenage girl, usually around the age of 13 
or 14.  Not long after they log on and assume an under-age 
identity, they are barraged with aggressive and vulgar language 
that is uninvited.  All too often, the offensive Internet "chat" turns 
into action.  The predator sets a time, date and location to sexually 
assault what he believes to be a 13 or 14 year old girl.  On more 
than 80 occasions, the predator has shown up at the location of his 
choosing to act out on his criminal intent.  The location is 
sometimes a motel, sometimes an apartment, sometimes a parking 
lot, sometimes other places.  It is not uncommon for the predator to 
bring things like condoms, alcohol, even a bed.  Each of those 80+ 
occasions has resulted in an arrest of the child predator by the 
Texas Attorney General's office.
        As an example, we recently arrested a 50-year-old man after he 
showed up at a Central Texas restaurant to meet what he thought 
was a 14-year-old girl. This predator had been talking with the girl 
- who in reality was one of our Cyber Crimes investigators - in an 
online chat room. He even stopped on his way to the meeting and 
bought some wine coolers to give the girl. 
        And not long ago, we arrested a 52-year-old university 
professor at a bus station in McAllen, Texas, where he was waiting 
for what he thought was a 13-year-old girl he met online.  He even 
bought the would-be teenager a bus ticket so she could travel from 
miles away to meet him. 
        The 80th arrest was particularly notable.  It was the arrest of 27-
year-old John David Payne, who had been chatting with what he 
thought was a 13-year-old girl he met on MySpace.  In reality, the 
graphic sexual conversations he was having were with a Texas 
Attorney General investigator.
        What makes his case particularly frightening - although sadly 
not unusual - is that, at the time of his arrest, Mr. Payne was out on 
bail from an arrest that occurred six months prior.  In fact, at the 
time of his most recent arrest, he was already under indictment for 
online solicitation of a minor.  In other words, while he was out on 
bond awaiting trial for illegal Internet solicitation of a minor, he 
was back on the Internet, trolling for his next victim.   These child 
predators are dangerous and incorrigible, and children simply 
cannot be safe with the current landscape of cyberspace chat rooms 
and social networking sites.
        Unfortunately, not all of the people chatting with predators are 
undercover officers, and not all of the predators are caught in 
stings.  Real children are real victims of real predators.  Recently, a 
14-year-old girl from Central Texas was raped by a man she 
chatted with on a social networking site.  This is just one of the 
most recent examples, examples that are repeated around the 
country with increasing frequency.
        As we hold this hearing today, millions of teenagers are 
chatting online, posting personal information on a profile page, 
talking to other teens on social networking sites, and meeting 
people in chat rooms.  Before we leave here today, countless of 
those teens will have innocently chatted with someone they didn't 
know.  And, before we leave today, some of those unknown 
chatters will turn out to be predators who have just located their 
next target.
        Clearly, safeguards are needed at schools and libraries - as 
well as in our homes - if we are to protect our children against 
these predators.  Such safeguards are the kinds of protections that 
Americans have come to expect.
        Streets, neighborhoods and playgrounds are essential to our 
daily lives and are part of the American social and economic 
fabric.  Nevertheless, we must police our streets, neighborhoods 
and playgrounds to ensure their safety.  Similarly, the Internet 
superhighway and social network sites are vital to our modern day 
economy and they provide an effective platform for the exchange 
of ideas, information and commerce.  They also have developed 
into virtual neighborhoods where people can simply socialize.  
But, these modern-day neighborhoods and playgrounds are proving 
just as susceptible to criminals and predators as their traditional 
counterparts, if not more so.
        As can be expected, the responsibility for protecting children 
and teens who use the Internet is a shared responsibility.   Law 
enforcement will continue to improve its efforts to track down, 
arrest and put behind bars anyone who uses the Internet to harm 
children.
        Parents are also a part of the process.  Parents must use 
oversight, education and vigilance to protect their children.  Just as 
parents warn children not to take candy from strangers and to look 
both ways before crossing the street, parents must warn children 
about the dangers that exist on the Internet.  Parents frequently 
evaluate whether their teen is sufficiently responsible with a car 
before allowing him or her to go driving.  One reason, of course, is 
that teens, if driving irresponsibly, could hurt themselves or others.  
The same is true with the Internet.  Parents should ensure that their 
teenagers are sufficiently informed and responsible in their Internet 
use.  Otherwise, they could get hurt.
        But the great weight of the problem must be shouldered by the 
very creators and hosts of these networking sites and chat rooms 
that provide the previously non-existent opportunity for child 
predators.  Social networking sites and chat rooms have created an 
environment in which predators target their next victim and plot 
their next attack.   Predators use these web locations as a starting 
point for raping a child!   The creators and hosts of these 
networking sites are not the predators who commit the crime, but 
they create the opportunity for the criminal to carry out his crime.  
        The creators and hosts of these networking sites are part of the 
problem, and as part of the solution they must do more than pay lip 
service to providing a safe environment for children.  They must 
take affirmative, definitive action to ensure the protection of 
children who use their sites and chat rooms.  They can no longer be 
allowed to turn a blind eye to the predators who lurk on the 
playground they created.
        Admittedly, some of these networking sites and chat rooms 
have begun the process of a constructive dialogue to address the 
issue.  But, if they are honest, they will admit that the predator 
problem persists, and that there is more they can do to solve the 
problem.
        As mentioned earlier, parents have a role to play.  But parents 
are being denied some of their ability to play that role.  The 
networking sites should structure their systems so parents can 
block access to their sites.  Parents across the country prevent their 
children from going to locations where crime may occur, where 
sex and drugs may be traded, or where their children could be 
harmed.  Parents should not be denied that opportunity (that 
responsibility) simply because the location is in a virtual 
neighborhood, rather than a neighborhood down the street.  If 
parents want their children to have the opportunity to participate on 
the networking sites, the sites should be offer parents filtering 
software to block their child's access to content and websites that 
parents deem inappropriate.
        Heightened precaution must be taken to protect children under 
16 from child predators.  Should networking sites really mix 13 
year old children with adults who are participating in the 
networking site for the purpose of looking for a sex partner?  To 
avoid this problem, the sites should be structured so that only 
children over a certain age can participate in sites with adults.  
        Children who use the sites should not be subjected to sexually 
explicit images and solicitations, or other age-inappropriate 
material.  The sites should be structured so that such material is not 
accessible without age verification.
        While social networking sites are a lot of fun for kids - and 
have the potential to expose our children to a world of knowledge 
and bring them literally worldwide friends - many of the sites also 
subject children to a world of predators, pedophiles and 
pornographers.
        As law enforcement officers, we are asking that social 
networking sites and chat rooms more effectively police 
themselves, or be shut down.  Our society does not tolerate houses 
of prostitution.  Neither should it tolerate virtual houses that 
promote predators.  
        Computer literacy and Internet access are necessities, not 
luxuries.  And without question they have made our lives better.  
But the anonymity of the Internet has created opportunities for 
child predators and child pornographers, giving them cover to act 
on their perversions. 
        It turns out that the Internet, for all of its benefits and all of its 
conveniences, is still a pretty dangerous place.  It would not be an 
exaggeration to say that no child is safe from the unwanted 
advances of chat room predators, men who use the Internet in an 
attempt to realize their worst fantasies.
        Thank you for working to protect children from the nightmare 
of these predators.  We look forward to working with you to win 
the war against those who threaten the safety of our children, our 
families, our homes and our communities. 

        MR. UPTON.  Ms. Aftab.
        MS. AFTAB.  Good morning, Mr. Chairman.  Thank you so 
much.  WiredSafety is honored to be represented on the panel 
today.  We spoke at the first day of the Oversight and 
Investigations Subcommittee, and yesterday I was honored to 
speak again at the field hearing, which was a much closer commute 
to my house in New Jersey.  
        I am an Internet privacy and security lawyer, at least by 
training.  I was one of the first Internet lawyers in the world, and I 
used to earn a good living.  I represented many of the big 
corporations that you hear from, and I used to protect them in 
cyberspace.  
        In 1998, somebody sent me a link to a website.  It was a child 
pornography website, and I clicked on the link and I saw a picture 
of a 3-1/2-year-old being raped.  I cried for a while.  I vomited a 
little bit longer, and I said I might be able to do something if the 
corporations that were paying me so well to protect them online 
might listen to me instead of charging a lot of money.  I would 
give away my time to see if we could protect children and, at the 
same time, made sure they had access to this wonderful 
technology; because online all children can walk, talk and see, all 
of them have access to the world.  And that was a challenge.  But 
as a lawyer who was very well paid in this area, I was always good 
at challenging the risks and benefits of the technology.  
        Luckily, 11,000 people joined me.  We are all unpaid 
volunteers.  We operate in 76 countries around the world.  We 
don't have real offices.  We have no paid staff.  We are just people 
who care a great deal about protecting each other, especially our 
children.  
        Now, we have also been inside the social networks.  Since I 
first called MySpace in February of 2005, screaming about things 
that I saw they were doing when they had 6 million users.  And 
they called me back saying, "Kids?  We don't want kids.  It is 
designed for independent musicians.  We can't handle them.  They 
are doing all these things.  What to do?"  I said you have to do 
some things.  You have to have a law enforcement policy and 
guide.  I wrote it for them.  It is used as the model for their work 
with law enforcement around the country.  I said, you need safety 
tips.  I wrote them in the middle of the night.  They had typos with 
them for 6 months.  We put them on their site until they knew 
enough to take over and put their own there.  And my volunteers 
answered questions from parents when they became concerned 
about social networks.  When they came from 6 million to 90 
million, we became involved in all of the other social networks.  
        The second one was Facebook.  When Chris Kelly came into 
Facebook, Chris and I knew each other for several years and we 
said we will help you, too, because I know how serious they take 
this.  We are now embedded with all the major social networks of 
the world as the watchdog, trying to get them to beef up best 
practices.  The bill specifically is so well intentioned.  
        And I met Congressman Fitzpatrick yesterday.  I know where it 
is coming from.  The problem is, you need to understand both kids 
and social networks.  There is no ISP in this country or major 
entertainment site or major brand that isn't either already using a 
social network technology or contemplating it.  I receive several 
phone calls a day from both venture capitalists and investors, 
telling me that the sites that are coming to them for money will not 
be funded unless we get in on the inside and tell them what they 
need to do.  So they are out there.  
        If this law were implemented as written, they would be 
blocking Microsoft, Yahoo!, Google, AOL, all of the major 
networks, Viacom, every single one that you can imagine, not just 
the new ones that are social networking only.  
        In addition, as we look at the technology, kids are doing it for a 
number of reasons.  For years I have spent time protecting children 
from adult predators.  That is why I got into this.  And then I 
started protecting children from each other, cyber bullying.  
Congressman Shimkus was kind enough to put together a special 
event with Al Roker and my Teen Angels and us on cyber 
bullying.  Cyber bullying has exploded.  It is the biggest problem 
you find on social networks, not the sexual predators which gets a 
great deal of hype, but kids are being victimized right and left on 
social networks as they are cruel to each other.  And now we are 
finding the kids are hurting themselves, posting things that might 
have sounded cool at slumber parties, or they were drinking too 
many bottles of beer, and it might affect them getting into Stanford 
or something else because they posed as drunken sluts, because it 
sounded like a good idea at the time.  It is not cool to say you were 
home baking cookies with your 5-year-old niece.  It is a lot more 
fun to say you were doing something more outrageous, and you 
can do that on your MySpace.  
        As we looked at this, we are all unpaid volunteers.  We are 
largely unfunded.  We realize we have to come up with solutions 
that will work quickly.  And although the law is well intentioned, I 
think that perhaps as we tweak it, if you are looking for something 
that will compel schools and libraries, what we should do is to get 
schools to adopt a risk management plan.  Say to them these are 
the real risks, this is how it works, here are the models.  Send home 
an acceptable use policy to the parents, saying if your kids are 
cyber bullying each other from a home computer, but it impacts 
school, we have the right to do something about it.  Let's get them 
to do something meaningful, and the schools rather than legislators 
can decide what is right for that particular school.  
        In addition, we have gone to the true expert on the Web.  
Marvel Comics has donated Spider-Man as our spokesman, and we 
have a new comic coming out on social networking that we think 
will be effective.  We have gone to kids, Teen Angels is our 
program.  Kids talking to each other can be very effective.  The 
kids said that they never thought smart kids could be caught.  So 
we have been doing a great deal of work on that and we have a 
series of animations, one of which I would have shown you if I 
could get my computer to work.  So much for being a techno 
lawyer.  It says that cute 14-year-old boy may not be cute, may not 
be 14, and may not be a boy.  We have an animation where a girl is 
talking to heartthrob Bob on her social network page.  In one 
section, it is a fat slob sexual predator and another one it is three 
mean girls cyber bullying, setting her up for humiliation.  In the 
third, it is her 8-year-old bratty brother and his friend who want to 
show up with a video camera when she goes to the meet.  We have 
someone who is out on a day pass from prison.  Unfortunately, 
Christina Long, the first girl who was killed by an Internet sexual 
predator, confirmed 4 years ago, after the person was in prison 
awaiting sentencing, he was trying to lure other 13-year-olds from 
prison.  
        What do we do?  We look for folks, people like Nick Lachey.  
He is our new spokesperson.  The kids like that a lot.  We have the 
new Ms. Virginia, Adrian Scarlotta.  We have looked to our new 
program that came out of the hearings, the Oversight and 
Investigations hearings.  It is called WiredMoms.  It is our Moms 
Against Internet Sexual Predators.  We have found that by 
mobilizing people, giving them the tools they need, including our 
new Internet safety plan that will launch in September, parents can 
put in the information they have, the age and genders of their kids, 
what they are doing, what their values are, and it will spit out a 
road map of what they need on a technology site so they can know 
how to talk to their kids and know what to do 
        If we can make it easy, we can make it clean, we can make it 
accessible, we can all get involved.  We can make a difference.  
And for the first time--I have been doing this for 10 years--and for 
the first time, Congress is leading the world.  I do this all over the 
world.  They do it in Singapore, England, Hong Kong.  I work with 
parents to promote a guide for Internet safety.  Now, finally, all of 
the talents of these great groups, national centers, all of these 
fabulous people who I have been admiring for the years have been 
bringing before Congress.  It is time.  
        Let us work together.  I am WiredSafety and our Teen Angels 
and Wired Moms and Spider-Man, and you name it, we are 
working together on this.  You come up with any issues you want, 
I will sit down and help you plot, kick the tires, and let you know 
what is going on.  
        Our new program for the social networks, letting you know 
who is doing a good job and who isn't, will launch in September to 
let you know what is going to make it a little easier.
        [The prepared statement of Parry Aftab follows:] 

PREPARED STATEMENT OF PARRY AFTAB, EXECUTIVE DIRECTOR, 
WIREDSAFETY.ORG

SUMMARY 
        Our children are online. They do their homework, entertain 
themselves, communicate with each other and us, research things, 
shop for things and compare prices online. They need the Internet 
for their education, their careers and for their future. Of all the 
risks our children face online, only one is certain. If we deny our 
children access to these technologies, we have guaranteed that they 
are hurt. All other risks are avoidable through a combination of 
awareness, supervision, parental control and other technologies 
and the adoption of best practices by schools and the Internet 
industry itself. More and more children being lured and stalked by 
online predators who gather information about them from social 
networking profiles, chatrooms, instant messaging, e-mails and 
websites and who use this information and access to "groom" 
them.
        With our children walking around with Internet access in their 
backpacks and pocketbooks, we can no longer rely on parents 
watching whatever they do from a central location computer. Our 
children need to learn to use the "filter between their ears" and 
"ThinkB4TheyClick." This requires that we get them involved in 
framing solutions and educating each other. It also requires that we 
find new ways of building good cyber-citizenship and helping the 
kids and parents spot risks in new technologies and protect 
themselves online. It also requires that we engage the Internet 
industry itself in ways to build safer technologies and adopt best 
practices designed to make all their users, not just children, safer.
        Social networking, a combination of mini-web pages, blogs 
and searchable communities, have expanded in recent years, most 
recently exploding with the growth of MySpace.com. Parry Aftab 
estimates that more than half of the young teens in the US with 
home Internet access have at least one social networking profile. 
Some were set up by their friends, and others by the young teens 
themselves. Many have 2 to 5 separate profiles on just one site, and 
most have at least one profile on two or more social networks (not 
all being used, however). WiredSafety.org first began its social 
networking safety work in 2004, after learning how many young 
teens and preteens were beginning to use them. Unlike the early 
AOL profile pages used by teens and preteens in prior years, where 
the young users could post their contact information and brief 
statements about their interests, these networks were designed to 
be interactive. And instead of dry posts of contact and other 
personal interest information, these networks allowed teens to use 
html coding to add music, movies, animations, sounds, images and 
lots of user generated content to their page. 
        While the media and many others have focused only on the 
dangers of these networks when used by preteens and teens, it is 
important that we also explore their good uses and value and why 
their use has exploded in the last year and a-half. We have spent 
two years studying how and why preteens and teens use these 
kinds of sites. 
        Most use them for innocent purposes. They want to find their 
friends and communicate among larger groups than they can do via 
instant messaging. They can post something and know everyone in 
their class or group can read it at the same time. They want to 
show off their creativity and how special they are. And they can 
pretend to be prettier, more popular, richer and more famous than 
they are in real life. They raise money for their favorite charity and 
awareness for new causes. 
        They can post one message and their 150 best friends can see it 
right away. Unfortunately, so can those who might not have their 
best interests at heart. And sadly, in some cases, our teens are 
acting out, taking risks and seeking romance online (even 
knowingly with adults). That's when things can get dangerous, 
especially for young teens. 
        Our preteens and teens are often intentionally sharing risky 
information online in profiles, blogs and on websites. They may 
also share this information with stranger unwittingly, such as 
posting their cell numbers on their public away messages when 
using IM technologies. They intentionally post graphically sexual 
images and engage in and post cybersexual communications on 
their profiles and in chat-type technologies. And even when they 
are careful about protecting their own privacy, they may not be 
safe from their friends - even well-meaning friends. Their close 
friends may expose personal information about them by posting 
photos and information on their profiles. 
        They are also, in greater and greater numbers, meeting people 
offline that they met online. In 2000, Family PC Magazine 
reported that 24% of the teen girls they polled and 16% of the teen 
boys they polled admitted to meeting Internet strangers in real life. 
I believe that these numbers, when revised, will disclose that many 
more are doing this than 5 years ago. It is becoming more 
commonplace. Our children go willingly to offline meetings with 
these people. They may think they are meeting a cute fourteen year 
old boy, but find that they are meeting a 47- year old child 
molester instead.  This has to stop.
        Smart kids are sharing sexual images online with people they 
don't know, or e-mailing them to others they have a crush on and 
hope to entice. And with the newer video-chats, webcams and 
similar technologies, the predators have moved to luring our kids 
into posing and engaging in sexually explicit activities entirely 
online, in the comfort of their bedrooms, with parents sitting 
unwittingly downstairs.
        And while we focus on sexual predators online and how they 
are using social networks and community interactive technologies 
to reach our children, we too often forget that the most prevalent 
risk our children face on these networks and using these 
technologies is cyberbullying, not adult sexual predators. A vast 
majority of the preteen and young teens we polled have been 
involved, directly or indirectly, in at least one cyberbullying 
incident. They torment and terrorize each other. They threaten and 
embarrass each other. They post fake profiles, hateful messages 
and steal each other's passwords and identities, all designed to 
bully their victims. They do it in groups, singly, openly and 
anonymously. They use cell phones, interactive gaming devices 
and sites and web profiles, blogs and websites where you can vote 
for the ugliest, fattest, least popular or gayest student. And schools 
are the ones most impacted, when students who might be creating 
and posting these hateful communications from home or otherwise 
outside of school ground and after-hours, become engaged in 
violence and hurtful interactivities during school hours. In 
addition, when our teens and preteens are posting real or fantasy 
information about how much alcohol they consumed at this 
weekend's party, or how active their sex life has become, or how 
they cheated on their finals or shoplifted from the local mall, they 
may not realize that college recruiters, scholarship committees, 
coaches and future employers can access this information in years 
to come. This is an increasingly growing risk our children pose to 
themselves. 
        All of this has schools concerned. Private schools, especially, 
are facing real challenge controlling their students' activities 
online. Facebook.com is favored by private and parochial school 
students, who are impressed with the fact that it was formed at 
Harvard and other private and parochial students can be found 
there. It has, as some teens tell us, the "snob factor."
        Our children are sometimes accessing these sites from their 
school laptops, in-classroom desktops and school and public 
libraries. So, a parent's "house rules" may not have much effect 
when their child leaves the house. So, creating a new law 
prohibiting schools and libraries from allowing underage students 
and users to access these sites is an obvious approach. But is the 
answer to these problems found in laws restricting where students 
can go during school hours on school computers? Or can this be 
controlled by blocking access to interactive community networking 
sites, such as MySpace, Facebook and others from public and 
school libraries? While this may appear on its face to be an easy 
answer, it is neither easy nor the answer. 
        As more social networks are launched every day, and every 
ISP, entertainment company and wireless provider is either 
building a social network or finding a way to integrate social 
networking and community interactivity into their new and 
existing sites, it is impossible to block all of them and not other 
valuable Internet features, sites and content. Instead, schools need 
to be armed with the tools and risk management expertise to decide 
what sites their students can access during school hours from their 
servers and how to enforce their decisions and policies. 
        Schools need to decide if their students should have access to 
any non-educational site from school computers, and if so, which 
ones and for what purpose. They then need to develop a policy 
communicating this decision and the rules to the students (in 
language they understand), the teachers, the parents and other 
caregivers and to their IT team. They need to decide whether they 
will be using software to help enforce their policy, or merely 
traditional discipline for violating school policies. That too needs 
to be communicated to the school community. They also need to 
create or adopt educational programs teaching their students what 
information they can and shouldn't be sharing online, the risks of 
irresponsible Internet use and where to go when things go wrong. 
They can play an important role in teaching parents and other 
community members about safe, private and responsible Internet 
and wireless technologies use. 
        Educators, not legislators, should be deciding what students do 
during the school day. They know their students and the learning 
environment best. But schools do need the guidance and help of 
legislators and regulators to do this right. They need reliable 
information and studies on which they can base their decisions. 
They need to be apprised of new trends and developing risks. They 
need to know that websites and services are using the latest and 
best technologies and have adopted the best industry practices with 
their users' safety in mind. They need help that Congress can 
provide.
        Congress can also be very helpful in helping gather relevant 
information about cybercrimes and abuses. I have testified 
previously that actual cybercrime statistics are lacking. Everything 
we know is largely anecdotal. In 1999, the FBI's Innocent Images 
(charged with investigating crimes against children online) opened 
1500 new cases of suspects who were attempting to lure a child 
into an offline meeting for the purposes of sex. Based upon my 
estimates, about the same number of cases were opened by state 
and local law enforcement agencies that year. The same year, 
approximately 25 million minors used the Internet in the U.S. 
Now, with more than 75 million young Internet users in the U.S. 
we don't know if the number of instances have increased, 
decreased or remain flat, given the growth. The crime reporting 
forms don't collect information about the use of the Internet is 
child sexual exploitation crimes, or any other crimes. That has to 
change.
        Creating a central reporting database where all instances of 
cybercrimes are reported for statistical purposes, from 
cyberharassment to Internet-related ID theft, fraud and scams, to 
sexual predators and Internet-related child pornography and sexual 
exploitation would be incredibly helpful. It could track cybercrime 
trends affecting adults, seniors and youth. It could be used to help 
design safer systems and best practices and guide legislation 
directed at a meaningful problem, in a meaningful way.
        In addition, with tax dollars becoming more and more precious 
and the mission of all Congressional representatives to put tax 
dollars into the most effective use, existing programs by trusted 
non-profit groups can be highlighted and made available online to 
schools and community organizations that need them, without cost. 
Without having to reinvent the wheel, massive amounts of 
programs, lesson plans and risks management guides already exist 
that can be used as is, or easily retooled. Finding a way to get these 
wonderful resources into the hands of those who need them the 
most, using interactive technologies and the Internet and 
mobilizing volunteers to help deploy existing programs that were 
developed with or without government dollars is the fastest way to 
make a dent in the problem. Focusing attention on what works and 
what doesn't is something that Congress does best. 
WiredSafety.org and I pledge our help in doing that. 
        It's time.

OPENING STATEMENT

SOCIAL NETWORKS AND COMMUNITY INTERACTIVE 
TECHNOLOGIES AND US TEENS AND PRETEENS
        WiredSafety has been involved in cybersafety for ten years 
(see the attached description of our organization and work in the 
Appendix). It was founded and is run by Parry Aftab, one of the 
first Internet lawyers specializing in security and privacy law. She 
is frequently referred to as "The Kids Internet Lawyer" for her 
work with the children's online industry and child privacy issues 
and is an unpaid volunteer. For ten years we have cautioned 
Internet users of all ages against sharing too much personal 
information online, through profiles (pre-social networking), 
websites and online and mobile chat technologies. So we could 
quickly adapt our expertise to the new social networking 
explosion. It is crucial that this Sub-Committee recognizes that 
social networking is the future of the Internet and cyber-
communications. It is here to stay and being used by every major 
ISP and cyber-industry, by every trusted brand online and offline. 
It is not limited to newcomers, such as MySpace and Facebook, 
but includes Google, AOL, Microsoft, Yahoo! and others. Coming 
to terms with how and why people are using these networks is 
essential. 
        There are always trends in what kids are doing online. And 
some, that may have started as a trend, become core technologies 
adopted by adults and businesses alike. Instant-messaging and 
social networks head this list. Social networks (sometimes 
incorrectly called "blogs") are the future of the Internet and cyber-
technology. They are a cross between an online diary, a 
cyberdating network, an online publishing house, the fastest way to 
reach out to your friends online and a place to share your creativity 
and express yourself - on steroids.  
        MySpace grew in popularity because it offered what teens 
wanted - the ability to express themselves in any way they could 
imagine if they could locate or write the code to do it. But, 
interestingly enough, when MySpace was created, it was designed 
for independent musicians age 18 - 34, not for teens and preteens. 
It was the teens who found MySpace, not the other way around. By 
February 2005, when I first called them with our concerns, 
        MySpace had approximately 6 million users/profiles. By late May, 
2005, they had approximately 23 million users/profiles. By the end 
of 2005 that had increased to approximately 50 million 
users/profiles and stands at about 90 million users/profiles today. 
Until recently, our safety tips appeared on MySpace as their safety 
page, and we were the only watchdog within the site. We remain 
the only watchdog within most of the other major social networks, 
but no longer populate MySpace's safety pages or take abuse 
reports from their users. This is now handled internally by 
MySpace.
        MySpace.com and other similar sites are designed to allow 
people to share their creativity, pictures, and information with 
others. It also allows them to network with others online. 
Sometimes people do this to find romance. Sometimes they do it to 
find friends with similar interests. While this may be okay for 
adults, it is not okay for kids and may not be okay for young teens 
without parental supervision.
        Most social-networking websites agree and prohibit anyone 
under a certain age from using their website. Unfortunately, while 
they may set rules to keep younger teens and preteens off the site, 
they can't prevent kids from lying about their age and pretending 
to be old enough to use the website. (These sites are typically free 
and, without a payment or age verification or authentication, they 
never know who their members are in real life.) To address the 
lying some sites have developed special software applications 
designed to help identify underage members by reviewing the 
contents of member profiles. It's not perfect, but it does help spot 
many underage members.
        I recently visited a Marine Base in Yuma, Arizona and worked 
with teens and preteens on the base. I polled many of the preteens, 
learning that several of them had a "MySpace." When I pointed out 
MySpace's minimum age requirement of 14, they shrugged and 
explained that they were "mature for their age." After a 45-minute 
presentation, these same preteens knew far more about protecting 
themselves on MySpace and similar sites. But they still wanted to 
keep their "MySpace" profiles. This is a problem parents, schools, 
library media specialists and others are facing. How do you keep 
preteens and teens off of the social networks? Parents are told to 
talk with their kids,
        While no one can always tell if someone is lying about their 
age, some of these sites use some method of age verification or 
authentication (such as Facebook.com's college e-mail address 
requirement for their college users or YFly.com's field team 
approach). And these and others really try to keep underage users 
off their site. Many other similar sites do not. So, when allowing 
any teen to use a social-networking website, even with supervision, 
it helps to make sure it's a trustworthy one. WiredSafety allows 
those we consider more trustworthy to use our safety tips and link 
to our help teams. So, looking for our tips is a good way to start 
finding the sites we consider more trustworthy. In addition, our 
new seal program that will review sites for compliance with best 
practices, privacy and safety practices will launch in September.  
This should help in telling the good and responsible players from 
the bad and irresponsible ones. 
        All ISPs, entertainment companies and major wireless 
providers either already have a social network or similar 
community feature or will over the next year. New ones are 
launched daily. I am contacted by leading venture capitalists and 
investor groups daily to advise on a new proposal or network. The 
top five or six networks with substantial US user-bases claim, 
collectively, almost 200 million user profiles. Even if one user may 
set up several profiles (I have learned that most 12-16 year olds 
have between 2 and 5 different profiles, each set up with a 
different e-mail address), it is estimated that at least 80 million 
people are using social networks in the US.  I have polled 
approximately 10,000 teens and preteens face-to-face across the 
US over the last four months on their social network usage. These 
sites include MySpace.com, Xanga.com, Bebo.com, Tagged.com, 
BlackPlanet.com and its sister site, MiGente.com, and 
FaceBook.com, among others. 
        We have learned a great deal about why kids use these kinds of 
sites. Most use them for innocent purposes. They want to find their 
friends and communicate among larger groups than they can do via 
instant messaging. They can post something and know everyone in 
their class or group can read it at the same time. They want to 
show off their creativity and how special they are. And they can 
pretend to be prettier, more popular, richer and more famous than 
they are in real life. They raise money for their favorite charity and 
awareness for new causes. They stage protests from their profiles 
new millennium-style, letting policymakers know how they feel 
about the propose immigration policies and other issues important 
to teens, in interactive petitions. They make and share news. They 
engage in educational activities, such as building profiles of their 
favorite historical characters. One user may write music and 
another he has never met may write the lyrics. It's where they hang 
out and have fun, share their expertise and talents and find others 
like themselves. Or, they may be looking for other teens with lives 
radically different from theirs - farm-kids may want to find city-
kids or conservative kids may want to find outrageous ones. They 
can try on different guises and lifestyles and pretend to be someone 
they aren't, both good and bad.
        They can post one message and their 150 best friends can see it 
right away. Unfortunately, so can those who might not have their 
best interests at heart. But most of our teens aren't there for 
meeting strangers or checking out provocative photos. Sadly, in 
some cases, though, they are acting out, taking risks and seeking 
romance online. That's when things can get dangerous, for users of 
all ages, but especially young teens. (You can learn more about 
Internet sexual predators and how they operate at our new site for 
preventing and helping young victims of Internet sexual predators, 
Katiesplace.org.)
        Most use them for innocent purposes. They want to find their 
friends and communicate among larger groups than they can do via 
instant messaging. They can post something and know everyone in 
their class or group can read it at the same time. They want to 
show off their creativity and how special they are. And they can 
pretend to be prettier, more popular, richer and more famous than 
they are in real life. They raise money for their favorite charity and 
awareness for new causes. They stage protests from their profiles 
new millennium-style, letting policymakers know how they feel 
about the propose immigration policies and other issues important 
to teens, in interactive petitions. They make and share news. They 
engage in educational activities, such as building profiles of their 
favorite historical characters. One user may write music and 
another he has never met may write the lyrics. It's where they hang 
out and have fun, share their expertise and talents and find others 
like themselves. Or, they may be looking for other teens with lives 
radically different from theirs - farm-kids may want to find city-
kids or conservative kids may want to find outrageous ones. They 
can try on different guises and lifestyles and pretend to be someone 
they aren't, both good and bad.
        They can post one message and their 150 best friends can see it 
right away. Unfortunately, so can those who might not have their 
best interests at heart. And sadly, in some cases, our teens are 
acting out, taking risks and seeking romance online (even 
knowingly with adults). That's when things can get dangerous, 
especially for young teens. 
        Our preteens and teens are often intentionally sharing risky 
information online in profiles, blogs and on websites. They may 
also share this information with stranger unwittingly, such as 
posting their cell numbers on their public away messages when 
using IM technologies. They intentionally post graphically sexual 
images and engage in and post cybersexual communications on 
their profiles and in chat-type technologies. And even when they 
are careful about protecting their own privacy, they may not be 
safe from their friends - even well-meaning friends. Their close 
friends may expose personal information about them by posting 
photos and information on their profiles. 
        They are also, in greater and greater numbers, meeting people 
offline that they met online. In 2000, Family PC Magazine 
reported that 24% of the teen girls they polled and 16% of the teen 
boys they polled admitted to meeting Internet strangers in real life. 
I believe that these numbers, when revised, will disclose that many 
more are doing this than 5 years ago. It is becoming more 
commonplace. Our children go willingly to offline meetings with 
these people. They may think they are meeting a cute fourteen year 
old boy, but find that they are meeting a 47- year old child 
molester instead.  This has to stop.
        Smart kids are sharing sexual images online with people they 
don't know, or e-mailing them to others they have a crush on and 
hope to entice. And with the newer video-chats, webcams and 
similar technologies, the predators have moved to luring our kids 
into posing and engaging in sexually explicit activities entirely 
online, in the comfort of their bedrooms, with parents sitting 
unwittingly downstairs.
        And while we focus on sexual predators online and how they 
are using social networks and community interactive technologies 
to reach our children, we too often forget that the most prevalent 
risk our children face on these networks and using these 
technologies is cyberbullying, not adult sexual predators. A vast 
majority of the preteen and young teens we polled have been 
involved, directly or indirectly, in at least one cyberbullying 
incident. They torment and terrorize each other. They threaten and 
embarrass each other. They post fake profiles, hateful messages 
and steal each other's passwords and identities, all designed to 
bully their victims. They do it in groups, singly, openly and 
anonymously. They use cell phones, interactive gaming devices 
and sites and web profiles, blogs and websites where you can vote 
for the ugliest, fattest, least popular or gayest student. And schools 
are the ones most impacted, when students who might be creating 
and posting these hateful communications from home or otherwise 
outside of school ground and after-hours, become engaged in 
violence and hurtful interactivities during school hours. In 
addition, when our teens and preteens are posting real or fantasy 
information about how much alcohol they consumed at this 
weekend's party, or how active their sex life has become, or how 
they cheated on their finals or shoplifted from the local mall, they 
may not realize that college recruiters, scholarship committees, 
coaches and future employers can access this information in years 
to come. This is an increasingly growing risk our children pose to 
themselves. 
        Our preteens and teens are often intentionally sharing risky 
information online in profiles, blogs and on websites. They may 
also share this information with stranger unwittingly, such as 
posting their cell numbers on their public away messages when 
using IM technologies. They intentionally post graphically sexual 
images and engage in and post cybersexual communications on 
their profiles and in chat-type technologies. And even when they 
are careful about protecting their own privacy, they may not be 
safe from their friends - even well-meaning friends. Their close 
friends may expose personal information about them by posting 
photos and information on their profiles. 
        They are also, in greater and greater numbers, meeting people 
offline that they met online. In 2000, Family PC Magazine 
reported that 24% of the teen girls they polled and 16% of the teen 
boys they polled admitted to meeting Internet strangers in real life. 
I believe that these numbers, when revised, will disclose that many 
more are doing this than 5 years ago. It is becoming more 
commonplace. Our children go willingly to offline meetings with 
these people. They may think they are meeting a cute fourteen year 
old boy, but find that they are meeting a 47- year old child 
molester instead.  This has to stop.
        Smart kids are sharing sexual images online with people they 
don't know, or e-mailing them to others they have a crush on and 
hope to entice. And with the newer video-chats, webcams and 
similar technologies, the predators have moved to luring our kids 
into posing and engaging in sexually explicit activities entirely 
online, in the comfort of their bedrooms, with parents sitting 
unwittingly downstairs.
        And while we focus on sexual predators online and how they 
are using social networks and community interactive technologies 
to reach our children, we too often forget that the most prevalent 
risk our children face on these networks and using these 
technologies is cyberbullying, not adult sexual predators. A vast 
majority of the preteen and young teens we polled have been 
involved, directly or indirectly, in at least one cyberbullying 
incident. They torment and terrorize each other. They threaten and 
embarrass each other. They post fake profiles, hateful messages 
and steal each other's passwords and identities, all designed to 
bully their victims. They do it in groups, singly, openly and 
anonymously. They use cell phones, interactive gaming devices 
and sites and web profiles, blogs and websites where you can vote 
for the ugliest, fattest, least popular or gayest student. And schools 
are the ones most impacted, when students who might be creating 
and posting these hateful communications from home or otherwise 
outside of school ground and after-hours, become engaged in 
violence and hurtful interactivities during school hours. In 
addition, when our teens and preteens are posting real or fantasy 
information about how much alcohol they consumed at this 
weekend's party, or how active their sex life has become, or how 
they cheated on their finals or shoplifted from the local mall, they 
may not realize that college recruiters, scholarship committees, 
coaches and future employers can access this information in years 
to come. This is an increasingly growing risk our children pose to 
themselves. 
        All of this has schools concerned. Private schools, especially, 
are facing real challenge controlling their students' activities 
online. Facebook.com is favored by private and parochial school 
students, who are impressed with the fact that it was formed at 
Harvard and other private and parochial students can be found 
there. It has, as some teens tell us, the "snob factor." Teens need to 
be on a social network to have a social life these days. (Although 
many are leaving MySpace in favor of other sites, for various 
reasons.)
        But there's more to it. When I polled an average of 5000 kids 
every month on this, I learned that they love the creativity of it. 
They love expressing themselves so others can appreciate it. They 
enjoy adding sparkly graphics and sharing their stories, poems and 
jokes. One of the Teenangels (WiredSafety's expert teen and 
preteen program, teenangels.org) told me that it's all about "Pink! 
Pink! Pink!" She can build a page using pink font, on a black 
background and feel creative and cool. (Her mother is an interior 
decorator and she has to wear a school uniform, and saw this as her 
sole expressive outlet.)
        As important as allowing them to express themselves in a 
creative way is, though, it's not enough to get me to do a turn-
about with these kinds of sites and teens. I was very negative about 
these sites. I have now taken a second look after talking to another 
one of my Teenangels.
        This Teenangel (a soft-spoken and gentle girl) did a research 
project on social networking websites. She reviewed some of these 
sites and listed the kinds of risks young teens face on these 
websites. She then went on to explain that she had several profiles 
online at these sites. I was initially shocked and disappointed that 
one of my expert teens would take such risks with their personal 
information when they knew better. When I asked her why she 
would do such a risky thing, as the Teenangels often do, this one 
taught me something new. 
        She explained that it's hard being a young teen these days. Few 
kids in the school will give you the chance to see how much you 
have to offer unless you are the captain of the cheerleading squad 
or of the debate team. A profile page that is open to the other 
students at your school gives you a chance to share the special 
things about yourself with them, and will help them get to know 
you better. It's about sharing your favorite movies and books, 
about sharing fun vacation memories and your dreams, it's about 
sharing how special you are. It's about helping you make friends in 
your school with people who appreciate you. It's not about 
strangers, it's about others in their class.
        There is a real value to that. Whether it's by posting a profile 
page that is supervised by their parents, or building a website. It 
can be pink and sparkly, or thoughtful and inspiring. But it's all 
about who your teen is or who they want to be. It's a challenge to 
give them a place where they can express themselves while 
keeping them safe, protected from predators and from sharing too 
much private information online. But if you are willing to 
supervise what they are saying and doing on their profiles, I'm 
willing to help.
        Lying on their pages is part of what this is all about, too. They 
pretend to be older (and not just to get around the age restrictions), 
richer, more famous or more popular. Boys pretend to be girls and 
girls pretend to be boys. They may be tall blonde surfers from 
Malibu or live on a ranch in New Zealand. While this may not be a 
problem, some of their other kinds of pretending can be dangerous 
for teens in a public social network. 
        They may act tougher than they are in real life "rl," provoke 
other, or talk about getting drunk, or their sexuality. They may 
pose as someone they don't like, to cyberbully and harass them, or 
steal their identities. I have spent years protecting children from 
predatorial adults. I never thought I would be spending as much 
time as I am protecting them from each other. But, they are using 
these sites by the millions. And their use will only grow. So, I 
advise the thousands of parents who e-mail us daily and those who 
review our safety tips online that on how to handle the issue and 
that they need to be the parent. 
        Our children are sometimes accessing these sites from their 
school laptops, in-classroom desktops and school and public 
libraries. So, a parent's "house rules" may not have much effect 
when their child leaves the house. So, creating a new law 
prohibiting schools and libraries from allowing underage students 
and users to access these sites is an obvious approach. But is the 
answer to these problems found in laws restricting where students 
can go during school hours on school computers? Or can this be 
controlled by blocking access to interactive community networking 
sites, such as MySpace, Facebook and others from public and 
school libraries? While this may appear on its face to be an easy 
answer, it is neither easy nor the answer. 
        As more social networks are launched every day, and every 
ISP, entertainment company and wireless provider is either 
building a social network or finding a way to integrate social 
networking and community interactivity into their new and 
existing sites, it is impossible to block all of them and not other 
valuable Internet features, sites and content. Instead, schools need 
to be armed with the tools and risk management expertise to decide 
what sites their students can access during school hours from their 
servers and how to enforce their decisions and policies. 
        Schools need to decide if their students should have access to 
any non-educational site from school computers, and if so, which 
ones and for what purpose. They then need to develop a policy 
communicating this decision and the rules to the students (in 
language they understand), the teachers, the parents and other 
caregivers and to their IT team. They need to decide whether they 
will be using software to help enforce their policy, or merely 
traditional discipline for violating school policies. That too needs 
to be communicated to the school community. They also need to 
create or adopt educational programs teaching their students what 
information they can and shouldn't be sharing online, the risks of 
irresponsible Internet use and where to go when things go wrong. 
They can play an important role in teaching parents and other 
community members about safe, private and responsible Internet 
and wireless technologies use. 
        Educators, not legislators, should be deciding what students do 
during the school day. They know their students and the learning 
environment best. But schools do need the guidance and help of 
legislators and regulators to do this right. They need reliable 
information and studies on which they can base their decisions. 
They need to be apprised of new trends and developing risks. They 
need to know that websites and services are using the latest and 
best technologies and have adopted the best industry practices with 
their users' safety in mind. They need help that Congress can 
provide.
        Congress can also be very helpful in helping gather relevant 
information about cybercrimes and abuses. I have testified 
previously that actual cybercrime statistics are lacking. Everything 
we know is largely anecdotal. In 1999, the FBI's Innocent Images 
(charged with investigating crimes against children online) opened 
1500 new cases of suspects who were attempting to lure a child 
into an offline meeting for the purposes of sex. Based upon my 
estimates, about the same number of cases were opened by state 
and local law enforcement agencies that year. The same year, 
approximately 25 million minors used the Internet in the U.S. 
Now, with more than 75 million young Internet users in the U.S. 
we don't know if the number of instances have increased, 
decreased or remain flat, given the growth. The crime reporting 
forms don't collect information about the use of the Internet is 
child sexual exploitation crimes, or any other crimes. That has to 
change.
        Creating a central reporting database where all instances of 
cybercrimes are reported for statistical purposes, from 
cyberharassment to Internet-related ID theft, fraud and scams, to 
sexual predators and Internet-related child pornography and sexual 
exploitation would be incredibly helpful. It could track cybercrime 
trends affecting adults, seniors and youth. It could be used to help 
design safer systems and best practices and guide legislation 
directed at a meaningful problem, in a meaningful way.
        In addition, with tax dollars becoming more and more precious 
and the mission of all Congressional representatives to put tax 
dollars into the most effective use, existing programs by trusted 
non-profit groups can be highlighted and made available online to 
schools and community organizations that need them, without cost. 
Without having to reinvent the wheel, massive amounts of 
programs, lesson plans and risks management guides already exist 
that can be used as is, or easily retooled. Finding a way to get these 
wonderful resources into the hands of those who need them the 
most, using interactive technologies and the Internet and 
mobilizing volunteers to help deploy existing programs that were 
developed with or without government dollars is the fastest way to 
make a dent in the problem. Focusing attention on what works and 
what doesn't is something that Congress does best. 
WiredSafety.org and I pledge our help in doing that. 
        It's time.

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>


Exhibit A: Overview of WiredSafety.org

        WiredSafety.org is a 501(c) (3) charity and the largest and 
oldest online safety, education, and help group in the world. It 
consists of thousands of volunteers from more than 76 countries 
around the world, all working online with the mission of 
promoting a safer and more responsible Internet and wireless 
experience for everyone. 
        Originating in 1995 as a group of volunteers rating websites, it 
now provides one-to-one help, extensive information, and 
education to cyberspace users of all ages and members of the 
Internet industry on a myriad of Internet and interactive technology 
safety issues. These services are offered through a worldwide 
organization comprised entirely of volunteers who administer 
specialized websites and programs. WiredSafety.org volunteers 
range in age from 18 to 80 and run the gamut from TV 
personalities, teachers, law enforcement officers, PhD's, writers 
and librarians to stay-at-home moms, retired persons, and students. 
WiredSafety.org's founder and Executive Director, cyberlawyer 
Parry Aftab, is also an unpaid volunteer. With the exception of its 
TeenAngels, outreach and speaking programs, all work and help is 
provided online and free of charge. 
WiredSafety.org's work falls into four major areas, all 
designed to help promote a safer and more responsible digital 
experience for everyone:
<bullet> Assistance for victims of cyberabuse and harassment and 
others who need help online, including parents, teens and 
educators. 
<bullet> Advice, Training and Help for law enforcement worldwide on 
preventing, spotting and investigating cybercrimes and for 
members of the Internet and interactive digital industries in 
designing safer technologies and adopting and implementing 
best practices.
<bullet> Education for children, parents, communities, law enforcement, 
abuse and customer help staff within the Internet industry and 
professional development for educators.
<bullet> Information and Awareness on all aspects of online safety, 
privacy, responsible use and security wired, wireless and as 
new technologies are developed.

Our target audiences include:
<bullet> Parents, grandparents and caregivers (including aunts, 
uncles and older siblings);
<bullet> Pre-reader lap-surfers, kids, preteens, teens and college 
students;
<bullet> Members of the Internet, wireless and interactive 
technology industries;
<bullet> Law enforcement, community policing agencies and school 
resource officers, legislators, the judicial community and 
regulatory agencies; and
<bullet> Schools and other educational institutions.

        Originally formed in 1995 (under another name) to provide 
help and protection for Internet users of all ages, in recent years, 
Wiredsafety.org's work has increasingly focused on the safety and 
good cybercitizenship of children, tweens, and teens. It serves as 
the umbrella organization for TeenAngels.org, WiredKids.org, 
WiredCops.org and WiredTeens.org. WiredSafety.org is dedicated 
to protecting children in cyberspace from cybercrimes and abuse, 
including from each other. This involves protecting them 
from cyberbullying, hacking, sexual harassment and identity (ID) 
theft. It also includes protecting children everywhere from 
Internet-related sexual exploitation. WiredSafety.org helps protect 
them from risks posed by adults, by each other and more recently 
from themselves, as their reputations and future college and job 
opportunities are impacted by what they post on their MySpace 
and other profiles. The package of programs designed for young 
users with the assistance of our teen and preteen volunteers is 
called "ThinkB4uClick," teaching them the consequences of their 
cyberactivities.
        Marvel Entertainment, Inc. has also joined forces with 
WiredSafety.org to provide superhero assistance in educating our 
children and families on safer online practices. The first Internet 
safety comic, Internet Super Heroes meet the Internet Villains, 
teaches how Internet predators can infiltrate anyone's computer 
and wreck havoc on their lives by stealing their identity and posing 
as them online. Published under its exclusive license with Marvel, 
and sponsored by Microsoft, this first comic will help teach the 
250,000 readers how to be smarter and safer online using Spider-
Man, The Incredible Hulk and Dr. Doom, among others to bring 
the message to life.
        WiredSafety.org also provides information and resources to 
help educate and guide law enforcement officers on Internet safety 
issues, crime prevention and investigation of cybercrimes. It has 
created a special website just for law enforcement officers, 
Cyberlawenforcement.org, also known as WiredCops.org. As part 
of the Wiredcops.org initiative, specially trained volunteers assist 
law enforcement in the investigation and prevention of trafficking 
of children, child pornography, child molestation, and 
cyberstalkers. Recently, at the request of leading law enforcement 
agencies, WiredSafety.org has begun using its teen volunteers to 
provide information that will assist undercover law enforcement 
officers in creating credible profiles of preteens and teens to help 
them become more effective when operating undercover online. 
        In addition to assisting law enforcement agencies, 
WiredSafety.org offers one-to-one assistance for victims of 
cyberabuse that may not arise to the level of a cybercrime and is 
not handled by law enforcement. WiredSafety's cyberhelpline 
gives "netizens" access to free help when they need it via the 
Internet. Its special team of helpline volunteers is assigned to cases 
and works one-to-one online to help resolve individual problems 
and get victims help when they need it. WiredSafety.org assists 
more cases of cyberharassment than any other organization in the 
world, helping thousands each month through its site and report 
line. Cyberbullying cases can be reported to the report line as well. 
        But when dealing with preteens and teens, the challenge has 
always been getting them engaged. Their "selective hearing" can 
get in the way of their learning safer and more responsible 
behavior online, just as it may at home. When approached, teens 
told us that we had to approach them with things that they consider 
important, using their language. So, WiredSafety.org recruited 
teens and preteens who help us do that. These expert Teenangels, 
13 to 18 year olds, (and now their younger version, Tweenangels, 
from 9 - 12 years of age) deliver the message of safe, private, and 
responsible technology use to their peers. These youth-based 
programs were formed in 1999 to provide special perspectives and 
insight into how young people are using the new technologies and 
how to better prepare them to handle the risks they encounter. 
        Teenangels have been recognized and honored by Congress, 
Parliament, John Walsh, Time for Kids and recently, Teen People 
Magazine, among others. Their training is extensive and takes 
almost one year to complete. When they receive their "wings", 
however, they are true experts. It is the only Internet expert youth 
program in the world. And, once trained, these special teens and 
tweens help develop safer technologies, by providing expertise for 
and advising members of the Internet and entertainment industries, 
media and governmental agencies around the world.
        Too often disconnected from the immediate consequences of 
their actions online, many "good" kids and teens find themselves 
doing things online they would never dream of doing in real life. 
This needs to change.  The youth programs created by 
WiredSafety.org focus on cyberwellness and cyberethics which fits 
perfectly within its mission and expertise. To keep our children 
safe online, they need to understand the norms and rules of 
operating online. They must also recognize that they will be held 
accountable for what they do in cyberspace and that what they post 
online has ramifications beyond the momentary click. Teaching 
responsible technology use is crucial.
        WiredSafety.org also offers a wide variety of educational and 
help services to the Internet community at large. Companies such 
as Disney, the Motion Picture Association of America, the 
National Sheriff's Association, Yahoo, Verizon Foundation, 
Marvel Comics, MySpace, Xanga, Johnson & Johnson, Google, 
Oracle, Facebook, Microsoft and AOL support and turn to Parry 
Aftab and WiredSafety.org for guidance and advice in dealing with 
Internet safety issues. Teenangels and Parry have testified before 
leading governmental and legislative bodies worldwide, including 
the U.S. Congress and the U.K. Parliament. Regulatory agencies, 
such as Singapore's Media Development Authority, the U.S. FTC 
and California's consumer protection arm have sought 
WiredSafety's and Parry's help. Their collaborative efforts with 
schools, community organizations, prosecutorial officers, local 
executive branch and law enforcement agencies, such as Alaska's 
Campfire USA, the Baltimore County public schools, Ohio's 
Wayne County Sheriff's office, the San Francisco DA, and 
Westchester County, NY's County Executive Spano, have affected 
hundreds of thousands of families worldwide. Using its unique 
expertise in the field, the charity also assists important trade 
associations, such as the CTIA (the wireless trade association) and 
the U.S. Sheriff's Association. WiredSafety.org also acts as a 
watchdog within most of the social networking websites, to help 
provide their users safety information and help when things go 
wrong.
        Select volunteers find and review family-friendly Web sites, 
filtering software products, and Internet services. Some of the 
outreach team volunteers run programs, summits and also speak at 
local community groups and schools around the world teaching 
Internet safety, privacy and responsible use.
        However, its work is not limited to the Internet alone. 
WiredSafety focuses on all aspects of interactive technology use 
and abuse. Its expertise includes cell phone safety and security, 
interactive gaming, social networking (mobile and online) and 
text-messaging products, as well as any new interactive 
technologies as they are developed. Its long years of working with 
Internet users and handling cybercrimes and abuse have created a 
flexible and knowledgeable volunteer force. If you can view 
content, communicate with others, spend money, or buy things 
using the technology, WiredSafety.org can help.
        WiredSafety.org is headed by Parry Aftab, a mom, 
international cyberspace privacy and security lawyer and children's 
advocate. Parry is the author of the first book written for parents 
about Internet safety - The Parents Guide to the Internet 
(considered the bible of online safety and published in 1997) as 
well as The Parent's Guide to Protecting Your Children in 
Cyberspace (McGraw-Hill, 2000), which has been adapted and 
translated around the world. Her most recent books have been 
especially written and adapted for and published in England, 
China, Spain and Singapore. Her new book, Internet Safety 1-2-3, 
was released in December 2005 in Spain and will be released next 
year in the United States. And her new "Stop Cyberbullying!" 
guide launched in Spain in May 2006.
        WiredSafety is proud of its reputation as the one-stop-shop for 
all cyberspace safety, privacy, security, and help needs. It is even 
prouder of the fact that all this can be accomplished without large 
government funding or money wasted on administration costs. No 
one is paid within WiredSafety.org. They are all unpaid volunteers 
- including Parry herself. This all-volunteer workforce has been 
estimated at providing more than $3 million in unpaid services 
every year. Using a popular website and series of special topic 
sites, the organization has reached millions of Internet users since 
its inception and addresses more than 5000 children, teens and 
tweens and 1000 parents in person every month, on average.
        WiredSafety.org mobilizes people of all ages who want to help 
others, and puts them to work doing just that. It is intent on its 
mission to "Take Back the Net!"


Exhibit B: Parry Aftab's Bio and CV:

Updated July 2006
Parry Aftab
Bio

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>

        Parry Aftab is a security, privacy and cyberspace lawyer, as 
well as an author, columnist and child advocate. A substantial 
portion of her time is donated to Internet issues involving children, 
from equitable access, to privacy, to safety, to helping develop 
quality and reliable content for children. She has also legally 
represented or acted as a consultant to most of the children's 
Internet industry, helping them comply with the law, while 
improving the Internet experience for children. When children and 
the Internet are concerned, Ms. Aftab's name is the first mentioned. 
        Parry Aftab is a worldwide leader in the area of online safety 
and parent and child Internet education. As Executive Director of 
WiredSafety.org, the oldest and largest online safety and 
educational program in cyberspace, Ms. Aftab helps prevent and 
assist law enforcement agencies in investigating cybercrime 
against children and families. Under its former name, her group 
was awarded the President's Service Award in October 1998 from 
the White House and Points of Light Foundation. Ms Aftab also 
works closely with law enforcement around the world to prevent 
cybercrimes and police the Internet and is part of the Home Office 
Cybercrime Task Force in the UK. She was recently appointed a 
Special Deputy Sheriff by Wayne County, Ohio's Sheriff, Thomas 
Maurer.
        In 1999, Ms. Aftab was appointed by UNESCO to head up its 
child Internet sexual exploitation project for the U.S. She has also 
written the leading books for parents on Internet safety since her 
first book was published on the topic in December 1997.
        Although her vocation was Internet security and privacy law, 
her avocation is children online - helping them become good 
cybercitizens and keeping them safe, private and secure online. 
She is dedicated to helping curb Internet-related crimes against 
children and assisting law enforcement in bringing the child 
predators to justice. Everyone who encounters Ms. Aftab is 
impressed with her passion and energy when children's Internet 
issues are involved. 
        While her passion is for protecting children from Internet 
sexual exploitation, she is also devoted to empowering them 
through access to the wonders of the Internet. She hopes to help all 
children become better informed and responsible cybercitizens, 
controlling the technologies instead of being controlled by them. 
Her programs are designed to teach them safe, private and 
responsible technology use, which includes teaching them good 
netiquette and respect for each other and the rights of others, 
including intellectual property rights of the music, movie, gaming 
and software industries.
        Ms. Aftab was among the first in the world to devote her 
talents to keeping children safe online. She has helped design 
programs for parents and children in a wide range of Internet-
related issues for ten years. Her work has been recognized by 
leading technology influencers, such as Family PC Magazine, 
when she was awarded Internet Pioneer of the Year in 2001. And 
child protection agencies have recognized her as well, when Child 
Abuse Prevention Services presented her with their 20th 
anniversary Community Leadership Award in 2005. (Past 
recipients of this award include Senator Clinton, Linda Fairstein, 
Judy Collins, Dr. Joyce Brothers and the "God Squad.")
        Parry Aftab also provides parent Internet education and online 
safety content for such diverse sites as Nickelodeon, Children's 
Television Workshop, Disney, Microsoft, AOL, Yahoo!, Google, 
AT&T and MSNBC. She is a regular keynote speaker, and 
resource on camera for the media on diverse cybercrime, safety, 
privacy and cyberlaw issues. She writes The Privacy Lawyer 
columnist for Information Week Magazine where she writes on a 
range of topics that affect technology, policy and privacy. Her 
expertise is especially in demand on children's Internet issues, 
because no one knows more about children online than Parry 
Aftab.
 	While she is devoted to protecting children online, Ms. Aftab 
seeks to empower children and their parents, not the censors. Her 
common sense approach to technology risks and solutions works 
as well anywhere in the world as it does in the United States. But 
what really makes her special is her ability to tap into the caring 
and creativity of young people to craft solutions that are written in 
their language and designed for their needs.
        She is a frequent and respected resource for news programming 
and print journalists around the world. Her expertise has been 
featured nationally and internationally in online and print 
publications, including Readers Digest, Playboy, TV Guide 
Magazine, Cosmopolitan, People Magazine, Redbook, Biography, 
USA Today, Information Week, Working Women, Teen People, 
U.S. News & World Report, Family Circle, Newsweek, Ladies 
Home Journal, Smart Money Magazine, PC Magazine, Good 
Housekeeping, Better Homes & Gardens, Family PC Magazine, 
Yahoo! Internet Life, Information Week, CIO Magazine, The Wall 
Street Journal, The New York Times, The LA Times, most 
regional newspapers in the United States, The London Times 
Magazine, The Strait Times (Singapore), The South China 
Morning Post Sunday Magazine (Hong Kong), and more. As a 
result of her work online with children, Ms. Aftab was selected as 
a charter member of Children Television Workshop's Advisory 
Board, as well as appointed to The National Urban League's 
Technology Advisory Committee. In 2003 she was elected to 
TRUSTe's Board of Directors. She served on the advisory board 
for the Ad Council for two terms.
        Parry Aftab has spoken to many governmental agencies and 
groups worldwide, conducted briefings for the U.S. Senate, 
testifies regularly before Congress, and has been a key speaker at 
the White House Summit on Online Content, the sole Internet-
related expert speaking at the 2002 White House summit on 
Missing and Exploited Children and testified before leading 
legislative committees and The House of Lords, all with the same 
message: The Internet is a wonderful resource for families, and 
once parents understand the online risks, they can use common 
sense (and perhaps some filtering tools) to help their children enjoy 
cyberspace safely. 
        As one of the first lawyers in the world to specialize in Internet 
legal issues, Parry Aftab is admitted to practice law in New York 
and New Jersey. She attended law school at NYU School of Law 
where she received her J.D. degree. She received her B.A. degree 
as Valedictorian of Hunter College (having completed her full 
undergraduate degree in less than two years), where she was 
inducted into Phi Beta Kappa.
        She resides in the New York metropolitan area and is a mother 
of two. Ms. Aftab can be reached at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4f1f2e3d3d360f0e293b2e2d612c202261">[email&#160;protected]</a>


Parry Aftab

Professional Curriculum Vitae
Phone: 201-463-8663
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7000110202093011160411125e131f1d">[email&#160;protected]</a>


Internet privacy and security lawyer, licensed to practice law in 
NY and NJ,
The Privacy Lawyer columnist, author, consultant and public 
speaker 
Executive Director of WiredSafety.org

AREAS OF EXPERTISE:   Worldwide Cybercrime Protection and 
Prevention/Identity Theft/ Privacy, Data Collection and Security / 
Workplace Risk Management and Security/ Consumer Protection, 
Advertising and the Internet / E-Commerce/ Cyberstalking and 
Harassment/ Child Exploitation and Child Pornography, Children 
Online, Online Marketing, Cyber-workplace issues, Privacy 
training and coaching


CURRENT POSITIONS	President/CEO - Aftab Cyber-
Consulting
						Executive Director, WiredSafety.org (a 
501c-3 corporation)
						The Privacy Lawyer columnist for 
Information Week

EDUCATION		City University of New York		B.A., 1981
				Hunter College				Valedictorian
				(Completed 4 yr degree in 2 yrs)	Phi Beta Kappa 
(Nu Chapter)

				New York University			J.D., 1984
				School of Law

SELECT HONORS	Community Leadership Award, 2005
	        				Awarded by Child Abuse Prevention 
Services

American Society of Business Publication 
Editors Award "Gold"    Original Web 
Commentary
Informationweek.com for Parry Aftab's 
"Patriotism, Compliance and 
Confidentiality" article 

					Activist of the Year Award, 2002	
						Awarded by Media Ecology Association

					Internet Pioneer of the Year, 2001
						Awarded by Family PC Magazine

					Home Office, U.K.
Child Protection, Criminal Laws and Law 
Enforcement Task Forces

	
ORGANIZATIONS	TRUSTe
						Member- Board of Directors (Elected 
December 2002)

					Ad Council
						Advisory Committee member (1999 - 2003)
					Children's Television Workshop Online 
(Sesame Workshop)
						Advisory Board (1998 - present)
	
					UNESCO
President, U.S. National Action Committee, 
Innocence in Danger (appointed 1999)1998-
present)
	
					The Internet Society
Elected Chair, Internet Societal Task Force 
and Societal 			Steering Group 
(worldwide, 2001)
						Member of Public Policy Committee ISOC 
(2001-present)
	Chair, Privacy and Security Working 
Group of The 			Internet Society Task 
Force (2000-2001) appointed 		
	member since 1999

WiredSafety (wiredsafety.org) the world's 
largest Internet safety and help group, formerly 
functioned as "Cyberangels," recipient of 
President's Service Award, 1998,
						Executive Director (1998-present)

					The National Urban League
						Technology Advisory Committee (1997 - 
present)


AUTHORSHIPS AND	
RELATED ACTIVITIES	

     Author, selected books

Cyberbullying Guide (Spanish and English guide on 
preventing and 	dealing with cyberbullying) 
				Spain 2006
	
			Internet con los menores Riesgos (Spanish guide for 
parents on Internet 					safety, especially written for 
Spain and South and Central America)   
				Spain 2005

			Children and the Internet (official Chinese Internet 
safety guide)
China 2004
	
			The Parent's Guide to Protecting Your Children in 
Cyberspace, McGraw-				Hill, 
(U.S. edition, January 2000; UK edition, March 
2000; Singapore edition May 2000 and Spanish 
language US edition November 2000)

			A Parents' Guide to the Internet, SC Press (October 
1997)

     Contributor, selected books
	
			Child Abuse on the Internet.... Ending the Silence 
(2001) Carlos A. Arnaldo, Editor 
			Chapter 21: The Technical Response: Blocking, 
Filtering
			And Rating The Internet - by Parry Aftab
The Best In E-Commerce Law 
	    			(2001) Warren E. Agin, Editor
			Children's Online Privacy Law

      Selected Speaking Engagements

WiredSafety's Social Networking Summit, June 2006

US Congress, Commerce Committee, Sub-Committee 
Investigations and Oversight, opening day hearings April 4, 2006

National Association of Independent School Annual Conference, 
March 2006

Stonybrook Cyberbullying Summit, September 2005

FDIC Conference on Security Online, August 2005  
 
The Westchester County Cyberbullying Summit, February 8, 2005

The US Copyright Office - Luncheon Speaker (LA and SF events) 
February 2005

Child Abuse Prevention Service 20th Anniversary Luncheon 
Speaker, April 2005

FTC Workshop on P2P, December 2004

House of Commons - Parliamentary Briefing on Internet Safety, 
October 2004

IAPP (International Association of Privacy Professionals), June 11, 
2004 

EU- Safer Internet - Warsaw, March 2004

Media Development Authority- Singapore, Family Internet Week - 
March 15, 2004

Western Attorneys General Conference, July 29, 2003

Domain Day, Milan, Italy, November 5th, 2002

Wired Kids Summit, Washington D.C., October 15th, 2002 
(Mediator and Host of the event at the Russell Senate Building)

White House Conference on Missing and Exploited Children, 
October 2nd, 2002 (Only panel speaker selected to discuss Internet 
issues). Other speakers included President George W. Bush, Colin 
Powell, John Ashcroft, Rod Paige and many distinguished others.

Council of Europe, Children's Online Safety, Belgium, November 
2001

Microsoft, Privacy and Security Summit, Privacy Speaker, San 
Francisco, November 2001

Intellectual Property Organization, Featured Speaker on Internet 
Law, Privacy and Digital Rights, New York, November, 2001

SCOPE, Keynote Speaker, Cyber-terrorism, New York, October 
2001

Rappateour, E.U. Online Content Regulation, Luxembourg, June 
2001

Bertelsmann Foundation, Experts Meeting, Singapore, February 
2001

Microsoft, Privacy and Security Summit, Speaker (only female 
speaker), 	Seattle, November 2000

Keynote Speaker, House of Lords, Kids Helping Kids, London 
(April 2000)

Keynote Speaker, Singapore Broadcasting Authority and Ministry 
of Information Conference, Children Online, Regulatory Issues, 
Singapore (November 1999, May 2000, February 2001)

Panelist, FTC Hearings on COPPA Regulations, Washington (June 
1999)

Keynote Speaker, White House Summit, Online Content, Los 
Angeles (June 1998)

Keynote Speaker, C.A.R.U., Conference On Children's Online 
Privacy 
		(September 1998)

Featured Speaker, Littleton Town Meeting hosted by Tom Brokaw 
and Jane Pauley, MSNBC (April 1999)



                          APPENDIXES:

                          Appendix 1:
Parry's Info for Parents...What are our kids doing online?

        Know that our kids doing things online that we would freak if 
we knew about isn't new. Our kids have been saying and doing 
outrageous things online since the Web was born. We just didn't 
know about it, but all the other kids do. It's how they communicate 
online. In 1999 we conducted the largest academic survey done to 
date for teenage girls. Almost 11,000 of the teens polled answered 
our questions about what they did online. When we asked them to 
explain if they had done anything online that they wouldn't have 
done in person, here's what they said (in their own words):
        <bullet> "Yes, obviously people are more bold and outgoing on the 
Internet when they don't have to deal with the 
consequences of their actions."
	<bullet> "Of course! All people do. A computer with a phone line is 
like a mask to the world. You can do or say anything and 
you won't ever have to meet this person. For instance, my 
little brother is 13 and he tells people he's 16 or older. He's 
a sweet guy and has a very high respect for females. 
Online, however, he says very cruel and suggestive things 
to and about them. He acts like a monster. It's disgraceful... 
and a little scary."
	<bullet> "Yes, of course... our usual boundaries and personal walls 
are down and we can act more carefree and outspoken if we 
feel like. At least this is true for me... you can act like a 
goddess."
	<bullet> "I have cursed out a lot of ppl [people], and when my bud 
comes over, we go into places like the African American 
room and yell "KKK ALL THE WAY" or go to the Jewish 
room and say "HEIL HITLER," but I haven't done that 
since I started going back to church and was saved by Jesus 
Christ. We were just joking, we weren't really racist." 
	<bullet> "Yes, but I'd rather not describe what I did. Instead, I'll 
just say that online, you can be absolutely ANYONE you want 
to be, which is why a lot of people do things that they 
would not normally do. In real life, people everywhere 
judge you based on your looks, actions, and who knows 
what else, but online, all that really matters is your attitude 
and personality."
	<bullet> "Uh well, I tried cyber sex before and I wouldn't ever do 
that in real life. Sex period. I don't believe in premarital 
sex. I think that is a great gift you give your husband. I 
once told someone off because he/she was being perverted 
and talking nasty to me and I didn't like it."
        <bullet> "Well, once I told this guy I met in a chat room all about 
me and, like, my phone number and stuff. I now realize that 
this was really stupid of me and will never do anything like 
it again cause although it's not likely, he could be a psycho 
or something."
	<bullet> "I feel I can speak more freely to someone online about my 
problems because most of them don't go to my school or 
even the same state. I can ask them advice and they would 
probably give me the best because they aren't in favor of a 
certain person. I can introduce myself and meet new people 
because it isn't as uncomfortable to look into their eyes and 
if you become really uncomfortable I can just get out of it 
by blocking them or getting offline."
	<bullet> "I have had cyber sex... that's something I never have done 
and never will do until I'm married in real life."
	<bullet> "I am much more bold online than in real life. I am VERY 
shy and I say things on the Internet that I normally 
wouldn't say in public."
	<bullet> "I have lied for no reason. Actually, I told a guy I couldn't 
give him my number cause my mom doesn't want guys 
calling me cause it was during the school year. My mom 
doesn't really care who calls me I just didn't know what to 
say."
	<bullet> "Yeah, I wouldn't flirt with people I just met in person, 
unlike on the Internet."
	<bullet> "Flirt more easily, say things I wouldn't say in person, not 
bad things, just more honest things."
	<bullet> "Yeah, because it's a lot easier to talk and get to 'know' 
someone online because you can't see their face. I never 
have done anything bad but I've been a lot more easy going 
and free for what I'd say online then in a live situation 
which in someways have helped me to be more 
comfortable talking to new guys in person."
	<bullet> "Well, honestly... yes. I had cyber sex! I will never have 
real sex until I am married, after I engaged in cybering, I 
totally felt grossed out, like I know I was doing something 
wrong! I will not make that mistake again."

        When we asked them if they ever pretend to be someone else in 
cyberspace, here's what they answered (in their own words):
	<bullet> "Of course I've pretended. Everyone does. You pretend to 
be older... or you pretend to be a guy... or you just pretend 
to be whoever you wanna be."
	<bullet> "Yes, I just changed myself to be someone I wasn't 
because I wanted to get a different reaction from people. It 
gave me a way to see myself as who I wanted to be but by 
doing it I realized that that is not who I want to be and that 
I just want to be me."
	<bullet> "Yes. If I am ever in a chatroom I always make up things 
about myself. This is why I say don't trust anyone because 
everybody else does the same thing."
	<bullet> "Since nobody seems to be eager to talk to a 15 year old, I 
always pretended I was 18 year old female. However, that 
sometimes attracted bad attention from guys."
	<bullet> "Yes. I pretended to be anyone from Leonardo DiCaprio to 
a serial killer."
	<bullet> "I once pretended to be a 16 year old girl. I wanted to talk 
to my boyfriend to see if he would agree to meet her in 
person. He did and I told him who I really was and we 
broke up."
	<bullet> "Yes, I've pretended to be so many people. It's fun and 
safe and because nobody knows who you really are."
	<bullet> "Well we've ALL pretended to be older or have a different 
name or something. Who doesn't? It's part of the fun about 
being online... you can be whoever you want to be for a 
little while."
	<bullet> "Yes, I pretended to be someone that I wish I could be like 
a popular person."
	<bullet> "I haven't pretended to be someone else, but I have 
pretended to be a couple of years older than I am, because 
not many people my age are online to talk to, and if they 
are, they must be lying about their age, too."
	<bullet> "No, I think it is wrong to lie to other people about who 
you are. I wouldn't want someone to do it to me so I don't 
do it to them." 

        When we asked them if they had ever been in a situation online 
that frightened them, here's what they said:
	<bullet> "My friend agreed to meet a guy she met online when he 
came to our hometown, and she wanted some of us to come 
along to keep them company. I told my parents but luckily 
the guy's game got canceled. I wouldn't have gone and I 
would not support her decision to meet anyone in real life. 
She kinda felt betrayed but at least she's still alive."
	<bullet> "Once I was scared because this guy kept telling me all this 
stuff about me, like my name, address, friends' names, etc. 
he said he knew where I lived and stuff, and I better watch 
out. It ended up being a joke from a friend of a friend, but I 
was still scared, and I was very angry at the friend who 
gave the person the info just to scare me. It wasn't funny."
	<bullet> "Once I was on ICQ talking to a bunch of my friends when 
this guy I had been chatting with sent me a file. 
Unknowingly, I opened it and then I realized that the 
person had hacked into my system. Suddenly, my CD-
ROM drive started opening and closing and annoying (but 
not threatening) messages started appearing on my screen. 
Soon after my mouse buttons switched functions. I had just 
finished a big assignment, so I was afraid the hacker would 
do something to wreck it. I shut down my computer and 
that was about all I did about it. One of my friends had a 
similar experience, only hers was scary and threatening. 
When she got hacked, pictures of a dead girl with her face 
smashed in appeared on her screen, along with threatening 
messages and sound clips."
	<bullet> "I know this is normal in fact it doesn't bother me I just 
laugh. Most kids are always exposed to this stuff not just on 
the Internet so its no big deal in fact sometimes it makes it 
interesting. But one time this dude got really mad at me and 
he knew my parents were out of the state and he could have 
called one of my friends and found my address but instead 
he kept calling every 5 minutes...."
	<bullet> "There was one time, when I got online to check my e-
mail. I ended up going into my regular chatroom, and when 
I arrived, some guy started giving out my personal 
information. I don't know how he knew anything personal 
about me, but he was telling everyone in there about the 
frightening and terrible things that were done to me as a 
child. My best friend doesn't even know what happened to 
me when I was little. All I did was, denied all of what he 
said and logged off. I cried all week long."
	<bullet> "This guy IM'd [instant messaged] me and my best friend 
and he knew all this information about us... and we hadn't 
even talked to him before. He knew who we were, where 
we lived and everything and he kept playing with our 
minds trying to tell us that we started IMing him first and 
so on. I told my parents about it but they didn't really care. 
So this went on for an hour and a half. I had friends try to 
get him to stop. He told us where he worked and he kept 
insisting that we go places with him like out to lunch or 
dinner and he would buy us x-mas and b-day presents even 
though we had never met him. He would leave them on his 
car at work for us to come and get, we would go get them 
and just smash them all over the ground... thinking he 
would get the point. He was convinced that him and my 
best friend were dating then I came along and I'm the one 
who stopped it all. No one could get this guy to stop. We 
changed our screen names plenty of times but he had 
already hacked into our account so he could always find us. 
Well he hacked into mine. Well in December we got a new 
computer and we both changed our screen names and he 
hasn't been able to find us since."
	<bullet> "[A]bout a year ago I met a guy online and I told him my 
phone # and found out he lived about 5 minutes away from 
me we talked 4 about a week then he asked me out and I 
agreed. We met up at the mall he was totally normal 15 
year old guy. He wasn't some psycho or anything but I got 
in a lot of trouble from my parents and I will never give out 
any personal information again. It's not safe and its a stupid 
idea. If anyone who reads this is thinking about giving out 
info to someone on the net PLEASE think twice about it 
you could get yourself into a lot of trouble."
	<bullet> "I received a threatening E-mail from someone on my E-
mail address. I immediately changed my password, and 
made sure that I didn't have information on my profile. I 
never E-mailed the person back, since that is what lets them 
know your account is active and they can find out more 
about you. Then, I decided to make sure about it, and 
stopped checking my E-mail account. I just got a new one."
	<bullet> "I was in a chat room once and this person was threatening 
to kill themselves, and I find that scary. So I IM'd them not 
to do it, and I chatted with them for a while, and made them 
feel better about themselves, and promise not to do 
anything drastic. And they did promise."
	<bullet> "I told these people to leave this foreign guy alone because 
they were making fun of him. They were calling him names 
and mocking everything he said. The people I got smart 
with told me I better watch my back because they could 
find out where I lived. That's why I left."

        It would be interesting to ask your children to reply to the same 
questions. You might learn something about your children you 
didn't know.



                             Appendix 2:

The Quick Tips on Keeping Our Kids Safe on Social Networks

        The quick tips for teens:
	<bullet> Put everything behind password protected walls, where 
only friends can see
	<bullet> Protect your password and make sure you really know who 
someone is before you allow them onto your friends list
	<bullet> Blur or morph your photos a bit so they won't be abused by 
cyberbullies or predators
	<bullet> Don't post anything your parents, principal or a predator 
couldn't see
	<bullet> What you post online stays online - forever!!!! So 
thinkb4uClick!
	<bullet> Choose a network that lets you control your own security 
settings and who can see what you post.
	<bullet> Don't so or say anything online you wouldn't say offline
	<bullet> Protect your privacy and your friends' privacy too...get 
their okay before posting something about them or their pic online
	<bullet> Check what your friends are posting/saying about you. That 
cute 14-year old boy may not be cute, may not be 14 and 
may not be a boy! You never know!

        And for parents:
	<bullet> Talk to your kids
	<bullet> Don't panic
	<bullet> Be involved
	<bullet> This too will pass!

        For help or more information, visit WiredSafety.org.


                          Appendix 3:

Wireless Safety...Keeping Your Kids Safe Using Cellphones and 
Other Mobile Devices 

        You've already heard the tips about keeping your kids safe 
online. But, now...all bets are off. Welcome to the wonderful new 
world of wireless!  Our families can carry powerful computing in 
handheld devices the size of a pack of playing cards (or smaller!). 
They can download and play music, movies, and games. They can 
shoot, store and share photos, video and audio. They are always in 
touch, always connected, always engaged. (And the newest hottest 
teen social network, Yfly.com, is using broadcast text-messaging 
to keep teens connected to their nearest and dearest friends to 
through their mobile devices too and MySpace and Facebook are 
using text-to-profile posting technologies now too.)
        Great! Except the most often repeated safety tip warns parents 
to keep the computer in a central location to keep an eye on what's 
going on. So, how are we supposed to keep our kids safe when 
they are carrying access and communication devices in the palms 
of their little hands? Are we supposed to tell them to keep their cell 
phone or other handheld device in a central location? Of course 
not. At this point, it's less about standing over their shoulders and 
more about improving the "filter between their ears." 
        You can do this by being proactive and informed (not rocket 
scientists, just informed...). Luckily, it all comes down to 3 key 
issues. I call these the "3C's" - Communication, Content, and 
Commercialism. Every digital device or interactive service 
involves at least one of them, some involve all 3. Once you find 
the Cs involved, spotting the risks and solutions is easy.
Start by reviewing all your interactive technology devices and 
services. If you are shopping for a new device or service, ask the 
salesperson these questions before plunking down your hard-
earned money. 
	<bullet> Communication: Does this device or service allow you to 
communicate with others?  Does it allow others to 
communicate with you? If so, how? What controls exist to 
block, filter or monitor these communications? How can I 
implement them? (Text-messaging and voice capabilities 
fall into the first "C". So do e-mail, interactive features on 
profiles, and on blogs.)
	<bullet> Content: What content or images can be accessed or shared 
using the device or service? Can you surf the Web, access 
blog or profile sites, post your blog or profile sites or 
download media? Can you store images, personal 
information, video, songs, etc? What controls exist to rate, 
block, filter or monitor the content? How can I implement 
them? (Music and video downloads, pictures taken by the 
mobile device, adult content, content on profiles and on 
blogs fall into this second "C".)
	<bullet> Commercialism: Can this device/service cost me money? If 
so, how? Are their ways to spend money or buy things 
using the device / service? Are their ways to control costs 
or prevent my kids from spending money or buying things 
without my approval? What controls exist to block, filter or 
monitor these costs or spending ability? How can I 
implement them? (Ringtones, music downloads, text-
messaging and games fall into this third C.)

        Next, you need to refer to the common sense tips our 
grandmothers taught our parents and they taught us --we just need 
to translate them from "Grandma-speak" to "cyberspeak." 

Don't talk to strangers. 
        It's easy for our children to spot an adult in a schoolyard, but 
not as easy to do the same in cyberspace, or on text-messaging. 
Our kids need to learn that unless they know the people in real life 
("RL"), the person has to be treated like a stranger no matter how 
long they have chatted online. Period. 

Come straight home after school. 
        When kids wander around, unsupervised, after school they 
inevitably get into trouble. Allowing your children to spend 
unlimited time surfing or texting aimlessly is no different. Set a 
time limit. Create a "no texting" zone, where they spend time with 
their real life friends and engaging in family activities (and 
homework). 
 
Don't steal.
        Illegal music, movie and game downloads. Enough said!

Don't start fights. 
	Cyberbullying is when one minor uses interactive technology 
to harass, frighten or humiliate another minor. They may even 
spread into RL. Our children should be taught to Stop (don't do 
anything to make matters worse), Block (the offender) and Tell 
(you or another trusted adult). (You can learn more about this at 
stopcyberbullying.org.)

Don't take candy from strangers. 
	While we don't take candy from people online, we do often 
accept attachments. A seemingly innocent attachment can contain 
a virus, spyware or a hacking tool. Many of the good anti-virus 
programs have mobile versions. They are worth the investment.  

Don't share personal information with others. 
        Our children often post their cell number on their instant 
messaging "away page." Mobile device cameras can be used to 
take a picture and post it online. Make sure your children 
understand what can and cannot be shared. Remember...The more 
information you give your children, the less information they'll 
give a stranger.

Look before they leap.
	Check things out before your child starts using a new 
interactive device or technology or activity. Let them know what 
features you don't want them using and which ones are safe. And 
remind them that you will be watching. This is a matter of parental 
choice and control. The wireless industry is providing some 
significant help here too. They have voluntarily adopted a set of 
principles relating to mobile content provided by the carriers 
themselves, rating them as "restricted" (for those over the age of 
18). Restricted content is only available with authentication, 
allowing parents stay in control. Disney has a new cell phone 
service and phones launching in June, 2006 too. (Visit 
disneymobile.com and ctia.org for more information.)

Do unto others as you would have them do unto you.
	It is too easy for our children to act out online knowing that 
they may never have to face the other person in real life. Not 
having to look them in the eyes makes it easier to be rude, lewd or 
hostile. This is a good time to remind your children to treat others 
online and off with R-E-S-P-E-C-T.
        Now...go have some fun and play a little! And if you are still 
tech-challenged, ask your kids for help.
        And for more cybersafety tips and help or to book a program 
for your community, visit WiredSafety.org, the world's largest 
Internet and wireless safety and help group or contact Parry Aftab 
directly at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f2829380808bb2859b80979681939497868bdc9d8095dc">[email&#160;protected]</a>


                             Appendix 4:

Parry's Social Networking Advice for Parents: 
        It's worth the effort to find out if your child is one of the social 
networks. Start by asking them. Hopefully they will be honest with 
you. If they aren't or you suspect they may be lying, it doesn't hurt 
to check out the more popular ones yourself. Search for your child 
by e-mail address, name and school. While they often lie about 
their e-mail address (either creating a special free web-based one 
just for this, that you may not recognize, or by making one up) or 
their name, they NEVER lie about their school. That's the only 
way their friends can find them. If you discover that your child has 
one of these profiles (or several, which is very common) and is 
lying to you, you need to take action. This isn't about technology, 
it's about dishonesty and hiding something important from you. 
And it might be a good time to buy and install a monitoring 
product, to be able to find their other lies and their next social-
networking website they are trying to keep you from seeing.
        If they admit that they have a page and show it to you, review 
it carefully, without over-reacting. Keep an open mind. (And take 
5! To keep from panicking!) Have they posed as someone older? 
Posted person images? Included their friends on their site or been 
included by their friends on their sites? Forget the language. It's 
what kids do online. Caution them, but don't judge them by the 
language they use online. If they are posting using chatlingo 
shorthand, you can visit Teenangels.org and use our chatlingo 
translator to see what they are saying.
        Then you have two choices. You can have the site taken down, 
or you can supervise what they are posting and doing. It's 
important hat you help keep your child safe online, even if you 
may be shocked by what you find your child is saying behind your 
back. And be aware that these are important to them. They all do it, 
even if they shouldn't. So, it's possible that your young teen will 
rebel and just set up a page again, but hide it better this time. It 
may be better to work with them than prohibit the profiles 
altogether.
        Next, don't panic. You should take advantage of this 
opportunity to review their page first. You might be surprised 
(hopefully pleasantly) by what they are saying. 
        If they haven't posted anything to put them at risk, and aren't 
communicating with strangers, ask them why they want a social-
networking profile page. You might be surprised at what they tell 
you. While parents freak out (understandably) at the provocative 
images and wild language used by many on these sites, most of the 
teens don't see them or pay attention to them. They are there to 
show off their creativity and self-expression and to communicate 
with their offline friends. As long as they are old enough to 
understand the rules and adhere to them (no one under 13 is old 
enough for this, even with parental approval in my humble 
opinion), and as long as you keep an eye on what they are doing, 
posting and how they are communicating with others, it's YOUR 
choice as to whether they keep their site up or not. (Make sure that 
you don't become the self-appointed profile site, reporting other 
people's kids for posting underage until you speak with their 
parents first!)
        If you find that they are saying and posting inappropriate things 
or those comments don't seem to conform to their otherwise good 
offline behavior, don't panic yet. Think about how our parents 
would have reacted if they could have seen or heard everything we 
said to our friends when no adult was around. I guarantee that they 
would have been almost as shocked as many parents are about 
what their kids are posting online. 
Also, remember that many of the things your kids are saying 
are being said to impress their audience and are often not true. 
(Luckily!)
        The important difference between what we used to say or do 
and their posting online, however, is that when we acted out or 
boasted about acting out, we didn't do it to an audience of millions 
of people. So, while you shouldn't panic, you should take quick 
action if your kids are posting personal information in a public 
forum, or communicating with strangers online.
        Now repeat after me..."I am the parent!" 


Appendix 5: How schools are handling these issues

A letter for parents from a school, using Parry's tips:


Lakewood High School
14100 Franklin Boulevard   Lakewood, OH 44107
Voice:  (216) 529-4028   Fax:  (216) 529-4459
Web:  http://www.lnoca.org/lakewood/lhs/					

        Dear Parents/Guardians:
        Many of you are aware of the popular websites used by 
teenagers for blogging and socializing, such as MySpace.com.  
Recently, our staff has become aware of inappropriate content that 
many of our students are posting on these public websites.  This 
letter is being sent to inform you of these websites and to 
encourage you to talk to your child about internet safety and 
appropriate postings.  The following information is provided by 
Parry Aftab, cyberspace lawyer and executive director of 
WiredSafety.org, the world's largest Internet safety and help group 
and taken from her safety tips published at MySpace.com with her 
permission.
        MySpace.com and other similar sites are designed to allow 
people to share their creativity, pictures, and information with 
others. Sometimes people do this to find romance. Sometimes they 
do it to find friends with similar interest. While this may be okay 
for adults, it is not okay for kids.
        MySpace.com recognizes this, and prohibits anyone under 14 
years of age from using their website. Unfortunately, while they 
may set rules to keep younger kids off the site, they can't prevent 
kids from lying about their age, pretending to be 14 years of age or 
older. To address this, MySpace.com has developed special 
software to review the profiles of their members, to try and find 
anyone under age, based on information the members post about 
themselves. It's not perfect, but it does help spot many underage 
members.
        While MySpace.com is doing its best to keep your children 
from using their website and lying about their age, it's up to 
parents to do their job too. Parents need to talk with their children 
about not sharing personal information online. Personal 
information includes pictures, names and addresses, schools they 
attend, cell and phone numbers and many other less obvious 
things, such as the name of their school team, ethnic background 
and even a mall near your house. (You can learn more about how 
to talk to your kids and what you should be asking at 
WiredKids.org or WiredSafety.org. I am an Internet privacy and 
security lawyer and founded the all-volunteer Wired Safety Group. 
We can help you if things go wrong online, or you just have 
questions. We provide information, education and one-to-one help 
for victims of cyberabuse.) 
        We at WiredSafety.org are developing a special program just 
for parents concerned about their kids using social-networking and 
online dating sites. It will teach you what you need to know about 
finding out if your child has a profile on one of these sites, how to 
review them and remove them, if you want to. It will also help you 
if your child is being cyberbullied using one of these sites or 
members from these sites, or is cyberbullying others. 
        So what do you, as a parent, do? First you need to find out if 
your child has a page on one of these sites. The best way to find 
out if your child has a profile on this or another similar site is to 
ask them. If you're not sure that your child is being honest with 
you, you can search MySpace.com (or the other sites) using their 
e-mail address, or by searching for their school. (You click on 
"search" and enter their email address or full name in the 
appropriate search box.) 
        If you find that your child has a profile on the Web site, you 
should review it. It's amazing how much you can learn about your 
child by reading their profiles. Does it contain personal 
information, such as their full name, address or phone numbers? 
Has your child posted photos? Are they photos of themselves or 
someone else? Are they sharing poems they write or provocative 
comments about themselves or others? 
        If you want the profile removed (you must remove your child's 
profile if they are under age), first ask your child to remove it 
themselves. If that doesn't work, MySpace.com has a section 
explaining how to remove a page. If you find someone who is 
underage, you can report it there as well. It's not as easy a 
procedure as the other Web sites.
        While MySpace.com is working hard to keep kids off their Web 
site, ultimately, protecting your child is your job. But you have lots 
of help. At WiredKids.org and WiredSafety.org thousands of 
volunteers donate their time to helping parents and children surf 
responsibly and safely. And we will be building a few tutorials help 
parents and their children understand how to be careful when 
communicating publicly online.
        A good thing to do is to ask your kids why they created the 
profile. You might learn that they wanted to share their thoughts 
with others, make new friends or even allow others in their school 
to get to know them better. But not all of their motives are as noble 
or safe. Some may be interested in meeting new romantic interests 
or role-playing inappropriately online. And when a young preteen 
lies about their age posing as a seventeen year old at the site, that 
can be a serious problem. Others in their late teens might 
approach your child thinking they were older. That's bad for 
everyone.
        If you discover that your child is posting provocative comments 
or inappropriate images online, it's time for the tough talk. The 
one about stranger dangers and how that cute fourteen year old 
boy they meet online may not be cute, may not be fourteen and may 
not be a boy. (Parents of young boys need to understand that their 
children are equally at risk. About one-third of the cases of 
Internet sexual exploitation are men exploiting boys.) Our children 
need to realize that there are real risks relating to meeting 
strangers offline, including murder. 
        It's not easy raising children anymore. It is even harder when 
the parent is expected to be expert in Internet, cell phone and 
interactive game risks. The good thing is that you're not facing 
these challenges alone. We're here to help.
        Just remember that while your kids may know more than you 
do about technology, you know more about life. And you are 
allowed to set the rules and enforce them. You're still the parent! 
There is software you can install that will record what your kids 
say and post online. There is even one that will e-mail you reports 
at work. The ones I like best are made by Spectorsoft, and can be 
found at software4parents.com or spectorsoft.com. But don't use 
them just to spy on your kids. Treat them like a security video 
camera in the corner of a bank. No one views the tapes unless and 
until there is a break-in. Do the same here. Check the program 
reports if something goes wrong. It will collect whatever you need 
for evidence and to help your child if something goes wrong.
        Also, check your parental control programs. Many, such as 
AOL's and MSN's, can block access to social-networking Web 
sites or other sites you think are inappropriate for your younger 
child. There are many other products you can purchase to block 
sites as well. (Check out software4parents.com to learn about and 
purchase some of these.) Just remember that the best filter is the 
one between your children's ears. 
        Please feel free to contact your child's counselor or house 
principal if you have any concerns. And visit Parry's cybersafety 
blog and podcast, http://parryaftab.blogspot.com, and 
WiredSafety.org for more tips on cybersafety and social 
networking issues.



A principal's letter to the parents of his students: 
        I know that history repeats itself and some things never change 
and there is nothing new under the sun, etc, etc, etc. Having spent 
so many years in school buildings, I really understand how much 
truth there is to these clich�s. From the first day I started working 
in schools more than 38 years ago, I have been involved in helping 
young people deal with the consequences of making poor decisions 
involving things like drugs, alcohol, vandalism, theft, bullying, etc. 
It will always be this way and that is part of the job of teachers and 
administrators in public schools.
        It can come as no surprise to anyone reading this that drinking 
is rampant among many of our students almost every weekend. 
Drinking to excess (bingeing) is now more common than ever 
before. Is it watching MTV Spring Break year after year that has 
caused this new form of excess to be so common? I don't know. I 
do know that our kids do it, and do it often.
        I'm sure everyone knows at some level that to smoke, or snort, 
or ingest, or inject drugs costs lots of money. How do our kids who 
choose to engage in this kind of behavior get the money to sustain 
it? It is either provided to them by way of an allowance or bank 
card, OR it becomes available in other ways...theft, sale of 
personal items, providing services of some kind, etc. We all know 
enough about drugs either through reading, watching movies, or 
hearsay, to know that no one provides a sustained supply of drugs 
to someone else out of the goodness of their hearts. They want 
something in return. How do our kids get access?
        Bullying used to be relegated to the big, tall, tough guy/gal in 
school. After all, it took muscle and might to back up those words 
and deeds. Now, through e-mail, instant messages, text messages, 
the phone, personal home pages, etc. just about anyone can bully 
someone else and remain anonymous. The 98 pound weakling no 
longer has to bulk up to be a bully. She/he can do it from the 
privacy of the bedroom and remain at that weight.
        Here is what has really changed. Personal home pages are now 
almost the norm among our young people with access to computers 
and broadband Internet service. You would be shocked and 
surprised to visit some of the home pages of our middle school and 
high school students. Some of the information they share about 
themselves is embarrassingly personal, graphic, and explicit, AND 
it comes with names, addresses, and phone numbers. In truth, most 
of these kids think they are setting up a page that they and only 
their close friends have access to. In truth, just about anyone with a 
real facility with computers can find these sites and pick someone 
who interests them to prey upon.
        I am sharing this disturbing information with you because we 
all worry about your/our children. Most, if not all of this activity, 
takes place at home or at someone else's home. If it took place in 
school, we would have a record and would track it. There are 
consequences for this kind of behavior at school using school 
machines and our Internet service. When it happens from 
elsewhere, we have no control over it. I don't even know how you 
can control it. I simply want the piece of mind knowing that I have 
shared this with you. It is epidemic among our young people and 
opens the door for unimaginable problems for them and for YOU, 
their parents.
        I rarely write or speak about problems for which I have few or 
no solutions. I can't even suggest a solution other than to be 
vigilant and to know it is going on, if not at your home with your 
child then with your child's best friend or your neighbor's child. 
Let's bring this topic into the open and start talking about it 
whenever groups of adults gather for whatever purpose. Our 
children need to know that we know what is going on. It is 
dangerous and they are too young to understand. If you can think 
of something that would be helpful to parents and you plan on 
attending the next evening "coffee" in March, please share it with 
me and I will pass it along to other parents via e-mail or this 
Newsletter.


                           Appendix 6:

Parry's Myspace Guidebook Table of Contents	
(the guide will be released for back to school without charge at 
WiredSafety.org)	

1-	Introduction to Myspace
a. Origins/History
b. Why people use it
c. Basic ideas of how Myspace works
d. Explaining the 'cyber friends' process 
e. Pitfalls of chatting online  
f. Reasons to use social networks

2-   Getting started
a. Creating your homepage
b. Uploading images/Using appropriate images
c. Content- not revealing too much personal information
d. Settings, and controlling 'Friends' lists
e. Finding others with similar interests, in your area or at your 
school
f. Using Myspace to network 
g. Searching for specific people on Myspace
h. Creating and using an avatar
i. Privacy settings
j. Younger profiles settings (between 14 and 16)
k. Reporting abuse
l. Getting help
m. Pics, quizzes and getting codes from third party sites
   
 3- Writing a profile 
a. Creativity-expressing yourself through a blog/profile
b. Blog/profile ideas, like a diary, it can be a journal of your 
thoughts
c. Writing with some caution-not revealing detailed information 
d. Reading and contributing to other members blogs/profiles

4- Hazards of meeting people from the Internet in real life
 a. Using caution when replying to e-mails and communications 
from strangers
 b. Unsolicited contact, using judgment to better safeguard yourself
 c. Meeting people face to face offline
 d. "You never know..." how even smart teens and preteens are 
tricked by posers
 e. You don't have to meet them offline to be sexually exploited - 
webcams, cybering and child pornography	   
		
5- Risks from adults, from other teens and risks you pose to 
yourself
a. Sexual exploitation issues
b. Cyberbullying, stalking and harassment
c. Protecting your reputation online
d. What employers, colleges and police are doing on social 
networks
e. ID theft, scams and posing
f. Protecting your passwords and personal information
g. Protecting your personal information - when your friends post 
your info	

6- What you need to know to keep yourself safer
a. Having fun on Myspace, safely
b. Using good judgment to identify potential dangers
c. Using creativity to express yourself through blogs/profiles
d. Letting an adult know if something happens 
e. Talking to parents/adults about people you meet online
f. Using extra caution when sharing images or chatting
g. Talking to friends about safety - protecting yourself and your 
friends online


                        Appendix 7:

Parry Aftab's Guide to Keeping Your Kids Safe Online

MySpace, Facebook and Xanga, Oh! My!

Keeping yourself and your kids safe on social networks

The quick tips for teens:



        <bullet> Put everything behind password protected walls, where 
only friends can see
        <bullet> Protect your password and make sure you really know who 
someone is before you allow them onto your friends list
        <bullet> Blur or morph your photos a bit so they won't be abused by 
cyberbullies or predators
        <bullet> Don't post anything your parents, principal or a predator 
couldn't see
        <bullet> What you post online stays online - forever!!!! So 
thinkb4uClick!
        <bullet> Don't so or say anything online you wouldn't say offline
        <bullet> Protect your privacy and your friends' privacy too...get 
their okay before posting something about them or their pic online
        <bullet> Check what your friends are posting/saying about you. 
Even if you are careful, they may not be and may be 
putting you at risk.
        <bullet> That cute 14-year old boy may not be cute, may not be 14 
and may not be a boy! You never know!
        <bullet> And, unless you're prepared to attach your MySpace to 
your college/job/internship/scholarship or sports team 
application.don't post it publicly!

And for parents:

        <bullet> Talk to your kids - ask questions (and then confirm to 
make sure they are telling you the truth!)
        <bullet> Ask to see their profile page (for the first 
time).tomorrow! (It gives them a chance to remove 
everything that isn't appropriate or safe.and it becomes a 
way to teach them what not to post instead of being a 
gotcha moment! Think of it as the loud announcement 
before walking downstairs to a teen party you're hosting.)
        <bullet> Don't panic.there are ways of keeping your kids safe 
online. It's easier than you think!
        <bullet> Be involved and work with others in your community. 
(Think about joining WiredSafety.org and help create a 
local cyber-neighborhood watch program in your 
community.)
        <bullet> Remember what you did that your parents would have 
killed you had they known, when you were fifteen.
        <bullet> This too will pass!  Most kids really do use social networks 
just to communicate with their friends. Take a breath, 
gather your thoughts and get help when you need it. (You 
can reach out to WiredSafety.org.)
        <bullet> It's not an invasion of their privacy if strangers can see 
it. There is a difference between reading their paper diary that 
is tucked away in their sock drawer.and reading their 
MySpace. One is between them and the paper it's written 
on; the other between them and 700 million people online!
        <bullet> Don't believe everything you read online - especially if 
your teens posts it on her MySpace!
        <bullet> And, finally..repeat after me - "I'm still the parent!" If 
they don't listen or follow your rules, unplug the 
computer.the walk to the library will do them good. <bullet> 

        For more information, visit WiredSafety.org. Copyright Parry 
Aftab 2006, all rights reserved. For permission to duplicate, e-mail 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7929180b0b00392e100b1c1d2a181f1c0d0057160b1e57">[email&#160;protected]</a> 


                             Appendix 8:

SNAPSHOT OF U.S. MINORS ONLINE AND HOW PREDATORS 
REACH THEM
(Taken from Parry Aftab's testimony before the House Sub-
Committee on Investigations and Oversight on April 4, 2006)

        It is estimated that approximately 75 million minors in the 
Unites States access the Internet either from home, schools, 
community centers and libraries or from some newer Internet-
capable device. This is up more than ten-fold since 1996, when 
only 6 million U.S. minors were online. Now our children are 
using cell phones with Internet and text-capability, interactive 
gaming devices (such as X-Box Live and Sony Playstation 
Network) with voice over Internet and live chat features, handheld 
devices with Bluetooth and other remote-communication 
technology (such as PSP gaming devices and mobile phones) and 
social networking profiles (such as MySpace, Facebook, Bebo, 
YFly and others) where they can advertise their favorite things, 
where they live and pictures of themselves and their friends to 
anyone who wants to see them.
        Ten years ago, when I first wrote my safety tips telling parents 
to put the computer in a central location, that made sense. It was a 
central point, where parents could get involved and supervise their 
children's interactive communications and surfing activities. Now, 
where they take their communication technologies with them in 
their pockets, backpacks, and purses, it is not longer as relevant as 
it once was. Now, instead of expecting parents to watch everything 
their children are doing online from the comfort of their 
familyrooms, or kitchen counter, we have to do more. Now, we 
have to teach our children to use the "filter between their ears" and 
exercise good judgment and care when using any interactive 
device. While teaching parents how to supervise their children 
online was a challenge (I have written the leading books, 
worldwide, for parents on Internet safety), teaching children to 
"ThinkB4uClick" is much harder.
        When I was growing up (in the days before electricity and 
indoor plumbing, when we had to walk up hill, both ways!, in 
blizzards to get to school), parents used to blame us for not 
behaving.  We were disciplinary problems. Now pediatric neuro-
psychologists tell us that preteens and young teens are hardwired, 
through immature brain development, to be unable to control their 
impulses at this age.  Either way, we recognize that preteens and 
teens take risks, don't appreciate the consequences of their actions 
and act before they think. When their audience was their school 
friends, family and neighbors, the risks were containable. When 
they act out where 700 million Internet users can see, it takes on a 
much deeper significance.

Putting Their Heads into the Lion's Mouth
        Now, I will share something very controversial. While 
educators and child psychologists understand this, most parents 
will be shocked at the suggestion that their preteens and teens are 
in control of their safety online and putting themselves at risk, 
often intentionally. But unless we accept this, and direct our 
attentions at solutions aimed at this reality, we are all wasting our 
time. We will focus on the much smaller segments of preteens and 
teens who are being victimized through not fault of their own - 
those who are targeted at random. All others need to change their 
online behaviors. And that's where we need to devote all our 
attentions.
        For this to happen, you need to understand the truth. For years 
we have told parents and minors not to share too much personal 
information online. "You can be tracked down in real life," we told 
them. But, notwithstanding anything to the contrary reported in the 
media and by some local law enforcement officers, to my 
knowledge, to this date, no preteen or teen has been sexually-
exploited by someone who tracked them down from information 
they posted online. In each and every case, to my knowledge, to 
teens and preteens have gone willingly to meet their molester. 
They may have thought they were meeting someone other than the 
46 year old who is posing as a teen, but they knew they didn't 
know this person in real life. They are willingly agreeing to meet 
strangers offline.
        What does this mean? It means we can do something about 
this. It means we can educate teens and preteens about the realities 
of meeting people in real life they only know in cyberspace. It 
means we can create solutions. It means that this is, at least for the 
time being, 100% preventable. It means that what we do today will 
have an immediate impact on the safety of our youth. It means we 
have to join together and work on things that are effective and 
abandon those that are not.
        But we have to act quickly. When I testified before the U.S. 
House Of Representatives, Committee On Commerce, 
Subcommittee On Telecommunications, Trade, And Consumer 
Protection on October 11, 2000, I cautioned:
Law enforcement is not aware of anyone who is using the 
information children provide online to seek them out offline, by 
hiding behind a bush or grabbing them on their way home from 
school. But it's only a matter of time before this happens, since 
universal access to the Internet means that even violent sexual 
offenders who are online can use it for their own horrible purposes. 
(See Testimony of Parry Aftab, Esq. U.S. House Of 
Representatives, Committee On Commerce, Subcommittee On 
Telecommunications, Trade, And Consumer Protection on October 
11, 2000.)
        Luckily, while our young people are sharing much more 
information online than ever before, to my knowledge, predators 
aren't using it to hunt down our children offline. They are like 
vampires. They need to be invited in. Sadly, our teens and preteens 
are too often doing just that. They are inviting them to offline 
meetings, phone calls and videochats. But, as an expert in 
cyberrisk management, I can tell you that this is good news. 
Because we have a single point of risk - our children, preteens and 
teens. If we stop their risky and unsafe behaviors, and teach them 
when to reach out for help, we can manage this risk. We can keep 
our children safe.
        Our children are mainly at risk because of their own actions.  
Some are intentional. Others are inadvertent. They may willingly 
engage in communications with people they don't know in real life 
"RL," agree to meet them offline or send them sexually-
provocative images or perform sex acts on webcams they share 
with people they encounter online. They cyberbully each other by 
advertising their victims for sexual services, posting real or 
manufactured sexually explicit  images of them online or by 
passing online rumors able their sexual preferences or activities.
        Preteens and Teens at Risk: Most of the high risk preteens and 
teens fall into three categories: those who are naive and looking for 
love and affection (typically the "loners" and "shy" preteens and 
teens), those who already engage in other high risks activities, such 
as drug and alcohol abuse, driving too fast or doing risky things for 
the thrill of it (often the student leaders, athletes, cheerleaders and 
very competitive teens, the risks takers and thrill seekers looking to 
let off steam or impress their peers) and those who don't realize 
that what they do online is real, the ones who are looking to appear 
older, cooler, more fun and more popular (most of the teens and 
especially preteens fall into this category at least once). Sadly, 
most of our preteens and teens fit one of these categories. Sadder 
still is the fact that in recent years we have learned that most 
preteens and teens are potential victims. 
        Naive, loners and socially-shy preteens and teens: Some 
believe that they are communicating with a cute 14 year old boy, 
who they later discover isn't cute, isn't fourteen and isn't a boy. 
Most of the reported cases fall into this category, and until the 
death of Christina Long four years ago this May, experts all 
believed that all victims fell into this category. They are conned, 
and easy to spot online. Predators can seek them out, and find their 
vulnerabilities. They are groomed with care, and often fall in love 
with their molesters. Sadly, when the molestation finally occurs, 
not only are their bodies broken, their hearts and trust are too.
        They need to understand how the predators work online. Too 
often they tell me that they can "tell" how old someone is online. 
They can't. No one can. Many predators spend years cultivating the 
right tone and language to look like a fellow teen online. 
        These preteens and teens are sitting ducks. While they may 
have learned not to fall for the "help me find my puppy" ploy 
offline, they need to learn how that same ploy (appeal for 
assistance) works online. They need to know how to spot the risks 
and the predators, when online everyone can look like a cute 14 
year old boy. They need to learn that romance shouldn't occur only 
in cyberspace, and that parents can get involved to help them meet 
their soul-mate, assuming they really are. So, if they aren't, and 
turn out to be a 46 year old child molester, they can come home 
safely and help put that molester behind bars where they deserve.
        Risk-takers, Thrill-seeking preteens and teens: Some preteens 
and teens (mainly teens) are looking for the thrills and challenge of 
engaging in a relationship (or at least prolonged communication) 
with an adult. They "play games" with the adult, and are 
intentionally extra sexually-provocative. They think they are smart 
enough to do this without getting hurt.  They see this as a game, 
without realizing the consequences of their actions. And crossing 
the sexual line isn't as frightening online as it would be in real life. 
The problem is that the consequences are not as apparent, the 
realities not as immediate. They take risks. And they think they can 
handle them. (They don't often understand the consequences, 
though.) They often willingly engage in sexual communications 
with men they know are adults. That's part of the thrill. They are 
also often willing to engage in sexual activities with the adult, but 
don't realize what that can mean when things go very wrong. We 
rarely hear about these kinds of victims, because they never report 
it when things go wrong. They feel as though they "asked for it," 
or are to blame. When we hear of these cases, it's because they are 
killed or kidnapped. (Christina Long was in this category. She was 
the first confirmed murder victim of an Internet sexual predator in 
the U.S. and died four years ago this May.)
        Friends are the answer here. If we can get friends too help 
watch out for each other, it is less likely that they will meet adults 
in real life, or if they do, got alone. Also, finding cool 
spokespeople, like Nick Lachey, to explain that it isn't cool to be 
stupid and campaigns such as our "Don't Be Stupid" help. So do 
real life stories from victims themselves about how they got caught 
and advice from the trenches. Kateisplace.org has sections 
specifically directed at this type of victim. And Teen People is an 
important partner of ours in spreading the word.
        Not really a drunken slut, just playing one online:  We've all 
been reading about this new trend in the news (often with me as 
the expert). Good, respectful, otherwise well-mannered preteens 
and teens acting out in cyberspace.  In profiles, blogs, on social 
networking sites and their away messages on IM, on their websites 
and interactive gaming bios, they act out. They pose in their bras, 
or worse. They simulate sexual activities (and in some cases post 
images of actual sexual activities). They pretend to be someone or 
something other than what they really are. And this alter-ego may 
be a sexually promiscuous teen "up for anything." 
        They don't think it is cool to tell others they were home 
coloring with their five year old niece last weekend. Instead they 
claim to have snuck out after everyone was asleep to get drunk at a 
wild party. To them it isn't real. They lie. They pose. They do thing 
online they would never dream of doing in RL. They aren't really 
drunken sluts - they are just playing one online. (Shannon, one of 
our award-winning Teenangels, will share insight into why teens 
and preteens are doing this, during her testimony today.)

The Anatomy of a Cyberpredator: 
        There have been many cases recently where pedophiles and 
other adults have lured children into offline meetings and molested 
them. Luckily, there are even more cases when such attempts to 
lure a child have brought about the attention of law-enforcement 
groups. I debated whether I should discuss any of these cases, 
because I did not want to sensationalize them. But if explaining the 
methods used by offenders might make parents more aware, and 
their children safer, it's worth it.
        Cyberpredators, just like their offline counterparts, usually 
aren't the scary, hairy monsters in trench coats we imagine 
standing on a dark street corner. Many are the kind of person you 
would be inviting to your home as a guest, and often have. They 
are pediatricians, teachers, lawyers, clergy, vice cops, welfare 
workers, journalists, Boy Scout leaders, baseball coaches, 
scientists, etc. They are almost always men. (Sometimes women 
are accomplices, but rarely are women the molesters.) They are 
often articulate and well-educated. They come in all shapes, sizes, 
and colors, and they can be very rich or out of work. But they have 
one thing in common: they want your child. 
        Most of us are sickened at the thought of an adult having 
sexual relations with a child, but to be able to protect our children, 
we must get into the mind of the predator. First of all, predators 
often don't see themselves as predators. They see themselves as 
loving partners with the children they molest. To them this isn't 
rape, it's a seduction. And, as with any seduction, it's a slow and 
painstaking process. (Predators have been known to wait more than 
two years, collecting data on a particular child, before striking.) 
That's what makes them hard to detect. They don't appear to your 
child to be dangerous. 
        An FBI agent who shared a panel with me recently said it best: 
"Before the Internet, these people had to get physically close to 
your children. They had to lurk near schoolyards, or playgrounds. 
Kids would see them. Adults would see them. It was a dangerous 
situation to be in for them, because everyone would notice an adult 
male lurking around children. They often had to take jobs and 
volunteer positions that allowed them to work with children in a 
position of trust in order to reach their victims. Now, however, the 
personal risks the pedophiles had to expose themselves to in order 
to be around children are gone. Now they can be 'one of the kids' 
and hang out with your kids online without exposing themselves. 
As long as they don't say or do something in the public room that 
makes them stand out, they can stay there forever, taking notes."
        And, many of them do. They have been known to create large 
databases on children. They track the children's likes and dislikes. 
They track information such as whose parents are divorced, who 
doesn't like their father's new girlfriend or their mother's 
boyfriend, or who likes computer games or a particular rock group. 
Kids often share personal information about their lives in 
chatrooms or on profiles. This is one reason why they shouldn't. 
The more the predator knows about your child, the more easily 
they can "groom" them or appear to be their soulmate.
        Some cyberpredators (known as "travelers" to law 
enforcement) seek out the good kids, the smart ones, the ones who 
are not street-smart and are from sheltered suburban or rural 
families. Many of our children match that profile perfectly. Others, 
however, target (or are targeted by) popular, super achiever, risk 
preferring teens. It took the death of a young teen from 
Connecticut, Christina Long, before we realized that many of the 
incidents involved teens who did not fit the loner profile. What we 
learned was that these kids never report any attacks or exploitation. 
The only time we hear of these cases is when the teen is kidnapped 
or killed. 
        So who is a typical victim of an Internet sexual predator? 
Anyone between 11-1/2 and 15. All are vulnerable.

It Doesn't Take Torture for Them to Spill Their Guts
        Here's a mock chatroom discussion that my law-enforcement 
friends and I agree is pretty realistic. Imagine a predatorial 
pedophile sitting and taking notes on this child, and using this 
information to lure them later. Would your child fall for this? 
Most, unfortunately, would. This one is more typical of a boy 
victim and predator communication than a girl victim 
communication.

Child: I hate my mom! I know it's her fault that my parents are 
getting divorced.
Predator: I know. My parents are getting divorced, too.
Child: We never have any money anymore, either. Every time I 
need something, she says the same thing: "We can't afford it." 
When my parents were together, I could buy things. Now I can't.
Predator: Me too. I hate that!
Child: I waited for six months for the new computer game to come 
out. My mom promised to buy it for me when it came out. She 
promised! Now it's out. Can I buy it? Nope. "We don't have 
enough money!" I hate my mom!
Predator: Oh! I'm so sorry! I got it! I have this really kewl uncle 
who buys me things all the time. He's really rich.
Child: You're sooooo lucky. I wish I had a rich and kewl uncle.
Predator: Hey! I got an idea! I'll ask my uncle if he'll buy you one 
too....I told you he's really kewl. I bet he'd say yes.
Child: Really!? Thanks!!
Predator: BRB [cybertalk for "be right back"]... I'll go and call 
him.
- - -
Predator: Guess what? He said okay. He's gonna buy you the 
game!
Child: Wow, really? Thanks. I can't believe it!!!
Predator: Where do you live?
Child: I live in NJ. What about you?
Predator: I live in New York. So does my uncle. New Jersey isn't 
far.
Child: Great!
Predator: Is there a mall near you? We can meet there.
Child: Okay. I live near the GSP Mall.
Predator: I've heard of that. No prob. What about Saturday?
Child: Kewl.
Predator: We can go to McDonald's too if you want. We'll meet 
you there at noon.
Child: Okay. Where?
Predator: In front of the computer game store. Oh! My uncle's 
name is George. He's really kewl.
Child: Great... thanks, I really appreciate it. You're so lucky to 
have a rich and kewl uncle.

        Saturday arrives, and the child goes to the mall and meets an 
adult outside the computer game store. He identifies himself as 
"Uncle George" and explains that his nephew is already at the 
McDonald's waiting for them. The child is uncomfortable, but the 
uncle walks into the store and buys the $100 game. He comes out 
and hands it to the child, who is immediately neutralized and 
delighted. Stranger-danger warnings are not applicable. This isn't a 
stranger-he's "Uncle George," and if any proof was needed, the 
computer game is it. He gets into Uncle George's car without 
hesitation to meet his friend at McDonald's. The rest is reported on 
the 6 o'clock news.
        It's disgusting. It makes us sick to our stomachs, but it 
happens. Not very often, but often enough that you need to be 
forewarned. (Several thousand cyberpredator cases are opened 
each year by law enforcement agents in the United States.) But no 
matter how often it happens, even once is too often. Knowing how 
they operate and the tricks of the trade will help us teach our child 
how to avoid being victimized. Each case differs, but the predators 
tend to use the same general tactics. Aside from the "bait and 
switch" scam discussed above, they often attempt to seduce a 
child. They want the child to "want" them. 



The Script-How They Operate Online 
        They begin by striking up a conversation with the child, trying 
to create a relationship of trust and friendship. They often 
masquerade as another child or teenager, typically of the opposite 
sex, unless the child has indicated homosexual interests. (The child 
may or may not know the "seducer's" real age by the time they 
meet face-to-face.) Phone calls usually start at this point. 
Sometimes gifts are sent to the child as well, which may include a 
Polaroid camera and film. Once they have broken down barriers of 
caution, they begin introducing sexual topics gradually, often with 
the use of child pornography to give the child the impression that 
other children are regularly involved in sexual activities. 
        Then they begin to approach the child's own sexuality and 
curiosity, by asking questions and giving them "assignments," like 
wearing special underwear, sending sexually suggestive photos of 
themselves to the pedophile, or performing certain sexual acts. 
These assignments eventually broaden to the exchange of sexually 
explicit photographs (using the Polaroid, cell phone camera or 
digital camera) or videos of the child. Finally, the pedophile 
attempts to arrange a face-to-face meeting. (He may also have 
divulged his true age or an age closer to his actual age at this 
point.) 

Why It Works
        All the lectures we have given our children from the time they 
are very young about not talking to strangers aren't applicable 
online, where everyone is a stranger. A large part of the fun online 
is talking to people you've never met. In addition, our children's 
stranger-danger defenses are not triggered when other kids are 
involved. The warnings apply only to adult strangers, not to other 
children. 
        If any of us walked up to a child in a playground and tried to 
strike up a conversation, they would ignore us and probably run 
away. But if an unknown eleven-year-old came up to another 
eleven-year-old in the same playground, they'd be playing in ten 
seconds flat! That's how the pedophiles get in under our kids' 
stranger-danger radar-they pretend to be other kids. And children 
often believe what they read and hear. They "know" things about 
the predator because they believe what he told them. They also 
believe what they read about him in his "staged" profile, which 
supports what he told them. So it's not just true, it's confirmed. 
        There are many stages at which the pedophile can be thwarted 
by an observant parent. In addition, children with healthy 
friendships and a strong, open, and trusting relationship with their 
parents are less likely to fall victim to pedophiles online. 
Pedophiles typically prey on a child's loneliness. They feed the 
child's complaints about her home life-creating an "us-versus-
them" atmosphere. "Your mom is so mean to you! I don't know 
why she won't let you _____." (Fill in the blank with whatever we 
try and limit: makeup, malls, concerts, etc.) 
        This atmosphere does two things: It creates a distance between 
the child and her parents, at the same time bringing the child into a 
special secret alliance with the pedophile. (You should know that 
boys are almost as often the victims of Internet sexual exploitation 
as girls are, but they report it less frequently.) 
        I have followed many cases over the last few years. In my role 
as WiredSafety executive director, I've also been responsible for 
reporting several of these to law enforcement and for helping many 
families through the pain of prosecution. Sometimes we just help 
the families survive what the molestation has done to them. (The 
child isn't the only victim-entire families are torn apart in the 
aftermath of a molestation.) Parents feel guilty for not having 
protected their child, siblings don't know how to treat their fellow 
sibling-the pain can continue for a lifetime, and even more. And, 
in addition to being hurt physically, the young victim's heart is 
broken by the betrayal of trust. 



Anatomy of a Real and Early Case
        One case I reviewed many years ago involved a New Jersey 
teenager and an Ohio adult predator. It was one of the earliest 
reported cases of cyber-predatorial conduct, discovered in 1996. 
Luckily, the liaison was discovered before the girl met the man 
face-to-face. But it had gone on for a year and a half before being 
discovered by the girl's mother. As you read the details, think 
about what could have been done to discover the situation earlier 
and how you can use these precautions to protect your children.
        Paul Brown, Jr., an Ohio resident, was forty-six years old. He 
was also unemployed, weighed over four hundred pounds, and 
lived in a basement. He had accounts with several ISPs. Mary (a 
hypothetical name for the young girl involved) was twelve when 
her mother, a schoolteacher, bought her a computer, reportedly 
because Mary was having problems making friends. When she got 
online, Mary posted a message on an online service, in the spring 
of 1995, looking for a pen pal. In her message she described 
herself as a teenage girl. Paul Brown, Jr., responded to the 
message, using his real name (something they often do, 
surprisingly) but identifying himself as a fifteen-year-old boy.
        Brown and Mary maintained an e-mail and telephone 
relationship for several months. As the relationship became more 
involved, they began writing letters, and Mary sent Brown a 
photograph. He told her that he was living at home with his mother 
and was hoping to find a girlfriend. In early August, Brown asked 
Mary for a "favor." "If I sent you a roll of film, could you get one 
of your friends to take pictures of you in different outfits and 
maybe hairstyles? Makeup if you use any, and different poses. 
Some sexy, if possible. Please. Baby for me. Thanx. You're the 
best. Love Ya."
        Mary complied. For the next eight months, they continued to 
converse and correspond, and Mary sent additional photos. Brown 
encouraged her with juvenile antics, such as using stickers in his 
letters to her saying things like "Getting better all the time!" In 
May 1996, Brown sent Mary a special love note. "Saying I love 
you... seems to be an understatement. At the age of 14 you have 
captured my heart and made it sing... I love everything about 
you.." 
        Shortly thereafter, Brown confessed to being in his twenties. 
He also suggested that Mary videotape herself in sexually 
provocative poses. She did. After Brown had reviewed her 
videotape, he returned it to her with instructions to redo the tape 
and include views of her genitalia and breasts. He later admitted to 
being divorced and in his thirties. He reportedly also sent her small 
gifts from time to time. 
        A few months later, in response to Brown's promise to pass 
copies of the tape to four members of a rock band Mary admired, 
she sent additional videotapes to Brown. (Brown told Mary that he 
knew the band members very well.) Each tape sent to Brown was 
designated for a different member of the band and contained 
sexually explicit conduct. Brown apparently had also sent her his 
size 48 underwear. When her mother discovered the underwear, 
the authorities were notified. Tracing Brown through phone 
records, special agents of the FBI in Cleveland seized the 
videotapes and photos of Mary and of more than ten other teenage 
girls from across the country.
        Mary was fourteen when this was all discovered. Brown pled 
guilty to enticing a minor to produce sexually explicit photos and 
videos and was sentenced to a little less than five years in prison 
(the maximum penalty for a first offense). In a written statement to 
Brown following all of this, Mary said, "I trusted you. I thought 
you were my friend." 
        There are several things that stand out in this case. One, 
interstate phone calls were made by Mary. Parents should always 
be reviewing long-distance bills for suspicious calls. Two, Mary 
was lonely. These kinds of children are often the most vulnerable; 
a parent should be involved in their online friendships, and monitor 
their online lives. And, three, as hard as it is to know what our kids 
are doing when we're not  around, especially if you are a single 
parent, a year and a half is a long time for a relationship to be 
going on undiscovered. You should spend time learning who your 
children's friends are, online and off. But Monday-morning 
quarterbacking is always easier than playing the game in real time. 
We may look at the situation and say that could never happen to 
one of our kids. However, there but for the grace of God go all of 
us....
        Knowing your child is lonely and has problems making friends 
is the first sign that the child may fall prey to a pedophile or cyber- 
predator. Predators can spot lonely children. They can also spot 
kids who are new online and may not yet know all the rules. Most 
teens, when surveyed, admit to having been propositioned online. 
But what may be obvious to a cyberstreetsmart kid may not be so 
obvious to a child not yet familiar with cyberspace. Pedophiles 
befriend these kids and patiently build trust and a relationship-
looking toward the day when they can meet face-to-face. 
        Encourage your children to make online friends, but learning 
about their online friends is an important way to avoid these secret 
relationships. Education is important in avoiding this danger, too. 
(Had Mary been forewarned about how pedophiles operate online, 
she may have been more attentive to how old Brown sounded on 
the phone, and been more aware of his classic tactics.) So is 
control over incoming and outgoing information when younger 
children are involved, using technology blockers, monitors, and 
filters. These kinds of situations can be avoided if you plan ahead, 
educate and communicate with your children, and keep your eyes 
open.

Getting in Under Your Radar: 
        Even when parents are watching, bad things can happen.
I included the Paul Brown case in my first book, A Parents' 
Guide to the Internet. (He was sentenced in 1997, when I wrote the 
book.) I included it because it was a good example of how 
cyberpredators typically operate, and suggested that if the mother 
had been a bit more attentive, it might have been discovered 
earlier. I was right about how cyberpredators operate. I was wrong 
about how being attentive might have avoided the sexual 
exploitation. It takes more. It takes both an attentive parent and a 
teenager who has been taught how these pedophiles operate online.
        In November 1998, I met a mother who did everything right. 
She was attentive and inquisitive about her daughter's online 
relationships. She asked the right questions. She had a good 
relationship with her daughter, and yet Charles Hatch, a child 
molester from Utah, got in under everyone's radar and sexually 
exploited her thirteen-year-old daughter. 
        Jennifer (not her real name) was eleven and a half when she 
first met "Charlie" online. She thought he was a few years older, 
and was intrigued about befriending a slightly older teenage boy. 
Jennifer was an honors student and had already been taking 
advanced college courses while still in middle school. She lived in 
a loving and warm household with her mother and father. She also 
had siblings and half siblings from her father's previous marriage. 
They were all close. 
        Jennifer's mother, Sharry (also not her real name), talked to 
Jennifer about her online friend, Charlie. She insisted on talking to 
Charlie himself, by phone, once he and Jennifer had started calling 
each other. He passed the phone call test, and Sharry was 
convinced that he really was the teenage boy he professed to be. 
Either he had manipulated his voice to sound younger or he had a 
younger person make the call. Charlie even called and spoke to 
Jennifer's brothers, talking about when he would be their brother-
in-law someday, after he and Jennifer were married. He pleaded 
with Jennifer to come and visit him in Utah. Sharry invited him to 
visit them instead. But Charlie always had a reason he couldn't 
come. 
        As things progressed, Sharry insisted on talking to Charlie's 
mother. He first avoided it by saying she was sick, later that her 
sickness had become cancer, and that eventually she died from the 
cancer. The family fell for this, hook, line, and sinker. Most caring 
families would. Although the "relationship" progressed for almost 
two years, it remained relatively tame. Charlie was romantic rather 
than predatorial, and he sent her expensive gifts, including a 
Polaroid camera. (Remember the Polaroid camera Paul Brown 
sent?)
        Jennifer was inexperienced with boys and dating, and Charlie 
seemed to know not to push her too fast. But about a year and a 
half after they met online, Charlie sent her sexually explicit photos 
of himself from the neck down. She became very uncomfortable 
and pulled back. But several tragedies occurred around the same 
time, which made Jennifer easier prey. Her father was hospitalized 
with a serious illness, and her sixteen-year-old half brother died of 
a brain hemorrhage. 
        Charlie, like all good predators, knew when to strike. He told 
Jennifer that she owed him sexually explicit photos of herself, 
since he had sent those of himself. When she refused, he told her 
that she would be left alone, since her family was dying or would 
die-and he threatened to leave her.  Reluctantly, after fighting 
against it as hard as she could, she acquiesced and sent him 
sexually explicit photos of herself. 
        When Sharry was cleaning Jennifer's room, she discovered a 
letter in which Charlie had set forth the sexual poses he wanted 
Jennifer to photograph. Sharry sent him a letter, confronting him. 
She said that he didn't sound like a teenager in the letter. She told 
him that if he ever contacted her daughter again, she would inform 
the police. He never replied, and Jennifer was not permitted to use 
the Internet for months.
        One day, just when Jennifer and Sharry thought that the whole 
episode was past them, the phone rang. It was a detective from 
Utah, who informed Sharry that Jennifer's photos had been 
discovered in Hatch's day planner by a coworker. He wasn't 
sixteen-he was thirty-six. He was a former teacher who had been 
dismissed by the school after having been accused by a student of 
sexual abuse. (The school hadn't taken any other action.) He was 
currently employed by the welfare office in Utah, and was married 
with children and step-children. 
        Six months later, Charles Hatch was convicted of sexual 
exploitation in a Utah federal court. He began his six-and-a-half 
year sentence in early June 1999. As a condition of his plea, he 
will not be permitted to use the Internet. This mother has become a 
dear friend of mine, after seeking WiredSafety' help in getting 
through this. She was the first parent to speak out publicly about 
her child being targeted by a sexual predator online.
        Unfortunately, the predators are willing to try many different 
ploys until one finally works.

Using Celebrity's Names
        I was having lunch in Los Angeles with one of my girlfriends 
when Nick Lachey walked into the restaurant. She pointed him out 
to me and I immediately grabbed my business card and approached 
his table (to the utter embarrassment of my friend). I introduced 
myself and told him I needed his help. I explained that predators 
were using his name and the name of other celebrities to lure kids 
into meetings and unsafe activities. They find teens who post their 
favorite celebrities on their profiles, websites or other online 
communications. Then they create a profile claiming to be a close 
personal friend of that celebrity. They offer to forward a pic of the 
teen to the celebrity, and seek sexier and sexier pics as time goes 
on, ultimately ending with an offer to introduce the teen to their 
favorite celebrity in real life. Years ago, Justin Timberlake was the 
most popular of these celebrity lures. Nick is now. He listened 
intently and turned white when he realized people where using his 
name to hurt his young fans. He offered his help. 
        When I left his table, he has agreed to do a public service 
announcement to help teens understand that is anyone claims to be 
a close personal friend of a celebrity, they aren't. Or won't be for 
long. I was very excited, but not as excited as I was two weeks 
later when someone from Nick's office called asking me to help 
them create a safer teen-only social networking site called 
YFly.com. I agreed and YFly.com became a reality with the 
financial assistance of Tom Petters (and the Petters Group), and the 
creativity and energy of its founders, Drew Levin and Daniel 
Perkins. I joined the team to set up a safer network and create the 
most advanced educational and awareness content online, just for 
teen users. The young users can click on "Report the Creep" if they 
suspect someone is an adult posing as a teen.
        It's a beginning. Finding safer technologies and services is part 
of the solution. So is awareness using teenspeak.
        Shannon, one of our Teenangels is 14 years old. She was 
selected by Teen People as one of the twenty teens who will make 
a difference. She has gone them one better...she is already making 
a difference. It is with pride that I introduce Shannon Sullivan, one 
of my Teenangels.

[Appendixes omitted]



                      Appendix 9: Parenting Online


Parenting Online

        What do we do when our eight-year-old knows more than we 
do about cyberspace? How do we guide our children safely 
through this new world? How do we set the rules when we don't 
even understand the risks? The childproof locks, seatbelts and 
helmets we use to help keep them safe in everyday life won't 
protect them in cyberspace. There we need new and different 
gadgets and safety tips.
        Welcome to the new world of parenting online! It's your 
newest challenge. But don't worry...it's not as hard as you think and 
it's well worth the effort.
        Parenthood is never easy and the ground rules are always 
changing. We go from playing the role of confidante, to co-
conspirator, to police chief, to teacher, to playmate and back...all in 
the same day. We barely have the chance to catch our breath!
        The things we do to make sure our children stay safe are 
constantly changing too. When they crawl, we learn how to keep 
things off the floor. Then, they pull themselves upright, we have to 
keep them safe from the new dangers at eye level. Training wheels 
have to be removed, and we have to watch while they pedal away 
(generally into the nearest tree). We watch their sugar intake, make 
sure they take their vitamins and keep small items out of their 
mouths.
        That's our job, as parents. So the tried and true warnings, 
passed down from generation to generation, are repeated... "don't 
talk to strangers...," "come straight home from school...," "don't 
provoke fights...," "don't tell anyone personal information about 
yourself..." and "we need to meet your friends..." This is familiar 
territory after all. We know the dangers our kids face in the street 
or at the mall or in the school yard, because we faced them.
        As in any large community, there are dangers our children 
encounter in cyberspace, too. But, since our children know more 
than we do about cyberspace, we worry about how we can teach 
them to avoid those dangers. Don't panic... those dangers can be 
managed using the same old warnings we've always used.
        We just need to translate them into cyberspace terms...
        And there are wonders around every cyber-corner too...
        The Internet is the largest collection of information in the 
world, always available without a charge and delivered to your 
home computer. Every question you might have can be answered 
online. When your child asks you how deep the ocean is or why 
the sky is blue, you can "ask the Internet," together.

        You and your children can communicate with others too, 
worldwide and in every language, with the click of your mouse. 
Their artwork can be displayed, their news reporting published and 
their poems posted on the largest "refrigerator door" in the 
universe, where 700 million people can appreciate them.
        You can research your family tree and build a family Web site. 
And, best of all...the most complicated homework assignment can 
be researched online (even last-minute on the Sunday night before 
it's due).
        You can search online for just about anything and any 
information you want. The easiest way to do that is by using search 
engines. You can type your search into one of the search engines 
and often will find what you are seeking. Just as often, though, you 
will find sites that are trying to get your or your children's 
attention. Pornographers are the most frequent abusers of search 
engines, registering and coding their sites to trick people into 
visiting them, thinking they are Disney, Pokemon or even the 
White House.
        Most of the search engines now have filtering options. By 
selecting one of these options, most inappropriate content is 
filtered out and the search results are typically kid-friendly. Two 
commercial search engines were designed just for kids, though, 
and are wonderful places to begin your child's search online. 
Yahooligans!, Yahoo! kid-sized search engine hand-selects the 
sites, making sure nothing slips through. It is best for younger 
children, ten and under. Ask Jeeves for Kids is Ask Jeeves kid-
sized search engine. Although not as scrubbed clean as 
Yahooligans! hand-selected sites, it contains many more sites 
which make it perfect for slightly older children. I recommend it 
for children ten and older.
        In addition, most full-size search engines have a filtered option 
you can select. But remember that even if you use a search engine 
filter, if the kids search for images, the can find things you wish 
they hadn't. That's when using a filtering product that can block 
images too might come in handy.
        In addition to kid-sized search engines, there are many 
wonderful family-friendly site lists. WiredKids has one of its own, 
where the sites are selected and reviewed by our specially-trained 
volunteers. You can even recommend your favorite sites to be 
added.
        There are some entertaining sites that teach children online 
safety, as well. Although we prefer our WiredKids.org, 
StopCyberbullying.org and InternetSuperHeroes.org the best, (she 
says modestly...) another very special one we want to point out. 
Disney's Surfswellisland.com teaches online safety Disney-style. 
Mickey Mouse, Donald Duck, Minnie Mouse and Goofy all find 
themselves involved in tropical island cyber-challenges relating to 
viruses, privacy, netiquette (cyber-etiquette) and responsible 
surfing. Lesson plans, online safety worksheets and other 
wonderful resources are all available without charge at the site. 
        Looking for homework help? Check out Discovery.com, 
Nationalgeographic.org, PBSkids.org and The National Gallery of 
Art kids page www.nga.gov/kids/kids.htm. And ask your school 
librarian or the librarian at your public library for sites they 
recommend. Librarians and library media specialists are the guides 
to valuable and safe online resources for children. And if you need 
something you can't find, send me an email at "Ask Parry," ( 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3455475f445546464d74435d46515047555251404d1a5b4653">[email&#160;protected]</a> ) my Internet-syndicated online safety 
column. Drop by WiredKids.org or WiredSafety.org to find out 
how to submit a question.



CyberSense
...translating common sense for cyberspace

<bullet> Don't talk to or accept anything from strangers. That's the first 
one we learn while growing up, and the first one we teach our 
children. The problem in cyberspace though is teaching 
"stranger danger." Online, it's hard to spot the strangers. 
        The people they chat with enter your home using your 
computer. Our kids feel safe with us seated nearby. Their 
"stranger" alerts aren't functioning in this setting. Unless they 
know them in real life, the person is a stranger no matter how 
long they have chatted online. Period. You need to remind 
them that these people are strangers, and that all of the 
standard stranger rules apply.
        You also must teach them that anyone can masquerade as 
anyone else online. The "12-year-old" girl they have been 
talking to may prove to be forty-five year old man. It's easy for 
our children to spot an adult in a schoolyard, but not as easy to 
do the same in cyberspace.
<bullet> Come straight home after school. Parents over the generations 
have always known that children can get into trouble when 
they wander around after school. Wandering aimlessly online 
isn't any different. Parents need to know their children are safe, 
and doing something productive, like homework. Allowing 
your children to spend unlimited time online, surfing aimlessly, 
is asking for trouble.
        Make sure there's a reason they're online. If they are just 
surfing randomly, set a time limit. You want them to come 
home after they're done, to human interaction and family 
activities (and homework).
<bullet> Don't provoke fights. Trying to provoke someone in 
cyberspace is called "flaming." It often violates the "terms of 
service" of your online service provider and will certainly get a 
reaction from other people online. 
        Flaming matches can be heated, long and extended battles, 
moving from a chat room or discussion group to e-mail 
quickly. If your child feels that someone is flaming them, they 
should tell you and the sysop (system operator, pronounced sis-
op) or moderator in charge right away and get offline or surf 
another area. They shouldn't try to defend themselves or get 
involved in retaliation. It's a battle they can never win.
<bullet> Don't take candy from strangers. While we don't take candy 
form people online, we do often accept attachments. And just 
like the offline candy that might be laced with drugs or 
poisons, a seemingly innocent attachment can destroy your 
computer files, pose as you and destroy your friends or spy on 
you without you even knowing it. Use a good anti-virus, update 
it often and try one of the new spyware blockers. You can get a 
list of the ones we recommend at WiredSafety.org. Practice 
safe computing!
<bullet> Don't tell people personal things about yourself. You never 
really know who you're talking to online. And even if you 
think you know who you are talking to, there could be 
strangers lurking and reading your posts without letting you 
know that they are there. Don't let your children put personal 
information on profiles. It's like writing your personal diary on 
a billboard.
        With children especially, sharing personal information puts 
them at risk. Make sure your children understand what you 
consider personal information, and agree to keep it confidential 
online and everywhere else. Also teach them not to give away 
information at Web sites, in order to register or enter a contest, 
unless they ask your permission first. And, before you give 
your permission, make sure you have read the web site's 
privacy policy, and that they have agreed to treat your personal 
information, and your child's, responsibly.
<bullet> We need to get to know your friends. Get to know their online 
friends, just as you would get to know their friends in everyday 
life. Talk to your children about where they go online, and who 
they talk to. 
<bullet> R-E-S-P-E-C-T. We all know the golden rule. We have a 
special one for cyberspace. Don't do anything online you 
wouldn't do offline. If you teach your child to respect others 
online and to follow the rules of netiquette they are less likely 
to be cyberbullied, become involved in online harassment or be 
hacked online. You can learn more about the ways to combat 
cyberbullying at our new website, StopCyberbullying.org or at 
WiredSafety.org's cyberstalking and harassment section. 
Remember that it is just as likely that your child is a cyberbully 
(sometimes by accident) as a victim of one. Let them know 
they can trust you not to make matters worse. You have to be 
the one they come to when bad things happen. Be worthy of 
that trust.

        Remember that the new handheld and interactive gaming 
devices you buy have real risks to. Your children can send and 
receive text-messages from anyone on their cell phones or text-
messaging devices and interactive games allow them to chat, on 
Internet phone, to anyone who wants to talk with them. The new 
Bluetooth devices let your child receive messages form anyone in a 
300 foot range, and could be a problem if they play the new 
Bluetooth handheld games in a mall. Think about the features you 
are buying when you buy new devices for your children. Check 
into privacy and security settings. Our Teenangels (teenangels.org) 
are working on new guides for parents and other teens on what to 
look for and think about before you buy a new interactive device. 
Look for them at your local retailer or on the WiredSafety.org and 
Teenangels.org websites. 
        Don't just set up the computer in the corner of their bedroom, 
and leave them to surf alone. Take a look at their computer 
monitor every once in awhile, it keeps them honest. Sit at their side 
while they compute when you can. It will help you set rules that 
make sense for your child. It also gives you an unexpected 
benefit...you'll get a personal computing lesson from the most 
affordable computer expert you know!

        And it's worth the effort. When our children surf the Internet, 
they are learning skills that they will need for their future. They 
become explorers in cyberspace, where they explore ideas and 
discover new information.
        Also, because there is no race, gender or disability online, the 
Internet is the one place where our children can be judged by the 
quality of their ideas, rather than their physical attributes.




        What Tech Tools Are Out There?
        Blocking, filtering and monitoring...when you need a little help
        There are many tools available to help parents control and 
monitor where their children surf online. Some even help regulate 
how much time a child spends playing computer games, or prevent 
their accessing the Internet during certain preset times.
        I've listed the type of protections that are available. But, most 
of the popular brands now offer all of these features, so you don't 
have to choose. Recently, given parents' concerns about strangers 
communicating with their children online, monitoring software has 
gained in popularity. Although it might have its place in protecting 
a troubled child, it feels more like "spyware" than child protection. 
But it's ultimately your choice as a parent. The newest trend is to 
use products supplied by your ISP called parental controls. AOL's 
parental controls were the first of these to be developed and used. 
MSN 8.0 launched the first set of parental controls for MSN. To 
read more about the various products and services we have 
reviewed, visit WiredKids.org and WiredSafety.org.

Blocking Software
        Blocking software is software that uses a "bad site" list. It 
blocks access to sites on that list. They may also have a "good site" 
list, which prevents your child from accessing any site not on that 
list. Some of the software companies allow you to customize the 
lists, by adding or removing sites from the lists. I recommend you 
only consider software that allows you to customize the list, and 
lets you know which sites are on the lists.

Filtering
        Filtering software uses certain keywords to block sites or 
sections of sites on-the-fly. Since there is no way any product can 
keep up with all the sites online, this can help block all the sites 
which haven't yet been reviewed. The software blocks sites 
containing these keywords, alone or in context with other 
keywords.
        Some companies allow you to select certain types of sites to 
block, such as those relating to sex, drugs or hate. This feature 
engages special lists of keywords that match that category. As with 
the "bad site" lists, the lists of keywords used by the filtering 
software should be customizable by the parent, and every parent 
should be able to see which terms are filtered.

Outgoing Filtering
        No... this doesn't mean your software had a sparkling 
personality :-) (that's cyberspace talk for "grin" and means you're 
supposed to smile at my brilliant humor, and if you want to learn 
more about this stuff...you need to read my Ms. Parry's Guide to 
Correct Online Behavior). It means that your child won't be able to 
share certain personal information with others online. Information 
such as your child's name, address or telephone number can be 
programmed into the software, and every time they try to send it to 
someone online, it merely shows up as "XXXs." Even with kids 
who know and follow your rules, this is a terrific feature, since 
sometimes, even the most well-intentioned kids forget the rules.

Monitoring and Tracking
        Some software allows parents to track where their children go 
online, how much time they spend online, how much time they 
spend on the computer (such as when they are playing games) and 
even allows parents to control what times of day their children can 
use the computer. This is particularly helpful when both parents 
are working outside of the home, or with working single-parents, 
who want to make sure their children aren't spending all of their 
time on the computer. Many parents who don't like the thought of 
filtering or blocking, especially with older children and teens, find 
monitoring and tracking satisfy their safety concerns. They can 
know, for sure, whether their children are following their rules.
        We particularly recommend using a monitoring software and 
then forgetting it's installed. Think of it as the security video 
camera in the corner of the bank. No one views the tapes until the 
bank is robbed. If something bad happens, you can play back the 
monitoring log and see exactly what occurred, and who said what, 
and in dire situations, where your child went to meet an adult 
offline. We particularly like Spectorsoft.com, because their 
products can monitor all instant messaging platforms, which is key 
to keeping your children safe online.
        Parents have to remember, though, that these tools are not 
cyber-babysitters. They are just another safety tool, like a seat belt 
or child safety caps. They are not a substitute for good parenting. 
You have to teach your children to be aware and careful in 
cyberspace. Even if you use every technology protection available, 
unless your children know what to expect and how to react when 
they run into something undesirable online, they are at risk. 
Arming them well means teaching them well.



Your Online Safety "Cheatsheet"
Some Basic Rules for You to Remember as a Parent . . .
        <bullet> Make sure your child doesn't spend all of her time on the 
computer. People, not computers, should be their best 
friends and companions.
        <bullet> Keep the computer in a family room, kitchen or living 
room, not in your child's bedroom. Remember that this tip 
isn't very helpful when your children have handheld and 
mobile Internet and text-messaging devices. You can't 
make them keep their cell phones in a central location. So 
make sure that the "filter between their ears" is working at 
all times.
        <bullet> Learn enough about computers so you can enjoy them 
together with your kids.
        <bullet> Teach them never to meet an online friend offline unless 
you are with them.
        <bullet> Watch your children when they're online and see where 
they go.
        <bullet> Make sure that your children feel comfortable coming to 
you with questions and don't over react if things go wrong.
        <bullet> Keep kids out of chat rooms or IRC unless they are 
monitored.
        <bullet> Encourage discussions between you and your child about 
what they enjoy online.
        <bullet> Discuss these rules, get your children to agree to adhere to 
them, and post them near the computer as a reminder.
        <bullet> Find out what e-mail and instant messaging accounts they 
have and (while agreeing not to spy on them) ask them for 
their passwords for those accounts.
        <bullet> "Google" your children (and yourself) often and set alerts 
for your child's contact information. The alerts will e-mail 
you when any of the searched terms are spotted online. It's 
an early warning system for cyberbullying posts, and can 
help you spot ways in which your child's personal 
information may be exposed to strangers online. To learn 
how to "Google" them, visit InternetSuperHeroes.org.
        <bullet> Teach them what information they can share with others 
online and what they can't (like telephone numbers, 
address, their full name, cell numbers and school).
        <bullet> Check your children's profiles, blogs and any social-
networking posts. Social-networking websites include 
myspace.com, facebook.com and xanga.com. (We work 
closely with MySpace and Facebook to help keep their 
users safer.)  Social networks, generally, shouldn't be used 
by preteens and should be only carefully used by teens. 
Yfly.com is a new teen-only social network that is designed 
from top to bottom to keep teens safer and teach them 
about more responsible behaviors.
        <bullet> For those of you with preteens and young teens, read the 
Safer Social Networking guide at WiredSafety.org.
        <bullet> Get to know their "online friends" just as you get to know 
all of their other friends.
        <bullet> Warn them that people may not be what they seem to be 
and that people they chat with are not their friends, they are 
just people they chat with.
        <bullet> If they insist on meeting their online friend in real life, 
consider going with them. When they think they have 
found their soul mate, it is unlikely that your telling them 
"no" will make a difference. Offering to go with them 
keeps them safe.
        <bullet> Look into the new safer cell phones and cell phone features 
that give you greater control over what your children can 
access from their phone and how can contact them.

PARENT ONLINE
MY AGREEMENT ABOUT USING THE INTERNET

        Once you understand enough about cyberspace and how your 
children surf the Internet, you can set your own rules. These are the 
basic rules, even though you may want to add some of your own.
        Some kids like setting the rules out clearly in an agreement. 
Here's one you can use, and post near your computer to help them 
remember how to surf safely. (Note that while the tips may work 
for teens, the contract is designed for preteens and younger.)
        I want to use our computer and the Internet. I know that there 
are certain rules about what I should do online. I agree to follow 
these rules and my parents agree to help me follow these rules:

1. I will not give my name, address, telephone number, school, or 
my parents' names, address, or telephone number, to anyone I 
meet online.
2. I understand that some people online pretend to be someone 
else. Sometimes they pretend to be kids, when they're really 
grown ups. I will tell my parents about people I meet online. I 
will also tell my parents before I answer any e-mails I get from 
or send e-mails to new people I meet online.
3. I will not buy or order anything online without asking my 
parents or give out any credit card information.
4. I will not fill out any form online that asks me for any 
information about myself or my family without asking my 
parents first.
5. I will not get into arguments or fights online. If someone tries 
to start an argument or fight with me, I won't answer him or her 
and will tell my parents.
6. If I see something I do not like or that I know my parents don't 
want me to see, I will click on the "back" button or log off.
7. If I see people doing things or saying things to other kids 
online I know they're not supposed to do or say, I'll tell my 
parents.
8. I won't keep online secrets from my parents.
9. If someone sends me any pictures or any e-mails using bad 
language, I will tell my parents.
10. If someone asks me to do something I am not supposed to do, I 
will tell my parents.
11. I will not call anyone I met online, in person, unless my parents 
say it's okay.
12. I will never meet in person anyone I met online, unless my 
parents say it's okay.
13. I will never send anything to anyone I met online, unless my 
parents say it's okay.
14. If anyone I met online sends me anything, I will tell my 
parents.
15. I will not use something I found online and pretend it's mine.
16. I won't say bad things about people online, and I will practice 
good netiquette.
17. I won't use bad language online.
18. I know that my parents want to make sure I'm safe online, and I 
will listen to them when they ask me not to do something.
19. I will help teach my parents more about computers and the 
Internet.
20. I will practice safe computing, and check for viruses whenever 
I borrow a disk from someone or download something from the 
Internet.
21. I won't post my cell number on my away message, and will 
check with someone before posting something personal about 
me on my blog or on a networking site.
22. I will Stop, Block and Tell! If I am harassed online or 
cyberbullied.
23. I will Take 5! before reacting to something that upsets me or 
makes me angry online.
24. I will practice responsible "thinkB4Uclick" rules. (I know I can 
find out more about these things at InterentSuperHeroes.org 
and StopCyberbullying.org.)
25. I will learn how to be a good cybercitizen and control the 
technology, instead of being controlled by it.


_________________________________________________
I promise to follow these rules. (signed by the child)


________________________________________________
I promise to help my child follow these rules and not to over react 
if my child tells me about bad things in cyberspace (signed by 
parent).


From Parry:

        I am asked questions about kids online safety at least a hundred 
times a day. Is the Internet a dangerous place? Are there predators 
out there looking to set up a meeting with my child? How can we 
find good and reliable content online? How can I supervise my 
child's surfing when I can't even turn on the computer?
        These any other question like these fill my inbox daily. (If you 
have a question of your own, visit WiredKids.org or 
WiredSafety.org and click on "Ask Parry." Here is the one simple 
answer:
        The single greatest risk our children face in connection with the 
Internet is being denied access. We have solutions for every other 
risk.
        That bears repeating, over and over, especially when we hear 
about Internet sexual predators, hate, sex and violence online. But 
our children need the Internet for their education, careers and their 
future. 
        Happily, most of the risks are easily confined. In each and 
every case when children encounter Internet sexual predators 
offline, they go willing to the meeting. They may think the person 
is a cute fourteen year old girl or boy, but they know they are 
meeting someone they don't know in real life. That means we can 
prevent 100% of these crimes. Merely teach our children not to 
meet Internet strangers offline. If they are set on meeting that 
person anyway, go with them. That way, if the person turns out to 
be a cute fourteen year old, you are the hero. And if they aren't, 
you're an even bigger hero.
        Our WiredKids, WiredTeens and Teenangels programs, in 
addition to being fun and educational sites, are also volunteer 
programs where children and teens are taught online safety and 
privacy and responsible surfing. They then use these skills to help 
other children and teens learn to surf safely, as well. Talk to your 
children about what they do online (and offline also), and let them 
know you are there to help if things go wrong. You will note that 
in our safe surfing agreement parents have to promise only one 
thing...not to overreact if their children come to them for help. 
Earn their trust, and be worthy of it. Register your children at 
WiredKids.org, our children's online safety site, and we will make 
sure they learn what they need to know about enjoying the Internet 
safely and privately. It's not about technology at all...it's about 
communication and good parenting.
        Remember, we're all in this together!

Parry
Parry Aftab, Esq.
Executive Director
WiredSafety.org and its family of sites and programs, including 
Teenangels.org, WiredKids.org and CyberLawEnforcement.org

WiredSafety is a 501c-3 non-profit organization formed under the 
laws of the State of New York. (Its legal name is "Wired Kids, 
Inc.") This publication is copyrighted to Parry Aftab, Esq. All 
rights reserved. For permission to duplicate this publication, 
contact <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bacadbc8c8c3fadbdccedbd894d9d5d794">[email&#160;protected]</a>

        MR. UPTON.  Ms. Collins.
        MS. COLLINS.  Mr. Chairman and distinguished members of the 
committee, I welcome this opportunity to appear before you to 
discuss these issues.  Chairman Upton, you have a demonstrated 
record of commitment to child protection.  I commend you and 
your colleagues for your leadership initiative.  The National Center 
for Missing and Exploited Children joins you in your concern for 
the safety of the most vulnerable members of our society.  Let me 
first provide you with the background information.  
        We are a not-for-profit corporation mandated by Congress and 
working in partnership with the U.S. Department of Justice as the 
National Resource Center and Clearinghouse on Missing and 
Exploited Children.  NCMEC is a true public-private partnership, 
funded in part by Congress and in part by the private sector.  
        One of the programs that we operate that I am responsible for 
is the CyberTipline.  It is the 9-1-1 of the Internet, which serves as 
the Nation's clearinghouse for investigative leads and tips 
regarding crimes against children, both online and off. 
        The leads are reviewed by the analyst in the Exploited Child 
Unit of NCMEC, who visit the website, examine and evaluate the 
content, use search tools to identify the perpetrators, and provide 
all of the information to the appropriate law enforcement agency. 
The results:  In 8 years since the Cyber site began, we received 
over 400,000 leads.  We average about 1,500 a week at this point.  
        Despite our progress, the victimization of children continues 
and there is evidence that it is increasing.  The number of reports 
on online enticement of children to the CyberTipline has increased 
400 percent since 1992.  Our records are showing that there is a 
significant and steady increase in the reports of online entities.  
        Recently there has been great attention to the Social 
networking websites.  While they are used by adults, kids are 
finding them attractive and there have been incidents, as has been 
mentioned earlier, where predators have taken advantage of the 
information that the kids have presented about themselves.  And 
the information they are putting onto these networking sites do 
make them vulnerable. 
        At this point we are receiving approximately 250 reports of 
entities each week, and those are just people who know to report to 
the CyberTipline. 
        Last month, we hosted a dialogue of social networks sites here 
in Washington, D.C.  It was a day-long series of panels, audience 
discussion on the popularity of social networking sites as well as 
the misuse of technology.  The panelists included leaders from the 
technology industries, policymakers, law enforcement, child 
advocacy groups.  The attendees were able to question 
representatives from MySpace, Facebook, and Xanga, the FBI's 
Innocent Images Unit, two Internet Crimes Against Children Task 
Force investigators, age verification and digital imaging analysis 
experts, the Internet Education Foundation, Net Family News, the 
Pew Foundation, and two State attorneys general.  
        It was a vigorous and informative exchange, but what did we 
learn?  We learned that social networking sites tapped into the 
lives of teenagers to exploit themselves.  We learned that the 
operator of social networking sites don't want the customers to be 
endangered by their sites, but state they want to remain 
competitive in the booming market.  We have learned that more 
restrictions could cause teens to go somewhere else that has fewer 
restrictions, but have the unintended consequences of increasing 
their chances of being victimized.  We have learned that the 
current age verification technology is ineffective for children too 
young to appear in a public record database.  We learned the 
increased importance of education messages and engaging teens to 
become a part of their own online safety.  We learned they can 
work together to solve this problem with the help of policymakers, 
law enforcement, and child advocacy groups.  
        The recent concern about social networking sites has given the 
operators of these sites a clear window of opportunity to take this 
problem seriously and take action to make their sites safer for 
children.  NCMEC is encouraged by the steps already taken by 
some of these sites.  MySpace has named a new chief security 
officer, a former Federal prosecutor with experience in child 
exploitation issues.  And other sites have demonstrated a similar 
commitment and are in the process of changing certain features in 
the architecture of their sites to make children safer.  
        These are important first steps, but we strongly encourage the 
social networking companies to continue their progress by working 
closely with the various State attorneys general, law enforcement, 
and others to bring about real change.  There is more that can be 
done and it must be done now.  
        We need to do a better job, as a Nation, of identifying and 
addressing the greater risk to our children today.  We need to help 
protect children through education, open dialogue, and elevated 
awareness.  By working with industry leaders, we can expand our 
outreach, educate parents, guardians, and teens and the general 
public about social network sites and ensure safer ways for them to 
be online. 
        MR. UPTON.  Thank you.  
        [The prepared statement of Michelle Collins follows:] 



PREPARED STATEMENT OF MICHELLE COLLINS, DIRECTOR, 
EXPLOITED CHILD UNIT, NATIONAL CENTER FOR MISSING AND 
EXPLOITED CHILDREN

        Mr. Chairman and distinguished members of the Committee, I 
welcome this opportunity to appear before you to discuss social 
networking websites and the use of the Internet to victimize 
children. Chairman Upton, you have a demonstrated record of 
commitment to child protection and I commend you and your 
colleagues for your leadership and initiative.  The National Center 
for Missing & Exploited Children ("NCMEC") joins you in your 
concern for the safety of the most vulnerable members of our 
society and thanks you for bringing attention to this serious 
problem facing America's communities.
        Let me first provide you with some background information 
about the National Center for Missing & Exploited Children 
(NCMEC).  NCMEC is a not-for-profit corporation, mandated by 
Congress and working in partnership with the U.S. Department of 
Justice as the national resource center and clearinghouse on 
missing and exploited children.  NCMEC is a true public-private 
partnership, funded in part by Congress and in part by the private 
sector. Our federal funding supports specific operational functions 
mandated by Congress, including a national 24-hour toll-free 
hotline; a distribution system for missing-child photos; a system of 
case management and technical assistance to law enforcement and 
families; training programs for federal, state and local law 
enforcement; and our programs designed to help stop the sexual 
exploitation of children. 
        These programs include the CyberTipline, the "9-1-1 for the 
Internet," which serves as the national clearinghouse for 
investigative leads and tips regarding crimes against children on 
the Internet.  The Internet has become a primary tool to victimize 
children today, due to its widespread use and the relative 
anonymity that it offers child predators.  Our CyberTipline is 
operated in partnership with the Federal Bureau of Investigation 
("FBI"), the Department of Homeland Security's Bureau of 
Immigration and Customs Enforcement ("ICE"), the U.S. Postal 
Inspection Service, the U.S. Secret Service, the U.S. Department of 
Justice's Child Exploitation and Obscenity Section and the Internet 
Crimes Against Children Task Forces, as well as state and local 
law enforcement.  Leads are received in seven categories of 
crimes: 
        <bullet>  possession, manufacture and distribution of child 
pornography;
        <bullet>  online enticement of children for sexual acts;
        <bullet>  child prostitution;
        <bullet>  child-sex tourism;
        <bullet>  child sexual molestation (not in the family);
        <bullet>  unsolicited obscene material sent to a child; and
        <bullet>  misleading domain names.
This last category was added as a result of enactment of the 
PROTECT Act in 2003.
        These leads are reviewed by NCMEC analysts, who visit the 
reported sites, examine and evaluate the content, use search tools 
to try to identify perpetrators, and provide all lead information to 
the appropriate law enforcement agency. The FBI, ICE and Postal 
Inspection Service have "real time" access to the leads, and all 
three agencies assign agents and analysts to work directly out of 
NCMEC and review the reports.  The results: in the 8 years since 
the CyberTipline began operation, NCMEC has received and 
processed more than 400,000 leads, resulting in hundreds of arrests 
and successful prosecutions.
        However, despite our progress the victimization of children 
continues and there is evidence that it is increasing. The number of 
reports of online enticement of children to the CyberTipline 
increased 400 percent since 1998. Our records show a significant 
and steady increase in these reports over the years. This upward 
trend is very disturbing and shows the seriousness of this issue. But 
this is not the only evidence.
        It has been established that youth who use the Internet 
regularly receive sexual solicitations over the Internet. However, 
very few of these sexual solicitations are reported to authorities. 
This clearly demonstrates that children are at risk and that we must 
do more. 
        Over the years as technology has evolved so, too, have the 
methods for victimizing children.  The Internet has provided a veil 
of apparent anonymity, enabling predators to seek out children, 
win their confidence and then victimize them.
        As technology evolves, so does the creativity of the predator.  
Today, we are hearing a great deal about new innovations, 
including the use of webcams, social networking websites and 
Internet access on cell phones. 
        These innovations are popular and are utilized by millions of 
Americans.  Yet, as with every other new program or service, there 
are those who would use them inappropriately and for unlawful 
purposes.
        Recently there has been great attention to the social networking 
websites.  While they are used by adults, kids are enormously 
attracted to them, and there have been instances in which offenders 
have taken advantage of the images and information displayed to 
target kids.  The unprecedented amount of personal information 
that teens are posting to social networking websites makes them 
vulnerable to people who want to harm them.
        Some of the social networking sites link defined communities 
of registered users, such as students attending a particular college 
or high school.  Others are open to anyone over a certain age. 
These websites permit registered users to create an online profile, 
including photographs, with categories of interest such as music 
and sports, as well as an online journal. They are highly 
personalized and often extremely detailed. Children consider this 
to be an easy way to connect with friends, find new friends and 
share their thoughts and feelings. The teenage years are a time of 
personal exploration. This is only natural. However, the new form 
of social interaction is over the Internet, exposing children to, 
literally, a world of potential danger. 
        Child predators consider these sites to be an easy way to find 
child victims. They can use the information posted by children to 
forge a 'cyber-relationship' that can lead to that child being 
victimized. The number of reports to our CyberTipline involving 
social networking sites has increased. In recent years, many kids 
were using their email profiles and chat rooms in a similar fashion 
to share their hobbies and interests and make "friends."  However, 
those forums didn't have nearly the same implications as the social 
networking sites, with their enormous universe of users.  
        Last month, NCMEC hosted a Dialogue on Social Networking 
Sites here in Washington, D.C.  It was a day-long series of 
panelist-audience discussions on the popularity and misuse of this 
technology and ways to help keep children safer while using them. 
The panelists included leaders from the technology industry, policy 
makers, law enforcement, academia and children's advocacy 
groups. The attendees questioned representatives from the social 
networking sites Myspace, Facebook, and Xanga, the FBI's 
Innocent Images Unit, two Internet Crimes Against Children Task 
Force investigators, age verification and digital imaging analysis 
experts, the Internet Education Foundation, Net Family News, the 
Pew Foundation and two state attorneys general.
        It was a vigorous and informative exchange. 
        What did we learn? 
        We learned that social networking sites tap directly into the 
needs of teenagers to define themselves, explore their own 
creativity and reach out to their peers. We learned that operators of 
social networking site don't want their customers to be endangered 
by their sites but at the same time want to remain competitive in 
this booming market. We learned that more restrictions will cause 
teens to go somewhere else that has fewer restrictions, with the 
unintended consequence of increasing their chances of being 
victimized. We learned that the current age verification technology 
is ineffective for children too young to appear in public records 
databases. We learned the increased importance of education 
messages, and engaging teens to become a part of their own online 
safety.
        We learned that the industry's brightest minds that created this 
technology in the first place can work together to solve this 
problem, with the help of policy makers, law enforcement and 
children's advocacy groups. 
        The recent concern about social networking sites has given the 
operators of these sites a clear window of opportunity to take this 
problem seriously and take action to make their sites safer for 
children.  NCMEC is encouraged by the steps already taken by 
some of these sites. Myspace has named a new Chief Security 
Officer, a former federal prosecutor with experience in child 
exploitation issues. Other sites have demonstrated a similar 
commitment, and are in the process of changing certain features on 
their sites that help make children less vulnerable.
        These are important first steps, but we strongly urge them to 
continue their progress by working closely with the various state 
Attorneys General, law enforcement and others to bring about real 
change. There is more that can be done and the time to do it is 
now. 
        We need to do a better job as a nation of identifying and 
addressing the greatest risks to our children today. We need to help 
protect children through education, open dialogue and elevated 
awareness.  By working with industry leaders we can expand our 
outreach and educate parents, guardians, teens and the general 
public about this recent technology and ways to ensure safer 
experiences online.
        Thank you.

        MR. UPTON.  Mr. Davis.
        MR. DAVIS.  Thank you, Chairman Upton and Members of the 
Subcommittee, for this opportunity to testify on Deleting the 
Online Predators Act of 2006.  I have to tell you, I have already 
learned a lot this morning just from the testimony I have heard so 
far.  
        My name is Ted Davis, and I am an Information Technology 
Director with the Fairfax County Public Schools in Virginia.  
FCPS is the 14th largest school district in the United States, with 
over 163,000 students at 228 schools.  FCPS has long since 
recognized the promise of the Internet as an educational resource 
as well as its perils.  Thus in 1997, I was tasked with leading the 
effort to develop our Internet use policy and to implement filtering 
technology.  
        FCPS supports the goals of the legislation but opposes the 
legislation in its current form.  As I will elaborate, public schools 
are addressing the dangers of online predators.  Legislation would 
not substantially improve the safety of our students and would 
place an added burden on schools. 
        Based on input gathered from nearly 800 educators, we 
recognize that technology alone could not address our shared 
concerns for the safety of our students.  Thus in 1998, the Fairfax 
County School Board adopted a policy that emphasized education, 
classroom management, personal responsibility, as well as 
technology.  
        Two years prior to the Children's Internet Protection Act of 
2000, FCPS implemented a filtering technology now known as 
Symantec Web Security.  FCPS filters Web content that is 
obscene, harmful to juveniles, child pornography, and promotes 
illegal activities.  Today all 90,000-plus of our computers are 
filtered for such consent.  
        SWS enables school districts to select from a wide range of 
categories of inappropriate materials for filtering, such as sex, 
crime, violence, intolerance, and interactive chat.  So the districts 
may select materials to be blocked based on their policies.  
        As you know, the Internet is constantly changing.  Thus, 
filtering vendors like Symantec continually update their lists of 
inappropriate websites in these categories.  Filtering vendors use a 
combination of technology and human review to identify and 
classify inappropriate websites.  
        Furthermore, SWS provides school districts to block or 
unblock additional sites in accordance with the needs of the school 
system.  FCPS put into place a process and guidelines for 
identifying and evaluating websites for possible filtering.  Social 
sites like MySpace fail under this process.  In the case of MySpace, 
FCPS began blocking this site last November.  The same is true for 
many sites that predated MySpace.com.  A neighboring school 
district took similar action.  
        As you might expect, there will always be some determined 
students that seek to bypass technology protection measures.  
These students are subject to policy enforcement.  Each school 
year, FCPS students are required to sign our acceptable use policy 
which outlines appropriate and inappropriate use of computers and 
the Internet.  Failure to comply with this policy results in 
disciplinary action.  
        Fortunately, this is not a significant problem.  In this past 
school year, 578 students were disciplined for violating our 
acceptable use policy.  This represents 0.3 percent of our student 
population.  One strategy for deterring AUP infractions is through 
good classroom management.  That is how teachers make use of 
their Internet in their classrooms:  arranging computers so that 
screens are visible to a teacher, preselecting websites for 
instruction, walking the classroom, and interacting with students as 
they use the Web.  
        The teachers are trained to use these practices, to work them 
into their routine.  Technology measures, policy enforcement, and 
classroom management are good strategies for preventing access to 
inappropriate materials in school, but they do not sufficiently 
prepare our students to deal with potential dangers outside of 
school, at home, a friend's house, a coffee shop or even when they 
become adults.  We know that our students will need to deal with 
many dangers, not only sexual predators but also identity thieves, 
scams, phishing scams, viruses, deceptive advertising, and 
misinformation.  
        Education is the key to preparing our students to deal with 
these dangers.  
        That is why FCPS began at the earliest age to teach students 
how to take advantage of the Internet and to deal with its dangers.  
We teach them not to give out personal information, that people 
may not be who they say they are, and never agree to meet 
someone via the Internet.  To make our point, we also partner with 
the Fairfax County Police who can speak to our students of these 
dangers from real experience.  
        Parents are also key to protecting and educating their children.  
To help parents, we conduct senior safety nights to educate them 
on the benefits and dangers.  We teach parents to get involved in 
their children's Internet use at an early age, to set rules on Internet 
use, and to place computers in the common areas of the home.  We 
also reach out to businesses and parents via brochures and videos.  
        The strategies I described, taken together, have been effective 
in FCPS for many years now.  These are not the direct result of 
State or Federal legislation; rather, they are the result of the close 
relationship our schools enjoy with our students, parents, and 
community and our shared passion to provide a safe learning 
experience.  
        Nevertheless, since the passage of the Children's Protection 
Act 6 years ago, these strategies are now commonplace in schools 
throughout the country.  
        The proposed legislation, though an extension of similar 
provisions in effect today, does not lend itself to a technical 
solution.  It would require that schools block commercial social 
networking sites that may easily be misused to perpetrate 
inappropriate contact with students.  Unlike current restrictions 
against obscene materials that can be objectively identified, this 
legislation requires schools to subjectively protect which sites may 
be misused.  Identifying and evaluating such sites would not take 
advantage of the technical capabilities of filtering vendors and 
likely lead to blocking of legitimate instructional cites.  Thus this 
burden would fall back on to the schools.  
        More could be done, of course.  You could help protect our 
students by pursuing those individuals who would do harm to our 
children.  And you can help us educate and prepare our students to 
be safe citizens of the Internet.  To these ends you could support 
law enforcement activities that seek to apprehend perpetrators 
before they harm a child.  
        I like the concept of the CyberTipline.  You can facilitate 
collaboration between law enforcement agency, filtering vendors, 
and schools to share information on websites used to commit 
crimes, such as that proposed by the Federal Trade Commission, 
and you can foster an information campaign to reach parents and 
students on how to face the dangers on the Internet.  A novel 
approach here would be to require social networking sites to 
commit some of their prominent advertising space to public service 
announcements.  That way, those who profit from these sites will 
bear some of those costs.  
        Thank you again for this opportunity to speak before the 
committee.  I welcome your questions. 
        [The prepared statement of Ted Davis follows:] 

PREPARED STATEMENT OF TED DAVIS, DIRECTOR, KNOWLEDGE 
ASSET MANAGEMENT, IT DEPARTMENT, FAIRFAX COUNTY PUBLIC 
SCHOOLS

Background:
<bullet> Ted Davis is an information technology director at Fairfax 
County Public Schools (FCPS) that led the development of the 
FCPS Internet use policy and filtering technology 
implementation.
<bullet> FCPS is the 14th largest public school district in the United 
States.
<bullet> FCPS supports the goals of the legislation, but opposes the 
legislation as written.

Protecting students on the Internet at FCPS:
<bullet> Internet use policy emphasizes education, classroom 
management, personal responsibility, as well as 
technology.
<bullet> Implemented the Symantec Web Security (SWS) product in 
1998.
<bullet> Filters content based on pre-selected SWS categories.
<bullet> Established a process for filtering additional web sites.
<bullet> Began blocking MySpace.com in November, 2005.
<bullet> Enforces an Acceptable Use Policy to deter inappropriate 
behaviors.
<bullet> Performs classroom management activities to mitigate 
infractions of its policies.
<bullet> Technology measures, policy enforcement, and classroom 
management do not prevent inappropriate behaviors outside 
of the school.
<bullet> Education of students and parents is key to preparing 
children to deal with dangers on the Internet.

Legislation:
<bullet> The proposal to block social networking sites that "may 
easily be" misused does not lend itself to a technical 
solution.
<bullet> Identifying sites that may be misused is subjective and 
would place an added burden on schools.
<bullet> The Subcommittee could help schools by:
<bullet> Supporting law enforcement in identifying and 
apprehending predators.
<bullet> Facilitating collaboration between law enforcement 
agencies, filtering vendors, and schools in 
identifying web sites used to commit crimes.
<bullet> Fostering an information campaign to reach parents 
and students on how to face dangers on the Internet.


        Thank you Chairman Upton and members of the Subcommittee 
for this opportunity to testify on the Deleting Online Predators Act 
of 2006.
        My name is Ted Davis and I am an information technology 
director with Fairfax County Public Schools (FCPS) in Virginia. 
FCPS is the 14th largest public school district in the United States 
with over 163,000 students at 228 schools. FCPS long ago 
recognized the promise of the Internet as an educational resource, 
as well as its perils. Thus, in 1997, I was tasked with leading the 
effort to develop our Internet use policy and to implement filtering 
technology. FCPS supports the goals of the proposed legislation, 
but opposes the legislation in its current form. As I will elaborate, 
public schools are addressing the dangers of online predators, the 
legislation would not substantially improve the safety of our 
students, and it will place an added burden on schools.
        Based on input gathered from nearly 800 educators, students, 
parents, and community members, we recognized that technology 
alone could not address our shared concerns for the safety of our 
students. Thus in 1998 the Fairfax County School Board adopted a 
policy that emphasized education, classroom management, 
personal responsibility, as well as technology.
        Two years prior to the Children's Internet Protection Act of 
2000, FCPS implemented a filtering technology now known as 
Symantec Web Security (SWS). FCPS filters web content that is 
obscene, harmful to juveniles, child pornography, and promotes 
illegal activities. Today, all 90,000+ of our computers are filtered 
for such content. 
        SWS enables school districts to select from a wide range of 
categories of inappropriate materials for filtering, such as sex, 
crime, violence, intolerance, and interactive chat, so that districts 
may select materials to be blocked based on their policies. As you 
know, the Internet is constantly changing, thus filtering vendors, 
like Symantec, continually update their lists of inappropriate web 
sites in these categories. Filtering vendors use a combination of 
technology and human review to identify and classify 
inappropriate web sites.
        Furthermore, SWS provides school districts the ability to block 
(or unblock) additional sites in accordance with the needs of the 
school system. FCPS put into place a process and guidelines for 
identifying and evaluating web sites for possible filtering. Social 
sites, like MySpace.com, fell under this process. In the case of 
MySpace.com, FCPS began blocking this site last November. The 
same is true for many sites that preceded the popularity of 
MySpace.com. Neighboring school districts took similar actions-
much to the relief of parents and dismay of students.
        As you might expect, there will always be some determined 
students that seek to bypass technology protection measures-
these students are subject to policy enforcement. Each school year 
FCPS students and their parents are required to sign our 
Acceptable Use Policy, which outlines appropriate and 
inappropriate uses of computers and the Internet. Failure to comply 
with this policy results in disciplinary action. Fortunately, this is 
not a significant problem. In this past school year 578 students 
were disciplined for violating our Acceptable Use Policy-
representing 0.3% of our student population.
        One strategy for deterring AUP infractions is through good 
classroom management. That is how teachers make use of the 
Internet in their classrooms. This includes approaches such as 
arranging computers so that screens are visible to the teacher, pre-
selecting web sites for instruction, walking the classroom, and 
interacting with students as they use the web. FCPS teachers are 
trained to work these practices into their technology routine.
        Technology measures, policy enforcement, and classroom 
management are good strategies for preventing access to 
inappropriate materials in school, but they do not sufficiently 
prepare our students to deal with potential dangers outside of 
school-at home, a friend's house, a coffee shop-or even when 
they become adults. We know that our students will need to deal 
with many dangers-not only sexual predators, but also identity 
thieves, scams, phishing schemes, viruses, deceptive advertising, 
and misinformation. Education is the key to preparing our students 
to deal with these dangers. 
        That is why FCPS begins at the earliest age to teach students 
how to take advantage of the Internet and to deal with its dangers. 
We teach them not to give out personal information, that people 
may not be who they say they are, and never to agree to meet 
someone via the Internet. To make our point, we also partner with 
the Fairfax County Police who can speak to our students of these 
dangers from real experience.
        Parents are also key to protecting and educating their children. 
To help parents, we conduct cyber safety nights to educate them on 
the benefits and dangers. We teach parents to get involved in their 
children's Internet use at an early age, to set rules on Internet use, 
and to place computers with Internet access in a common area of 
their homes. We also reach out to busy parents via brochures and 
videos.
        The strategies I described, taken together, have been effective 
in FCPS for many years now. These strategies are not the direct 
result of state or federal legislation. Rather, they are the result of 
the close relationship our schools enjoy with our students, parents, 
and community-and our shared passion to provide a safe learning 
experience that meets our students' needs. Nevertheless, since the 
passage of the Children's Internet Protection Act six years ago, 
these strategies are now commonplace in school districts 
throughout the country.
        The proposed legislation, though an extension of similar 
provisions in effect today, does not lend itself to a technical 
solution. It would require that schools block commercial social 
networking sites that "may easily be" misused to perpetrate 
inappropriate contact with students. Unlike current restrictions 
against obscene materials that can be objectively identified, this 
legislation would require schools to subjectively predict which 
sites may be misused. Identifying and evaluating such sites would 
not take advantage of the technical capabilities of filtering vendors 
and likely lead to blocking of legitimate instructional sites. Thus 
this burden would fall back on to the schools.
        More could be done, of course. You can help protect our 
students by pursuing those individuals who would do harm to our 
children, and you can help us educate and prepare our students to 
be safe citizens of the Internet. To these ends, you could support 
law enforcement activities that seek to apprehend predators before 
they harm a child. You can facilitate collaboration between law 
enforcement agencies, filtering vendors, and schools to share 
information on web sites used to commit crimes; and you could 
foster an information campaign to reach parents and students on 
how to face the dangers on the Internet.
        Thank you again for this opportunity to speak before the 
committee. I welcome your questions.

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT> 

        MR. UPTON.  Mr. Kelly.
        MR. KELLY.  Good morning, Chairman Upton, and thank you 
very much for holding this hearing.  I want to personally thank my 
Representative, Ms. Eshoo, for her warm welcome, and all 
committee members as well.  
        My name is Chris Kelley.  I serve as Chief Privacy Officer of 
Facebook, a social utility that allows people to share information 
easily with their real world communities.  
        I joined Facebook last September as the first Chief Privacy 
Officer in the social neatworking space. In my previous role as a 
chief privacy officer and technology attorney, I represented many 
clients in the technology media industry on safety privacy issues.  I 
was also part of the founding team and served as a Fellow at 
Harvard Law School's Berkman Center for Internet and Society, a 
leading think tank focused on public policy issues of the digital 
age.  
        I am happy to be here today to talk about social networking 
sites generally, and particularly about Facebook.  By now you have 
heard a lot of things about the site.  You are also going to hear 
some positive things, and I understand a number of you have 
hopefully experienced some of the positives today.  
        I would like to begin telling you why teenagers and young 
adults love these sites, and then also about what is special about 
Facebook and especially our approach to online safety. 
        Facebook at its core is about community.  It is about providing 
an online way for people to communicate with friends and to meet 
new ones who are part of their real world communities.  It is about 
providing individuals with avenues for self-expression and 
creativity.  It is about providing the community members with easy 
ways to learn and share new ideas.  For all of these reasons, 
Facebook is fun and very popular, beginning with college students, 
and now with high school students and validated work 
communities.  
        Although only founded by Mark Zuckerberg, our CEO, in his 
dorm room in February of 2004, modeled after the paper Facebook 
that is given to many students at universities, we now have over 
800 million users.  Facebook is the seventh busiest website in the 
United States.  
        Facebook at its inception recognized the community's need to 
feel safe in order to thrive.  As a result, Mark and our other 
founders placed users' privacy, security, and safety at the center of 
Facebook's mission and its architecture.  It is a radical difference 
between sites with controlled access based on real world 
communities and those that make massive amounts of personal 
information available to anyone on the open Internet.  
        We implement our safety principles at Facebook with four 
levels of user protection.  First, we require validation.  E-mail is 
the primary token where it is possible for almost all colleges and 
for about 15 percent of high schools.  We use invitations where a 
school-validated e-mail address is not available.  
        Second, we place users in individual networks based on the 
real world school communities and we partition information 
availability within those networks.  This provides a built-in 
neighborhood watch program where abuse of the system can be 
easily identified and dressed.  So if you are a student at Walt 
Whitman High School in the Maryland suburbs, you only have 
access to other students at that high school.  
        Third, we empower members in our network to make choices 
about how they reveal information.  We offer detailed privacy 
settings and easy reporting of the violations of our terms of service.  
        Finally, we have a technology and safety net to detect misuse 
of the site and protect our members.  We employ technology tools 
that we deploy to detect misuse of the site and human capital 
dedicated to potential problems.  We highlight those accounts.  We 
do an automatic disband when people exceed a certain threshhold, 
and we examine that member's account to see if they are 
potentially harming other people on the site.  
        As a result of these important privacy, security, and safety 
features, we have very rarely encountered the same unfortunate 
problems that other social networking sites have been having.  
Facebook employs these because we recognize there is always a 
potential for bad actors in any online community, just as in the real 
world.  
        We have vigorously sought to support the construction of safe 
online communities both through our technology tools and other 
educational developers.  More specifically, Facebook supports the 
educational law enforcement efforts of the Federal Trade 
Commission.  We have been engaged in a dialogue with the 
National Southern Office of Attorneys General with best practices 
for social networking sites.  WiredSafety.org and I have worked 
with Parry for quite a number of years, and parents everywhere, 
because they are ultimately the first line of defense.  
        We also support the efforts of all companies in the social 
networking industry to make the world safer and more secure for 
their members.  So, in short, we think the competition to provide 
social networkers with safer choices is a very good thing, so we 
commend this committee for its efforts and we welcome the 
opportunity to serve as a community tie to you.  
        Facebook is proud to have led the way in giving the people an 
ability to share and control sharing of information online.  With 
these factors in mind, I would like to offer two quick observations 
about the Deleting of Online Predators Act. 
        We are very concerned about the vagueness of the "easily 
access" or "may easily be subject to" standards that the Deleting of 
Online Predators Act articulates as a basis for blocking a social 
networking site.  We are not certain there is an effective way for us 
to articulate the likelihood of such an event, though we do 
appreciate the attempt to distinguish between a distant possibility 
and a more easily foreseeable one.  
        As the committee further considers the legislation, it might 
examine the possibility of a safe harbor for sites deploying 
reasonably effective measures to limit general availability of 
profiles or adult-child interaction through the site.  We found that 
deploying technical tools allowing validation and segmentation of 
communities effectively limit adult-child interaction.  
        Second, I would stress that any congressional action should 
encourage the deployment of technology to protect children and be 
very conscious of avoiding discouragement of the pro aspects of 
the online site.  There is a reason that children and young adults 
make these sites major parts of their day: the natural desire of all 
people to express themselves and share information with friends.  
It is why a number of you went into politics.  
        I would encourage you to discuss Facebook with your staffers 
and interns who are students or recent graduates and let them 
articulate the sites and the benefits of the sites that it gives to their 
users.  Thank you for the opportunity to comment before the 
committee, and I look forward to the discussion.  
        [The prepared statement of Chris Kelly follows:] 

PREPARED STATEMENT OF CHRIS KELLY, VICE PRESIDENT, 
CORPORATE DEVELOPMENT AND CHIEF PRIVACY OFFICER, 
FACEBOOK

        Thank you Chairman Upton, ranking member Markey, and 
members of the Subcommittee for this opportunity to be with you 
and explain how Facebook uses technology and policy to protect 
people on our network.
        My name is Chris Kelly, and I serve as Chief Privacy Officer 
of Facebook, a social utility that allows people to share 
information with their real world communities.  I am very happy to 
be here today to explain how the two core ideas of social 
interaction and privacy guide everything that we do, and help 
protect people on our network.  As we say in our basic statement of 
principles, we believe that people want to share information with 
their friends and those around them, but they don't necessarily 
want to share personal information with the entire world.
        I joined Facebook last September as the first Chief Privacy 
Officer in the social networking space, and am creating the role at 
an Internet company for the fourth time.  In my previous service as 
a Chief Privacy Officer and technology attorney I have represented 
many clients in the technology and media industries on privacy, 
security, safety, and intellectual property issues.  I was also part of 
the founding team and served as a Fellow at Harvard Law School's 
Berkman Center for Internet and Society, a leading think tank 
focused on public policy issues of the digital age.
        In February of 2004, our CEO and Founder Mark Zuckerberg 
launched the first version of Facebook from his college dorm 
room.  Now, Facebook is the seventh busiest site overall and runs 
the busiest photo site in the United States, according to 
independent service ComScore Networks.  We have more than 8 
million registered members for whom Facebook has become a core 
part of how they interact within their communities.  Starting with 
our college communities, we have since expanded to offer school-
focused interactions for high-school students, and more recently 
have followed our graduating students into the work world.
        Privacy, security, and safety have been at the forefront of our 
concerns since the founding of the site.  There is one overarching 
way that Facebook differs from nearly all other social networking 
sites - profile information is not generally available to the outside 
world.  It is only available to Facebook members inside their 
individual, validated networks or through confirmed friends.  We 
want to give people extensive power over their ability to share 
information, and the ability to limit who has access to it.
        Of course, no protection mechanism is perfect.  But the mere 
fact that Facebook does not make information available by default 
to anyone with access to the Internet, combined with the other 
measures we have taken to focus information sharing on real-world 
communities, makes a radical difference in the privacy, security, 
and safety of the Facebook experience.  
        Following this major differentiator from most sites, we have set 
up four levels of protection for our members that I would like to 
outline for you today.
        First, we require validation in order to get on the site in the first 
place.  For college students, and those high schools where it is 
possible, membership in the school community is proven through a 
valid email associated with that college or school.  Where high 
schools do not offer students email addresses, we have instituted 
an invitation-based system that is designed to limit even initial 
access to that school network.
        Second, we segment information access within networks based 
on real-world communities.  Being a member of Facebook does 
not give you access to the profiles of all people on Facebook.  You 
are only allowed to access the profiles of other members at your 
college, high school, work, or (with explicit user choice) 
geographic network, and have power to add confirmed friends in 
other networks. This has two positive effects.  First, users are 
gaining more information about those around them in the real 
world, which has pro-social effects on campuses around the 
country.  Second, there is a built-in neighborhood watch program, 
especially with respect to high schools, where abuse of the system 
can be easily identified and addressed.
        Third, we put power in our users' hands to make choices about 
how they reveal information.  I have mentioned already the ability 
to confirm friends from other networks, and the "My Privacy" tab 
on every navigation bar throughout the site allows users to make 
detailed choices about who can see particular pieces of information 
about them, including their contact information and photos. 
        Finally, we have a safety net of protection through both 
technological tools we deploy to detect misuse of the site and 
human capital dedicated to potential problems -- our 20 person and 
growing customer service staff, headed by a seasoned veteran and 
backed up by myself and two other attorneys.  Most of our 
customer service representatives are recent graduates of 
outstanding colleges, and dedicated Facebook users, so they know 
the system inside and out.  On those rare occasions where someone 
has attempted to misuse our network, we engage rapidly with the 
relevant authorities.  Because the system is built for accountability 
with its validation requirements and segmentation of communities, 
misuse is both deterred and generally detected quickly.  We 
quickly launch an internal investigation and step in where we 
receive reports of the misuse of Facebook in any way.
        Overall, the fact that information posted on Facebook is not 
generally available has made Facebook a different experience for 
our users, and one they clearly enjoy as reflected in their frequent 
visits. Our intuition about the importance of tying access to 
information based on the networks where people already exist in 
real life has been shown to have huge effect in both deterring and 
exposing misuse.  By focusing on real-world networks as the 
touchstone for access, we provide both a built-in reflection of 
people's expectations about who will know information about 
them, and restrictions that make access difficult for those who 
might have harmful intentions.
        Facebook is proud to have led the way in giving people the 
ability to share, and to control sharing, information online.  
        With these factors in mind, I would like to offer two 
observations.  We are very concerned about the vagueness of the 
"easily access" or "may easily be subject to" standards that the 
Deleting Online Predators Act articulates as a basis for blocking a 
social networking site.  We are not certain that there is an effective 
way to articulate likelihood of such an event, though we do 
appreciate the attempt to distinguish between a distant possibility 
and a more easily foreseeable one.  As the committee further 
considers the legislation, it might examine the possibility of a "safe 
harbor" for sites deploying reasonably effective measures to limit 
general availability of profiles or adult-child interaction through 
the site.  We have found that deploying technological tools 
allowing validation and segmentation of communities effectively 
limit adult-child interaction.  
        Second, I would stress that any Congressional action should 
encourage the deployment of technology to protect children and be 
very conscious of avoiding discouragement of the pro-social 
aspects of online sites.  There is a reason that children and young 
adults make these sites major parts of their day - the natural desire 
of all people to express themselves and share information with 
friends.  I would encourage you to discuss Facebook with your 
staffers and interns who are students or recent college graduates 
and let them articulate the benefits that the site delivers to its more 
than 8 million users.
Thank you again for the opportunity to comment before the 
committee, and I look forward to your questions.

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>

        MR. UPTON.  Ms. Lenhart.
        MS. LENHART.  Chairman Upton and honorable members of 
the Subcommittee, it is a privilege for the Pew Internet and 
American Life Project to be asked to testify at this important 
hearing.  
        The project is a nonprofit organization created to examine the 
social impact of the Internet, with grants from the Pew charitable 
trust.  We at the Pew Internet Project do not take positions on 
policy questions.  Still, we try to do primary research about the 
impact of people's Internet use that would be helpful to 
policymakers and other stakeholders.  
        We have been doing research for 7 years about how teenagers 
use the Internet and how families are addressing challenges related 
to new technologies.  Our national surveys show that fully 87 
percent of Americans between the ages of 12 and 17 go online.  Of 
those that do not currently go online, about half have had some 
previous Internet experience, which means that in all, 93 percent of 
American youth have used the Internet at some point.  
        Their parents use the Internet in large numbers as well; 87 
percent of parents with online teens between the ages of 12 and 17 
use the Internet compared with 73 percent of all American adults 
who go online.  Our research shows that while parents believe that 
the Internet can bring both positive opportunity and potential 
threats into their homes, their overall judgment is that the Internet 
is a good thing for their children; 67 percent of parents with online 
teens report this, and their optimism has grown markedly since we 
first asked the question in year 2000.  
        This hearing is particularly focused on the role that social 
networking sites play in teenagers' lives.  But it is important to 
point out the social interaction that takes place online has been an 
integral, if not an important, part in the Internet experience since 
the first e-mail was transmitted in 1971.  
        There are websites where individuals can post information 
about themselves by creating a profile or website where they can 
connect with others in the same network.  This definition 
encompasses online dating sites, collaborative software spaces, as 
well as popular social networking sites like Xanga and Live 
Journal and places like MySpace, Facebook, and MyYearbook 
which are based around the creation of a personal profile.  
        Social networking sites are not the same as chat rooms, though 
some of these sites do have discussion forums where live chat can 
take place.  The vast majority of communication in online social 
networks takes place asynchronously and within the network of 
friends that the user has established.  
        Other research has recently documented the popularity of 
social networking sites among teens.  A March 2006 survey of 
1,160 online teenagers between the ages of 13 and 17 found that 61 
percent of teens have personal profiles on sites like MySpace, 
Friendster, or Xanga, and about half of them have posted photos of 
themselves somewhere online. 
        Teenager use of these networks dwarfs that of adults.  A Pew 
Internet Project survey conducted in September of 2005 found that 
just 16 percent of young adults between the ages of 18 and 29 had 
used an online social or professional networking site.  Older users 
are even less likely to use the sites.  
        There are two primary functions of social networking sites that 
are appealing to teens:  
        First, the sites enable the user to create sites and share content 
with others.  
        Second, the sites enable users to communicate with others 
using a wide array of messaging, blogging, and posting tools.  
        Our surveys of teens show that 57 percent of online teens have 
created some kind of concept for the Internet.  This includes blogs, 
creating websites, posting photos, written material, videos, songs, 
or other artwork.  Much of this content, when posted on social 
networking sites, is expressive of their view of the world, which 
can be angry, angst-ridden, or full of idealism.  In other words, this 
is a terrain where teens display their moods in acting out their 
vision of themselves, sometimes doing it in ways that ignore or 
downplay risks to their privacy and safety.  
        Psychologist Erik Erikson argues that most of the work of 
being an adolescent involves youths' testing as they establish their 
place in the world.  The online environment is for this.  It is easy to 
create materials online and then change it.  It enables feedback 
from peers, the most compelling group of people in teens' lives.  
        The Internet and social networking sites are the latest iteration 
in a long line of technologies that have changed the way teenagers 
communicate and socialize, technologies like the car and the 
telephone. 
        The second element of online social networks that contribute to 
their popularity is that they provide another channel to 
communicate with others.  The act of developing friendships and 
romantic relationships is also the work of teenagers.  And the 
Internet and its communications applications allow them to do this 
easily.  Our data shows that 89 percent of teens are e-mail users 
and 75 percent are instant message users.  During recent focus 
groups, we heard from teens that both of these methods of 
communication were being supplanted in many teens'; lives by the 
communications tools embedded in social networking websites 
such as bulletins, messaging, and commenting.  
        While social networks are attractive for all of the information 
they enable, there has been considerable information on the dark 
side.  What may seem like harmless disclosure of information, and, 
in the worst cases, allow them to be tracked and targeted, our most 
recent work suggests that growing numbers of teens are aware of 
these problems and are taking steps to address them.  
        We have just completed a series of focus groups with middle 
and high schools, that safety and social networking sites has 
become a major concern of many, if not most, of the teens we 
interviewed, particularly younger teens and some of the girls.  
Time and again, these teens detailed their concerns about online 
predators and the steps they took to keep themselves safe.  
Sometimes they feel it is sufficient to hit the delete key in response 
to unwanted messages or requests from strangers.  Other times 
teens in our groups said they would post false information on their 
sites to protect themselves. 
        They are now more aware of the dangers of posting 
information on their profile that might help lurkers find them.  
        But even as they detailed their fears and concerns about 
perceived dangers of these sites, they also talked about how 
important these sites were to them, not just as a place to learn 
about and share new music, video, or photos, but also as a place 
that helps them develop and maintain friendships that they rely on 
for support.  
        Looking more closely at safety issues, parents and children also 
agree about some fundamental truths about the online generational 
divide.  Both parents and their children agree that parents are 
generally less tech-savvy than their children.  
        Still, 54 percent of parents report having some type of filtering 
or monitoring software on the home.  Two-thirds of parents also 
take nontechnical steps online by checking on their Web use and 
placing the computer in a public place in the home.  In the end, the 
picture we get is that teens and their parents are aware of the 
double-edged nature of technology, and they welcome access to 
tools and tech needs that help them make informed choices about 
what they do online.  
        I thank you for the opportunity to speak to the committee and I 
look forward to answering any questions you may have. 
        [The prepared statement of Amanda Lenhart follows:] 

PREPARED STATEMENT OF AMANDA LENHART, SENIOR RESEARCH 
SPECIALIST, PEW INTERNET AND AMERICAN LIFE PROJECT

        Chairman Upton and honorable members of the Subcommittee, 
it is a privilege for the Pew Internet & American Life Project to be 
asked to testify at this important hearing. The Project is a 
nonprofit, nonpartisan research center created to examine the 
social impact of the internet with grants from the Pew Charitable 
Trusts. We at the Pew Internet Project do not take positions on 
policy questions or endorse industry sectors, organizations, or 
individuals. Still, we try to do primary research about the impact of 
people's internet use that would be helpful to policy makers and 
other stakeholders as they consider ideas to improve technology or 
mitigate its harms. 

There is pervasive use of the internet among teenagers
        We have been doing research for seven years about how 
teenagers use the internet and how families are addressing 
challenges related to new technologies. Our national surveys show 
that internet use is pervasive among teens and that families are 
spending time trying to work through all the issues that brings into 
their homes. 
        Fully 87% of Americans of middle- and high-school age - 
those between the ages of 12 and 17 - go online. Of those that do 
not currently go online, about half have had some previous internet 
experience, which means that, in all, 93% of American youth have 
used the internet at some point. 
        Their parents use the internet in large numbers as well - 87% 
of parents with teens between the ages of 12 and 17 use the 
internet, compared with 73% of all American adults who go online. 
It is clear that many parents extend themselves financially to buy 
computers and internet access in the belief that mastery of high-
tech skills is a prerequisite for their children's future success. 

Weighing the pluses and minuses, parents think the internet is a 
benefit to their children
        Indeed, while parents believe that the internet can bring both 
positive opportunities and potential threats into their homes, their 
overall judgment is that the internet is a good thing for their 
children: 67% of parents with online teens report this, and their 
optimism has grown markedly since we first asked the question in 
the year 2000.  
        This hearing is particularly focused on the role social 
networking websites such as MySpace.com and Facebook.com 
play in teenagers' lives. But it is important to point out that social 
interaction takes place in a wide variety of contexts online and has 
been an integral part - if not the most compelling part - of internet 
experience since the first email was transmitted in 1971. 

Online social networks are popular among teenagers
        Our working definition of online social networks is broad. 
They are "web spaces where individuals can post information 
about themselves, usually by creating a profile or website, and 
where they can connect with others in the same network." This 
definition encompasses online dating sites, some instant messaging 
tools, collaborative software spaces, as well as popular social 
networking web sites like Xanga and Live Journal, which are built 
mainly around connecting friends via their blogs, and places like 
MySpace, Facebook, Tagged.com, and MyYearbook. 
        Social networking sites are not the same as chatrooms, though 
some of these sites do have discussion forums where live chat can 
take place. The vast majority of communication in online social 
networks takes place asynchronously and within the network of 
"friends" that the user has established.
        Other research has recently documented the popularity of 
social networking sites among teens. A March 2006 survey of 
1,160 online teenagers between the ages of 13 and 17 found that 
61% of teens have personal profiles on sites like MySpace, 
Friendster or Xanga, and about half of them have posted pictures 
of themselves somewhere online.   
        Teenagers' use of these networks appears to dwarf that of 
adults. A Pew Internet Project survey conducted in September 
2005 found that just 16% of young adult internet users between the 
ages of 18-29 had used an online social or professional networking 
site. Older users are even less likely to use the sites.

Social network sites are popular because they enable new 
expression and activities that appeal to teenagers
        There are two primary functions of social networking sites that 
are especially appealing to teens:
        <bullet> First, the sites enable users to create and share content 
with others -- generally, this is content that is expressive of 
users' identities. 
        <bullet> Second, the sites enable users to communicate with others 
using a wide array of messaging, blogging and posting 
tools.

New online tools help teens explore their identities
        Our surveys of teens show that 57% of online teens have 
created some kind of content for the internet. This includes 
blogging, creating websites, posting photos, written material, 
videos, songs, or other artwork. Teens also remix content they find 
online into something new and share that online with others. Much 
of this content when posted on social networking or other websites 
is expressive of their view of the world - a view that can be 
playful, angry, riveting, revolting, angst-ridden, hilarious, or full of 
idealism. In other words, this is a terrain where teens display their 
moods and act out their vision of themselves - sometimes doing it 
in ways that ignore or downplay risks to their privacy and safety
        Psychologist Erik Erikson argues that much of the "work" of 
being an adolescent involves youths' testing of their identities as 
they establish their place in the world. The online environment 
offers many opportunities to do this type of developmental "work." 
It's easy to create material and change it when the mood strikes. 
Most importantly, it enables feedback from peers - the group about 
which teens are most keenly interested.
        The internet and social networking sites are the latest iteration 
in a long line of technologies that have changed the way teenagers 
communicate and socialize. As historian Beth L. Bailey notes in 
her book, From Front Porch to Back Seat, the invention of the 
automobile, which brought youth radically new levels of mobility 
and privacy in the early 20th Century, is often credited as the 
technological catalyst that spurred a new and controversial social 
practice among young men and women called "dating."   

Staying in touch with peers is a big draw
        The second element of online social networks that contributes 
to their popularity is that they provide another channel for teens to 
communicate with others, especially with those who are connected 
through a visible web. The act of developing friendships and 
romantic relationships is also the "work" of teenagers, and the 
internet and its communications applications allow them to do this. 
	Our data show that 89% of teens are email users and 75% are 
instant message users. During recent focus groups, we heard from 
teens that both of these methods of communication were being 
supplanted in many teens' lives by the communications tools 
embedded in social networking websites -- such as "bulletins," 
messaging, and commenting.

Teens, especially younger youth and girls, are developing new 
awareness about the risks of some disclosures on social network 
sites
        While social network sites are attractive for all the content and 
communication they enable, there has been considerable public 
attention focused on the dark side of all this public disclosure by 
teenagers. What may seem like harmless disclosures of 
information can sometimes compromise teens' privacy and, in the 
worst cases, allow them to be tracked and targeted.  
        Our most recent work suggests that growing numbers of teens 
are aware of these problems and are taking steps to address them. 
We have just completed a series of focus groups with middle and 
high school students and it was striking to note that safety on social 
networking sites has become a major concern of many if not most 
teens we interviewed, particularly younger teens and girls. 
        Time and again, these teens detailed their concerns about 
online predators and the steps they took to keep themselves safe. 
Sometimes they feel it is sufficient to hit the delete key in response 
to unwanted messages or requests from strangers. Other times, the 
teens in our groups said they would post false ages on their sites. 
Often, they would say they were younger than they actually were 
because privacy protections at some social network sites are 
stronger for younger users. Finally, these teens told us that they are 
more aware now of the dangers of posting information in their 
profiles that might help lurkers find them. 
        Even as they detailed their fears and concerns about the 
perceived dangers of these sites, they also talked about how 
important these sites were to them - not just as place to learn about 
and share new music, video, or photos, but also as a place that 
helps them develop and maintain friendships that they rely on for 
support. 

Parents and children agree there is a generational divide in many 
households
        Looking more closely at safety issues, parents and children also 
agree about some of the fundamental truths that characterize the 
online generational divide. Both parents and their children agree 
that parents are generally less tech savvy than their children. In 
addition:   
        <bullet> 81% of parents and 79% of teens agree that children are not 
as careful as they should be about the information they give 
out online
        <bullet> 62% of parents with online teens and 62% of online teens 
agree that children do things online that they wouldn't want 
their parents to know about. 

Many parents try to take steps to safeguard their children
        Still, 54% of parents report having some type of filtering or 
monitoring software installed on a computer in the home. Two 
thirds of parents also take non-technical steps to protect their 
children online, by checking up on their web use, setting rules and 
time limits and placing the computer in a public place in the home.
        In the end, the picture we get is that teens and their parents are 
aware of the double-edged nature of technology, and they welcome 
access to tools and techniques that help them make informed 
choices about what they do online. 
        Thanks again for the opportunity to speak to the committee 
today and I look forward to answering any questions you may 
have.
 
<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>

        MR. UPTON.  Ms. Yoke.
        MS. YOKE.  I would like to ask your permission to insert this 
document into the record. 
        MR. UPTON.  Without objection.  
[The Information follows:]

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>

        MS. YOKE.  Chairman Upton and members of the 
subcommittee, thank you for inviting me to testify on behalf of the 
American Library Association.  I sincerely appreciate the chance to 
comment on the Deleting of Online Predators Act.  
        My name is Beth Yoke, and I am Executive Director of the 
Young Adult Library Association, the division in ALA that strives 
to ensure the Nation's teens have access to excellent library service 
and resources.  Before taking this position with ALA, I was a 
young adult librarian and instructor of future school instructors in 
Fairmont, West Virginia.
        I would like to summarize our main points.  But first let me say 
that no one is more concerned with the safety of children online 
than librarians, especially youth librarians, media specialists like 
those with whom I work.  Librarians believe, and, more 
importantly, know from experience that education about safe 
Internet practices for both youth and parents is the best way to 
protect young people.  
        With that in mind, let me go through our key points.  
First, the technology used in DOPA is overly broad.  DOPA 
uses the term "social networking sites" to describe virtually all 
interactive Web applications in which users converse or interact 
with each other.  As written, it would block access to many 
valuable websites that utilize this type of communication, websites 
whose benefits far outweigh their detriments.  
        Second, DOPA ignores the value of interactive Web 
applications.  New Internet Web applications for collaboration, 
business and learning are becoming increasingly important, and 
young people must be prepared to thrive in a work atmosphere 
with meetings that take place online and online networks are 
essential communications tools.  
        A number of businesses are increasingly leaning to the use of 
interactive Web applications as a primary mode of business 
communication.  This is exactly what kids must be ready for:  a 
professional environment where only the Web-savvy thrive.  
        Finally, one example that wasn't included in my written 
testimony.  A young adult with whom I recently spoke told me, 
quote, "My dad is a truck driver.  And before social networking 
sites existed, it was hard for him to feel connected with our family 
when he was away.  If the library blocks social networking sites, I 
will no longer be able to have live chats with him by computer, to 
share photos with him, or share moments across the country."  No 
doubt thousands of other teens have equally compelling stories to 
tell.  
        Third, education, not laws blocking access to social networking 
access is the key to safe use of the Internet.  Librarians and 
schools--
        MR. UPTON.  We will freeze the clock.  We will let you finish.  
        MS. YOKE.  Libraries and schools are where kids learn 
education.  Legislation like DOPA sends the wrong message at the 
wrong time. 
        MR. UPTON.  It means we could have a series of votes but it is 
likely we are going to have one.  Go ahead.
        MS. YOKE.  Instead of allowing librarians and teachers to 
instruct students about how to use all kinds of applications safely 
and effectively, it creates barriers to information, literacy 
instruction.  This flies in the face of logic and hundreds of years of 
educational theory.  Why would we limit access to interactive Web 
application in the first place where students came to use them 
actively?  
        Fourth, local decision-making is the way to address the law.  
Many of the problems that DOPA seeks to remedy are already 
addressed at the local level.  Federal legislation like DOPA robs 
education communities of control.  Decisions, about what is best 
for an individual community is best made by the community itself.  
        Fifth, DOPA would restrict technology in the communities that 
need public access most.  According to research, African 
Americans and Hispanics are much more likely to rely exclusively 
on the library computer for Internet access than are their white and 
Asian counterparts.  DOPA, as presently drafted, would require 
libraries and schools receiving E-rate discount to block computer 
users from accessing interactive Web actions of all kinds, thereby 
limiting opportunity for those who do not have Internet access at 
home.  
        Research shows that use of the Internet is used to improve 
reading and other academic successes, but as Bruce Bower states, 
"children most likely to benefit from home Internet access are the 
least likely to have it."  
        The American Library Association would like to affirm the 
importance of online interaction and collaboration as an 
indispensable tool for education and communication in today's 
information society.  They also affirm the role of social networking 
sites of essential literacy skills.  We at the American Library 
Association stand ready to work with you to assure that our 
children are protected, educated, informed and made as safe as 
possible.  
        Thank you.
        [The prepared statement of Beth Yoke follows:] 

PREPARED STATEMENT OF BETH YOKE, EXECUTIVE DIRECTOR, 
ALA YOUNG ADULT LIBRARY SERVICES ASSOCIATION

        Librarians believe, and more importantly know from 
experience, that education about safe Internet practices - for both 
youth and parents - is the best way to protect young people. We 
believe that the overly broad technological controls that would be 
required under DOPA are often ineffective given the fast-moving 
nature of modern technology.  Further, such technological controls 
often inadvertently obstruct access to beneficial sites. In essence, 
we believe that this legislation would lead to the blocking of 
essential and beneficial Interactive Web applications and would 
further widen the digital divide.

I. The terminology used in DOPA is flawed. 
        DOPA uses the term "social networking sites" in an overly-
broad way to describe virtually all Interactive Web applications in 
which users converse or interact with each other. As written, HR 
5319 would block access to many valuable applications.  

II. DOPA ignores the value of Interactive Web applications.
        New Internet-based applications for collaboration, business and 
learning are becoming increasingly important, and young people 
must be prepared to thrive in a work atmosphere where meetings 
take place online, where online networks are essential 
communication tools.

III. Education, not laws blocking access, is the key to safe use of 
the Internet.
        Libraries and schools are where kids learn essential 
information literacy skills that go far beyond computer instruction 
and web searching to include the development of critical thinking 
skills necessary to make good choices online.

IV. Local decision-making - not federal law - is the way to solve 
the problems addressed by DOPA.
        Many of the problems that DOPA seeks to remedy are already 
addressed at the local level. Decisions about what is best for an 
individual community should be made by the community itself.

V. DOPA would restrict access to technology in the communities 
that need public access most.
        African Americans and Hispanics are much more likely to rely 
exclusively on the library computer for Internet access than are 
their white and Asian counterparts. DOPA, as presently drafted, 
would require libraries and schools receiving E-rate discounts 
through the Universal Service Program to block computer users 
from accessing Interactive Web applications of all kinds, thereby 
limiting opportunities for those who do not have Internet access at 
home.


        Chairman Upton and Members of the Subcommittee, thank you 
for inviting me today to testify on behalf of the American Library 
Association (ALA). I sincerely appreciate the opportunity to 
comment on H.R. 5319, the Deleting Online Predators Act 
(DOPA).  ALA has three primary concerns about DOPA:  1) that 
the broad scope of this legislation will limit access to essential 
Interactive Web applications; 2) that the legislation would widen 
the digital divide by limiting access for people who use library and 
school computers as their primary conduits to the Internet; and 3) 
that education and parental involvement are and have always been 
the best tools to keep kids safe online and to ensure that they can 
make the right decisions.
        I am the Executive Director of ALA's Young Adult Library 
Services Association (YALSA).  The American Library 
Association is the oldest and largest library association in the 
world with some 65,000 members, primarily school, public, 
academic, and some special librarians, but also trustees, publishers, 
and friends of libraries. The Association's mission is to provide 
leadership or the development, promotion, and improvement of 
library and information services and the profession of librarianship 
in order to enhance learning and ensure access to information for 
all.
        Before taking this position with ALA, I was a young adult 
services librarian and an instructor of future school library media 
specialists and youth librarians at West Virginia University.  I can 
say with authority that no one is more concerned with the safety of 
children online than librarians - especially youth librarians. 
        Youth librarians believe, and more importantly know from 
experience, that education about safe Internet practices - for both 
youth and parents - is the best way to protect young people. We 
believe that the overly broad technological controls that would be 
required under DOPA are often ineffective given the fast-moving 
nature of modern technology.  Further, such technological controls 
often inadvertently obstruct access to beneficial sites. In essence, 
we believe that this legislation will lead to the blocking of essential 
and beneficial Interactive Web applications and will further widen 
the digital divide.

The terminology used in DOPA is flawed. 
        It is very difficult to define many of the terms used in the 
debate over Internet usage.  DOPA uses the term "social 
networking sites" in an overly-broad way to describe virtually all 
Interactive Web applications in which users converse or interact 
with each other. As it is currently written, the definition (even with 
the educational exemption) would include: educational tools used 
to provide distance education, community forums that allow 
children to discuss issues of importance, online email programs 
through which family members can communicate with each other 
and with teachers and librarians at their local schools and libraries 
and even find one another in cases of emergency. There is 
enormous value to be found in these interactive online 
environments.  Blocking access to them denies young people the 
opportunity to benefit from all the Internet has to offer while not 
necessarily ensuring kids' safety online.  As written, HR 5319 is 
simply too broad and would block access to many valuable 
applications.  We urge you to consider changes in the bill 
language.
        There are many examples of online education applications that 
would be blocked under DOPA.   One example reported in 
Education Week indicated that more than 10 million students were 
part of an online field trip to the Carlsbad Caverns National Park in 
Carlsbad, N.M. - without leaving their classrooms. 
        The April 25 field trip, coordinated by Ball State University in 
Muncie, Ind., was to consist of two live virtual tours of the cave 
featuring scientists, park guides, and First Lady Laura Bush. 
Students in grades 3-8 were invited to call in or e-mail questions to 
be answered on the air, or to participate in an online discussion 
during the 90-minute broadcasts.  The organizers billed the event 
as the largest simultaneous visit ever to a national park. It was also 
described as the largest "electronic field trip" ever broadcast by 
BSU, which has organized more than 50 such trips since 1996. 
        Use of the site WebCT.com, an online education application, 
has helped thousands of people get their degrees through distance 
learning.  WebCT is a site that allows users to enroll in and 
participate in classes online. It can also act as a forum for class 
discussions. Users create profiles and become students in a virtual 
classroom through online bulletin boards, real-time chat, student 
blogs, and more. In the rural areas of states like Texas, Wyoming, 
the Upper Peninsula of Michigan and West Virginia - where I 
worked, distance from major hubs once created an enormous 
barrier to learning. 
        Today, applications, like those available through WebCT, 
make it possible for young adults to complete degrees online at 
schools that are hundreds of miles away as well as access other 
non-credit courses for personal interests.  It is our analysis that 
DOPA would make this type of distance learning impossible, since 
the bill requires that interactive applications, like courses available 
through WebCT, can only be used in libraries or schools if there is 
adult supervision. But what does "adult supervision" mean?  Or 
how is "education" defined in the pertinent exemption?  Is it 
formal for-credit only courses?  And, why would we create barriers 
for young people who want to take advantage of online educational 
opportunities?
        There are countless positive uses for networking applications 
that are not necessarily related to formal education. Networking 
applications include support groups for teenagers with physical or 
emotional disabilities, forums for the exchange of ideas, and even 
tools to help kids become acclimated to new surroundings. For 
example, when teenagers leave for college they often use 
networking sites to find other students with similar interests.
        Finally, with specific regard to "social networking sites," 
young adults all over the country have begun to use these sites as a 
primary means of communication, whether with their peers or with 
young adult authors, musicians, artists, and with libraries. Some 
libraries are taking advantage of this by using some of these sites 
to stay in touch with their communities. For example, Sean 
Rapacki from the Wadsworth Public Library in Wadsworth, Ohio 
informed us that his staff has created a MySpace profile page FOR 
the library, allowing library staff to communicate with young adult 
patrons much more effectively.

DOPA ignores the value of Interactive Web applications.
        Today's interactive online environment is an essential and 
growing part of economic, cultural, civic, and social life. New 
Internet-based applications for collaboration, business and learning 
are becoming increasingly important, and learning to use the online 
environment effectively and safely is now an essential component 
of education.
        The popularity of interactive online environments is extending 
to the corporate world, as a number of businesses - including 
corporate leaders like Ernst & Young and IBM - are increasingly 
moving to the use of interactive Web applications as a primary 
mode of business communication. These companies recognize that 
technology can be an essential way to achieve a home/work 
balance and maximize efficiency.  As the corporate, professional, 
and civic use of interactive Web applications grows, there is an 
increasing need for today's young people to be prepared to thrive in 
a work atmosphere where meetings take place online, where e-
business is a driving force behind the world economy, and where 
online networks are essential communication tools. This is exactly 
what kids must be ready for: a professional environment where 
only the web-savvy thrive. 
        The Internet is changing how we live, learn, work, and interact 
with one another. If today's young people are to succeed in the 
workplace of the future, they must learn information literacy skills 
for the technologies of today and tomorrow. Libraries are far and 
away the best places to learn these skills, and social networking 
sites, which introduce kids to the world of online interaction, are 
key to successful development in that field.

Education, not laws blocking access, is the key to safe use of the 
Internet.
        Libraries and schools are the locations where students develop 
the information literacy skills that are vital to success in today's 
world. Information literacy includes "the abilities to recognize 
when information is needed and to locate, evaluate, effectively use, 
and communicate information in its various formats. " These are 
skills that public librarians and school library media specialists are 
in a unique position to foster in young people. In today's world, 
information literacy skills go far beyond computer instruction and 
web searching. In a fully developed information literacy program, 
students learn how to find, evaluate, and use online information 
and also learn how to use critical thinking skills to make good 
choices online.
        This type of information literacy instruction is going on in 
schools and libraries all across the country. Legislation like DOPA 
sends exactly the wrong message at the wrong time - instead of 
allowing librarians and teachers to instruct students about how to 
use all kinds of applications safely and effectively, it creates 
barriers to information literacy instruction. This flies in the face of 
hundreds of years of educational theory - why would you limit 
access to interactive Web applications in the one place where 
students can learn to use them safely?
        Fortunately, thousands of public and school libraries across the 
country, along with websites like Ms. Aftab's WiredKids.org, are 
doing an outstanding job in helping parents teach children how to 
use the Internet safely and responsibly. For example, Baltimore 
County Public Schools and the Baltimore County Public Library 
co-sponsored a Family Guide to Child Safety on the Internet, a 
valuable resource for helping parents teach their kids the do's and 
don'ts of web surfing. 

Local decision-making - not federal law - is the way to solve the 
problems addressed by DOPA.
        As advocates for effective use of information, librarians and 
teachers are fully committed to helping young people have safe 
online experiences; furthermore, we teach young people the 
information literacy and critical thinking skills they need to use the 
Internet safely and effectively. We reach the goal of educating kids 
to safely use online tools with information literacy education 
programs as described above, and through locally-developed 
online safety policies, which in many cases include the use of 
technological barriers like filters. In other words, many of the 
problems that DOPA seeks to remedy are already addressed at the 
local level.
        About 80% of all public library funding is local, library 
programs are developed to be responsive to local requests, and the 
policies governing libraries are developed with local trustees and 
community members; comparable policy decisions are made by 
school boards. Federal legislation like DOPA robs libraries and 
communities of local decision-making and control. Decisions 
about what is best for an individual community should be made by 
the community itself.

DOPA would restrict access to technology in the communities that 
need public access most.
        According to recent statistics from the U.S. Census Bureau the 
digital divide is large and does not appear to be shrinking. 
Currently, roughly one out of seven African Americans and only 
one out of eight Hispanics subscribe to broadband service at home. 
Meanwhile, 26.1% of whites and a full one third of Asians have 
broadband at home.  Further, according to a Gates Foundation 
report on the role of libraries in Internet access, African Americans 
and Hispanics "rely exclusively on the library computer for 
Internet access to a greater degree than their white and Asian 
counterparts," with approximately a fifth of African American 
users and nearly 16% of Hispanic users exclusively relying on 
library-based computers. Also, nearly a third of those in the lowest 
income bracket who use library computers rely exclusively on 
them.  These data indicate that public access computing in libraries 
is playing an important role in closing the digital divide.
        Since DOPA, as presently drafted, would require libraries and 
schools receiving E-rate discounts through the Universal Service 
Program to block computer users from accessing Interactive Web 
applications of all kinds, opportunities for those who do not have 
Internet access at home would be further limited. 
        There is a great deal of research being conducted on young 
people and their use of the Internet and interactive applications.  
There is much to learn from this research about educating young 
people and helping them to safely use the Internet.  For instance, 
research shows that use of the Internet, including interactive sites, 
leads to improved reading and other academic successes.  Sadly, 
research reported by Bruce Bower indicates that "children most 
likely to benefit from home Internet access are the very children 
least likely to have [it]." 
        The ALA would like to affirm the importance of online 
interaction and collaboration and the development of essential 
information literacy skills. We at ALA stand ready to work with 
you, to assure that our children are protected, educated, informed 
and made as safe as possible.


Biography for Beth Yoke
        Beth Yoke earned a B.A. in History from Gettysburg College 
in 1991, a teaching certificate from Tulane University in 1995 and 
a Masters in Library and Information Science from Louisiana State 
University in 1998.  From 1991-1993 she taught in Orleans Parish 
Schools, New Orleans, LA, as a member of the Teach for America 
corps.  From 1993-1997 she continued her teaching career in 
Orleans Parish Schools.  While pursuing her masters in Library 
and Information Science, Yoke worked at in the research and 
development library for Albemarle Corporation in Baton Rouge, 
LA.  After completing graduate school, Yoke worked as a high 
school librarian in Stafford, VA then as a university librarian at 
Fairmont State University in Fairmont, WV.  At Fairmont State 
Yoke coordinated the online school library media certification 
program and became active in the West Virginia Library 
Association, where she served as first as chair of the School 
Library Division and later as WVLA's Second Vice-President.  
Since 2004 Yoke has served as Executive Director of the Young 
Adult Library Services Association (YALSA), the fastest growing 
division of the American Library Association.

        MR. UPTON.  Mr. Zellis, we will hopefully conclude with you 
and we will break and go vote, so go ahead.  
        MR. ZELLIS.  Chairman Upton and members of the committee, 
ladies and gentlemen, thank you for the opportunity to be here 
today to talk about the serious issue that affects our most treasured 
resource, our children, and our efforts to protect them from the 
dangers of social networking sites that exist on the World Wide 
Web.  
        My name is David Zellis and I am the highest-ranking 
prosecutor next to the elected district attorney in Bucks County.  I 
have spent the last 22 years fighting in the courtroom to put 
criminals behind bars.  My courtroom experience involves every 
type of case including capital murder.  I also worked hand in hand 
with law enforcement as they investigated criminal activities.  One 
could say that during my tenure as a county prosecutor I have seen 
it all.  Despite my exposure to all kinds of criminal behavior, I, like 
many of my colleagues, have been shocked and dismayed by the 
latest rage, politely known as social networking sites, but 
commonly known as MySpace, Friendster, Facebook, and Xanga.  
        It was not many years ago the police arrested and I prosecuted 
child molesters for making advances toward our children on the 
street corner or some park.  It was not that long ago the drug 
dealing took place on the street corners and I locked those drug 
dealers up.  And it was only a short time ago that bullying meant 
beating up a kid on the playground.  
        Times have changed.  The Internet and these social networking 
sites have redefined, reinvented, and reinvigorated child predators, 
drug dealers, and bullies.  Now sexual predators troll the social 
networking sites rather than the streets and get all of the 
information they need in order to groom children for the ultimate 
purpose of victimizing them.  Drug dealers in suburban 
communities like Bucks County can now conduct business in 
cyber space instead of on the street corner, and bullies do not have 
to throw a punch when they can go on the Internet and engage in 
cyber bullying and inflict more pain and suffering on kids than a 
night on the school yards used to cause.  
Bucks County, Pennsylvania is a diverse northern suburb or 
Philadelphia-- 
        MR. UPTON.  Keep going.  
        MR. ZELLIS.--with over 600,000 residents.  It represents a 
typical suburban community.  We have areas where crime is higher 
than other areas, but on the whole, the streets of Buck County are 
very safe.  The Information Superhighway, however, poses a 
significant challenge to law enforcement, schools, parents, and 
legislators as we try to balance the benefits and the dangers that 
lurk in cyberspace.  
        There are four recent cases that occurred in Bucks County that 
poignantly illustrate the dangers posed by such sites as MySpace.  
In the first case, a 14-year-old boy had his profile posted on 
MySpace.  In April of 2006 he was contacted by a male posing as a 
teenager, who convinced the 14-year-old to lie to his mother and 
have her drop him off at the local mall.  The male met the 
14-year-old at the mall and then took him to a motel where he had 
sexual intercourse with the child.  This scenario has happened on a 
number of occasions and was only discovered when a school 
official overheard the 14-year-old's conversation with a friend and 
reported it to law enforcement. 
        Following the arrests, the male perpetrator was identified as a 
25-year-old.  The 14-year-old who had never been in trouble 
before and prior to this had no sexual experience.  The sexual 
predator now sits in the Bucks County prison awaiting trial.  
        The next case is one of the first cases in which law 
enforcement arrested someone for selling drugs on MySpace.  Not 
only was this juvenile selling drugs on MySpace but he was 
pictured on MySpace with an assortment of guns.  
        The third case involves a 13-year-old girl who posted her 
pictures on MySpace.  A male began conversing with her on the 
Internet.  Fortunately, the child's mother contacted law 
enforcement and the police took over the conversations with this 
sexual predator and ultimately arrested him.  He was identified as a 
male who was working in an OB-GYN office.  
        Finally, we have seen street gangs taking advantage of the 
opportunities provided through social networking sites, and such 
street gangs as the Bloods and the Crips used the site's social 
networking recruitment tools in the suburbs.  Too often as a society 
we think that sexual predators' Internet crime is somebody else's 
problem, not ours.  Those of us in law enforcement know that 
nothing could be further from the truth.  
        These four examples within the last 6 months indicate the kinds 
of criminal activity in cyber space know no boundaries and now 
happens on a national/international level.  My office is not only 
prosecuting such cases in court, but we are proactively engaged in 
prevention activities.  We have gone into the elementary, middle, 
and high schools to educate students about the dangers involved in 
social networking sites.  We have held town meetings around the 
county about how to keep their children safe on the Internet.  
These programs have been well received by students and parents 
and it has become clear to us that parents and most kids do not 
want pornography or sexual propositions to interfere with their use 
of the Internet.  
        During the course of our town meetings with parents, we have 
found a hunger on the part of parents to learn as much as they 
possibly can, because parents legitimately feel they are playing 
catch-up to their children when it comes to the Internet.  One of the 
critical components of the Deleting Online Predators Act is 
requiring the Federal Trade Commission to create a website which 
can be used as a resource for parents, teachers, and others 
regarding the dangers on the Internet to child users.  
        In addition, to require that the Federal Trade Commission issue 
alerts is critical to providing parents and teachers with worthwhile 
information that they crave.  
        This begins to address one of the most significant concerns, 
and that is that no one is controlling the Information Highway.  
        Finally with respect to the Deleting Online Predators Act, if 
you knew that a child molester was going to the library or to the 
school and grooming children for future sexual exploitation, would 
you allow such behavior to go on?  Of course not.  But that is 
exactly what is going on when children in the school or at the 
library are permitted to freely access commercial networking sites 
like MySpace and chat rooms while sexual predators lurk in their 
midst on cyber space.  We cannot and should not permit our 
children to fall prey to the exploits of sexual predators while they 
are at school or at the library.  We have seen firsthand that when 
law enforcement officers pose as a teenager online, sexually 
explicit instant messaging and solicitation occur quickly and 
rampantly.  There can be no doubt that a child's innocence, and 
perhaps even more, can be lost in an incident on the Internet.  
        On behalf of Bucks County, we endorse the act because it 
educates parents and children about the dangers of the Internet and 
limits access to certain sites during the school days.  Our children's 
safety must come first. 
        [The prepared statement of David W. Zellis follows:] 

PREPARED STATEMENT OF DAVID W. ZELLIS, FIRST ASSISTANT 
DISTRICT ATTORNEY, OFFICE OF THE BUCKS COUNTY DISTRICT 
ATTORNEY, COMMONWEALTH OF PENNSYLVANIA

	Chairman Upton, members of the committee, ladies and 
gentlemen.  Thank you for the opportunity to be here today to talk 
about a serious issue that affects our most treasured resource, our 
children, and our effort to protect them from the dangers of "social 
networking sites" that exist on the World Wide Web.
	As the highest ranking prosecutor next to the elected District 
Attorney, I have spent the past twenty-two (22) years fighting in 
the courtroom to put criminals behind bars.  My courtroom 
experience involves every type of case, including capital murder.  I 
also work hand in hand with law enforcement as they investigate 
criminal activity.  One could say that during my tenure as a county 
prosecutor "I have seen it all".  Despite my exposure to all kinds of 
criminal behavior, I, like many of my colleagues, have been 
shocked and dismayed by the latest rage, politely known as "social 
networking sites", but commonly known as MySpace, Friendster, 
Facebook and Xanga.
	It was not that many years ago that police arrested and I 
prosecuted child molesters for making advances toward children 
on the street corner or in the park.  It was not that long ago that 
drug dealing took place on the street corners, and I locked those 
dealers up, and it was only a short time ago that "bullying" meant 
beating up a kid on the playground.  Times have changed.  The 
internet and these social networking sites have redefined, 
reinvented and reinvigorated child predators, drug dealers and 
bullies.  Now sexual predators troll the social networking sites 
rather than the streets, and get all the information they need in 
order to groom children for the ultimate purpose of victimizing 
them.  Drug dealers in suburban communities like Bucks County 
can now conduct business in cyberspace instead of the street 
corner.  And bullies do not have to throw a punch when they can 
go on the internet and engage in cyber bullying and inflict more 
pain and suffering on kids than a fight in the school yard used to 
cause.
	Bucks County, Pennsylvania, is a diverse northern suburb of 
Philadelphia.  With over 600,000 residents, in many ways it 
represents a typical suburban community.  We have areas where 
crime is higher than other areas, but on the whole the streets of 
Bucks County are very safe.  The information superhighway, 
however, possesses a significant challenge to law enforcement, 
schools, parents and legislators, as we try to balance the benefits 
and the dangers that lurk in cyberspace.
	There are four recent cases that occurred in Bucks County that 
poignantly illustrate the dangers posed by such sites as MySpace.  
In the first case, a fourteen year old boy had his profile posted on 
MySpace.  In April of 2006 he was contacted by a male posing as a 
teenager, who convinced the fourteen year old to lie to this mother 
and have her drop him off at the local mall.  The male met the 
fourteen year old at the mall and then took him to a motel, where 
he had sexual intercourse with the child.  This scenario happened 
on a number of occasions, and was only discovered when a school 
official overheard the fourteen year old's conversation with a 
friend, and reported it to law enforcement.  Following the arrest, 
the male perpetrator was identified as a twenty-five year old.  The 
fourteen year old had never been in trouble before, and prior to this 
had had no sexual experience.  The sexual predator now sits in the 
Bucks County Prison awaiting trial.  
	The next case is one of the first cases in which law 
enforcement arrested someone for selling drugs on MySpace.  Not 
only was this juvenile selling drugs on MySpace, but he was 
pictured on MySpace with an assortment of guns.
	The third case involves a thirteen year old girl who posted her 
pictures on MySpace.  A male began conversing with her on the 
internet.  Fortunately, the child's mother contacted law 
enforcement and the police took over the conversations with this 
sexual predator and ultimately arrested him.  He was identified as a 
male who was working in an OB/GYN office.
	Finally, we have seen street gangs taking advantage of the 
opportunities provided through social networking sites, and such 
street gangs as the Bloods and Crips use the sites as a recruitment 
tool in the suburbs.
	Too often as a society we think that sexual predators and 
internet crime is somebody else's problem, not ours.  Those of us 
in law enforcement know that nothing could be further from the 
truth.  These four examples which occurred in Bucks County 
within the last six months indicate that the kind of criminal activity 
in cyberspace knows no boundaries, and now happens on a 
national and international level.
	My office is not only prosecuting such cases in court, but we 
are proactively engaged in prevention activities.  We have gone 
into elementary, middle and high schools to educate students about 
the dangers involved in social networking sites.  We have held 
town meetings around the county to educate parents about how to 
keep their children safe on the internet.  These programs have been 
well received by students and parents, and it has become clear to 
us that parents and most kids do not want pornography or sexual 
propositions to interfere with their use of the internet
	During the course of our town meetings with parents, we have 
found a hunger on the part of the parents to learn as much as they 
possibly can, because parents legitimately feel that they are playing 
"catch up" to their children when it comes to the internet.  One of 
the critical components of the Deleting Online Predators Act is 
requiring the Federal Trade Commission to create a website which 
can be used as a resource for parents, teachers and others regarding 
the dangers on the internet to child users.  In addition, the 
requirement that the Federal Trade Commission issue consumer 
alerts to parents and other regarding the potential dangers of 
internet child predators is critical to providing parents and teachers 
with worthwhile information that they crave.  This begins to 
address one of the most significant concerns, and that is that no 
one is controlling the information highway.
	Finally, with respect to the Deleting Online Predators Act, if 
you knew that a child molester was going to the library or to a 
school and grooming children for future sexual exploitation, would 
you allow such behavior to go on?  Of course not.  But that is 
exactly what is going on when children in school or at the library 
are permitted to freely access commercial networking sites like 
MySpace and chat rooms, while sexual predators lurk in their 
midst in cyberspace.
	We cannot and should not permit our children to fall prey to 
the exploit of sexual predators while they are at school or at the 
library.  We have seen first hand that when a law enforcement 
officer poses as a teenager on line, sexually explicit instant 
messaging and solicitations occur quickly and rampantly.  There 
can be no doubt that a child's innocence and perhaps even more 
can be lost in an instant on the internet.
	On behalf of Bucks County District Attorney Diane E. 
Gibbons, we wholeheartedly endorse the Deleting Online Predators 
Act because it educates parents and children about the dangers of 
the Internet and limits access to certain sites during the school day.  
Our children's safety must come first.


        MR. UPTON.  Thank you.  I am going to have to stop.  We have 
less than 5 minutes to go on this vote.  We will come back about 
12:15.
[Recess.]
        MR. FERGUSON.  [Presiding]  Chairman Upton will return 
shortly.  I had some questions for the Attorney General but I don't 
see him.  I know he has to go at some point.  So I wanted to make 
sure we got to him first.  
I am going to start with Mr. Zellis.  We appreciate you being 
here today, and all of our witnesses.  How much of an impact do 
you believe that limiting access to social networking sites and chat 
rooms at schools and/or libraries would have in terms of the crimes 
you see in your own experience in Bucks County?  
        MR. ZELLIS.  It is very hard to say.  If we could save one child 
then it is worth it, because that one child, that innocent child who 
may fall prey during the school hours or at a public school to a 
sexual predator because the legislation wasn't enacted, would just 
be a catastrophe for that child, for that family, and for that child for 
the rest of his or her life.
        MR. FERGUSON.  But in terms of your own experience, it is 
tough to say with specificity as to how this legislation might be 
able to assist you in catching some of these folks.
        MR. ZELLIS.  I did check around my office before coming 
down today to --
        MR. FERGUSON.  Keeping it from happening.
        MR. ZELLIS.  And we are not aware of any case to date in our 
jurisdiction that involves a child falling prey as a result of being 
online at school or in the library.  But that could change this 
afternoon.  That could change tomorrow.  This is an evolving 
problem in our community. 
        MR. FERGUSON.  Thank you.  
Mr. Attorney General, thank you again for being with us here 
today.  How aware do you find that parents are with regard to the 
content and the potential danger at these sites?  Clearly kids are 
ahead of parents many times when it comes to new technology.  
Do you find that parents at this point are doing a good enough job, 
or how widespread is the problem of kids being ahead of their 
parents with regard to this technology, particularly with these 
social networking sites?  
        MR. ABBOTT.  Let me fully answer that, if you don't mind, if I 
could follow up and add on to the last comment.  And I came in 
maybe after the question was already asked, but my perception was 
any of these kids who are assaulted online, at school, then go out 
and get assaulted.  I may not have perceived that correctly.  But 
here is the deal of where that would typically work.  They would 
be online on one of these social networking sites at school or at 
home.  They will chat perhaps for days before they will eventually 
decide to go ahead and make the decision, yeah, I can trust this 
other 14-year-old boy.  I will show up at the mall and meet him.  
It is not something that typically happens like that.  They chat 
for 5 minutes at school.  Meet you after school, for someone they 
have never met before.  So the school location would be one of 
several different locations.  School, home, and maybe a friend's 
house.  These children will chat for a while before they will 
eventually make the decision to show up and wind up getting 
assaulted. 
        MR. FERGUSON.  So in terms of the legislation, if you close off 
one of those opportunities, perhaps it will have some impact.  Is 
that what you are saying?  I was asking about the bill that we are 
talking about today in terms of schools and libraries.
        MR. ABBOTT.  The reality is, if you close off one opportunity, 
it doesn't mean that children will not access the networking 
websites.  It means they will do it at home or do it at a friend's 
house, someplace other than schools.  So shutting it down at 
school--put it this way.  Putting restrictions on children's access to 
this, putting things like age verification in there, things like that 
will all be steps in the right direction.  But if the goal is to shut it 
down at one place and pretend that that is going to solve the whole 
problem, that probably won't achieve a whole lot because kids go 
to friends' houses or homes or wherever else, perhaps in an 
unsupervised situation, and wind up getting caught in the same bad 
scenario.  
        But I would think that limitations on access, age verification, 
like we have talked about before, to ensure that children for one 
are not going to be subjected to pornographic or otherwise age 
material, other kind of restrictions would be helpful for children.  
But if I could, let me address your question about education 
because we find that parents are woefully uneducated about this.  
They feel like they are not up to speed.  Like was testified earlier, 
we have put on several  town hall meetings where we have seen 
literally hundreds of parents come in to one meeting and they are 
absorbing this information as quickly as possible, eager to learn 
everything they possibly can to find ways that they can do 
something to help protect the children.  
        And I will tell you this:  It kind of demonstrates exactly where 
a parent stands on this.  What we do when we put on our town hall 
meetings, we tell parents about the problem.  We go into it and all 
that kind of stuff, and about 15 minutes through the presentation 
we log onto MySpace and we plug in only the school where we are 
putting on the town hall presentation or only the zip code that we 
are in, and we put in only an age bracket of about 2 years that 
would include juniors and seniors; and all of a sudden these 
pictures come up; pictures and names that parents recognize and 
students recognize, and you can hear audible gasps in the audience 
about parents not realizing that their children are on these websites.  
Sometimes very provocative pictures, and parents are aghast at 
what is going on.  
        So they are pretty much--some parents are completely 
unaware.  Some of them--many people have heard about MySpace 
now, but don't know what it does.  They need a vast amount of 
information quickly to help protect their children.  One thing--I 
know you want to ask a question, if I can make this one key point. 
        MR. FERGUSON.  I know your time is short but my time is 
short.  I have a more specific question about language in the bill.  
        Some have raised concerns about language in the bill about this 
prohibiting minors from being able to easily access--and those are 
words from the bill--easily access obscene content or otherwise 
easily be approached by predators online.  In your written 
testimony, you had raised some concerns with this language.  You 
didn't mention it in your verbal testimony.  Can you expand a little 
bit on your thoughts on the language "easily access"?  
        MR. ABBOTT.  As a lawyer who litigates cases in court, as a 
former judge, I believe the word "easily" would be categorized as 
vague.  It is hard to know exactly what that means.  Frankly, I 
can't tell you what it means.  And if we had 12 different jurors we 
could have 12 different decisions about what it means.  
        Now, the position I would advocate probably would be one 
different than some other folks on this panel.  I think an easy 
solution for it is to delete the word "easily," so that it just goes 
straight to "access."  But the word "easily" is potentially vague, 
and here is what would wind up happening if the bill passed with 
this current language.  We would all spend years in court litigating 
what "easily" means, and the evidence will be put on, no, we are 
not easily accessible and the evidence would be put on, yes, you 
are.  So it would lead to litigation that would frustrate 
implementation of the bill.  
        MR. FERGUSON.  I recognize Ms. Eshoo for questions.  
        MS. ESHOO.  Thank you, Mr. Chairman.  I want to thank all of 
the panel.  I have learned a great deal from listening to you this 
morning--from law enforcement, Attorney General, and Mr. Zellis; 
the horror of what is taking place.  And I certainly want to salute 
you for the work that you are doing to bring these predators to 
justice.  To all of the other panelists, thank you.  
        Ms. Aftab, it seems to me a lifetime of work that you are doing.  
Mr. Davis, I think that you have really offered a solid model of 
how to address this, and I want to thank you for your work.  To 
Chris Kelly and the work that you are doing, which I think really is 
the model for any social networking operation, the work that you 
are doing and that they all have someone like you.  We need to 
clone you.  To the Pew Center, and I think what you have put out 
should be kept in the top drawer of everyone's desk here because it 
is unbiased, solid information about how everything works.  To the 
libraries, who are absolutely terrific.  
        Now it seems to me that the intention of the authors of the 
legislation is really very good but it is really not the prescription to 
handle this.  
        The language in the bill as I see it, on page 2, I think it is line 
24, "may easily access or be presented with obscene or indecent 
material," I don't really know what that means legally.  And I think 
the Attorney General just suggested that the world "easily" be 
dropped.  
        But if we just go with "access," I think, Mr. Attorney General, 
we need to appreciate that Google will be completely knocked out 
of business in schools and libraries; Yahoo, anyone in the Internet 
business, is in one fell swoop going to be erased.  And that is not 
pragmatic.  That is not what we are going to do.  But we are still 
left with the challenge of addressing this.  
        What I would like to press, whomever would like to come up 
with a prescription here, what your prescription would be.  It 
seems to me, just off the top of my head, I think that if the 
Congress had actually put into place broadband for everyone in the 
country and we had money in it, then we could restrict the money.  
And that would be I think a win-win.  But since we don't have a 
national broadband policy, that is not in the offing right now, that 
being able to restrict any funding that would be attached to that is 
not something that we are going to be exercising.  
        Now, having said that, knowing the language of the bill not 
really being workable, I mean it is again the case of the intentions 
are great but it is not the way we are going to resolve it.  
        Let me ask the law enforcement people, number one.  Maybe 
you don't agree with me.  If you don't, say so.  What is your 
prescription for a solution to this?  
        MR. ABBOTT.  A couple of things.  And these are things that 
may be coming from left field with regard to these particular bills, 
but these are the things that we in the law enforcement field need 
to see and need to see from the social networking sites and 
basically anyone, and that is we must have better retention of IP 
records or logs.  Literally, as we speak, records of predators are 
being lost and deleted.  Retention periods must be extended to give 
law enforcement time to issue the legal processes that are needed 
to obtain the records for evidentiary purposes.  That is for one.  
        For another, education has been talked about a lot as absolutely 
necessary.  The providers of this software, the providers of these 
sites, can take the lead in ensuring the education is provided.  They 
are on the site.  So those would be two things.  
        Age verification, again, I believe would be very helpful.  
        MS. ESHOO.  Chris, do you want to speak to this, please--
        MR. KELLY.  Age verification, we use kind of a proxy process 
for age verification in terms of associating people with an 
associated high school.  That seems to be about as effective as we 
have been able to get it, as we talked about on the dialoguing.  
There is a lot of public record checking.  But we found that the 
approximate e-process through the high school association is 
relatively good in terms of keeping in terms of keeping under-13s 
off the site, and that is a standard that has been set by Congress, 
obviously, in whether or not you need verifiable parental consent 
at that stage.  So that for age verification, that seems to be 
somewhat workable for us.  
        But we don't have the only model in the industry and we do 
think that there are a number of good things facilitated by some of 
the other sites.  I mean, we like our model the best, but we don't 
think the others should be outlawed.
        MR. ABBOTT.  If I could very briefly say one thing about their 
website.  I don't believe that any of these sites are perfect, but I 
believe that the program that Facebook has created is superior.  If 
you compare it to the real world of neighborhoods, where all of 
you live, you have seen so-called safe neighborhood programs.  
They do as well of a job as I have seen at creating safe 
neighborhoods, neighborhoods that are confined.  And that I think 
is a superior approach to what we have seen elsewhere.  Perhaps 
you can look at some aspects of their model and require those 
similar components to be required above the board.  
        But don't get me wrong; I am not going to concede your model 
is perfect.  It is a great first step.  
        MS. ESHOO.  I think what we have to keep in mind, 
Mr. Chairman, is that there isn't any such thing as good technology 
and bad technology.  Technology is neutral in that sense.  It is how 
it is used and how we help shape the direction of it.  But we really 
can't go after the technology itself.  This is really a sticky wicket 
because we have some constitutional issues involved in this as 
well.  
        So, I am over my time.  Now I will stop.  I really want to thank 
the Chairman for the hearing and for the testimony today because I 
find it is enhancing.  So thank you. 
        MR. FERGUSON.  Mr. Shimkus.  
        MR. SHIMKUS.  Thank you, Mr. Chairman; and I appreciate you 
all coming.  
        This is a legislative hearing, but sometimes we digress and 
address things.  My good friend Anna and I work on a lot of these 
issues together; and this is very similar, I think, to the discussions 
we had years ago when we started doing the actual purchasing of 
items and goods over the Internet, remember, with digital 
signatures.  VeraSign was in here.  
        So my first--one of my questions was--Anna, you were already 
mentioning to Chris--was age verification; and my comment, based 
on listening to the testimony, is a program like VeraSign or some 
authentication, which has really been successful, and it was a 
private sector, it was technologically neutral, but it had some 
standards by which we could allow some current commerce to 
flow and identification really be taken--
        I mean, how many times do we do stuff now--I mean, there is 
identity theft.  We still have problems.  I mean, we are still in a 
central world.  There is still going to be bad guys who figure out--
but for most of us, when you can do on some standards-- 
        So you kind of addressed it, Chris, but, I mean, is that the 
approach that we have--is this a third-party age verification 
process?  You can out there, in essence, do that?  I mean, you 
shake your head, no, Parry, but we do it for commerce.  
        MS. AFTAB.  If I may, the reason I am shaking my head no, we 
can do it technologically, but the kids won't buy it.  So I have just 
finished polling 14,000 pre-teens and teens over the last 4 months 
in person, face to face; and they are scared.  I have never seen kids 
scared before.  
        MR. SHIMKUS.  These are the same kids who are going to 
download a piece of music for, what, 75 cents a song, 25 cents a 
song.  
        MS. AFTAB.  Or for free.  
        MR. SHIMKUS.  But probably have more discretionary income 
than any kids in any generation before.  
        MS. AFTAB.  Because they are not paying for music.  
        But, Mr. Shimkus, what they all say to me, we want 
authentication.  We want the site to know who everyone is.  
        One girl who lives on a Marine base in Yuma said the answer 
is to keep all boys over the age of 14 off MySpace.  
        MR. SHIMKUS.  Let me interrupt you there.  But wouldn't there 
then be a market?  
        MS. AFTAB.  Yes, except--
        MR. SHIMKUS.  I am a market Republican, believe market 
principles, wouldn't someone set up a Facebook for girls?  
        MS. AFTAB.  Well, what happens is--
        MR. SHIMKUS.  With authentication--I mean, we still have 
girl's schools.  We still have guy's schools.  
        MS. AFTAB.  The kids don't want parents involved in 
authentication.  They don't want schools involved in 
authentication.  
        MR. SHIMKUS.  They are kids.  They are kids.  
        MS. AFTAB.  You can authenticate them, but they won't go 
there.  So they will go someplace else.  
        There is a model that Facebook is using which is for the 
school, school e-mail addresses.  Xanga is now using some new 
models that are having kids identify each other.  YFly, the new one 
with Nick Lachey, will do that, but the kids will go someplace else 
because they don't want their parents and schools to know who 
they are.  They want the site.  
        MR. SHIMKUS.  I do have the basic problem with the premise 
that kids are adults, and that brings a parenting aspect back into 
this.  As much as we are going to push industry and individuals 
and government to solve this problem, it is still a parental issue.  
        MS. AFTAB.  Yeah.  I just want to be clear.  I am not saying 
that we should let kids run it.  What I am going to tell you, as much 
as we can set these things up, it won't work because the kids won't 
do it.  They will just go underground someplace else tomorrow.  
And that is our only concern, as we have been facing this.  
        MR. KELLY.  If I may jump in a minute.  
        MR. SHIMKUS.  Please save me.  
        MR. KELLY.  You want to have some means by which they are 
associated with the community and that enables not just the basic 
sort of identity verification but it has the community aspect over 
time of saying this person is a member of this community or not.  
        MR. SHIMKUS.  That is what you do.  
        MR. KELLY.  That is what we do at this point.  By only 
allowing that to be associated with particular high schools, we 
have a proxy for age at that point because there just aren't many 
12-year-olds or under in high schools.  It is not perfect, 
nonetheless, but it gets the job done better than a lot of other means 
and, without driving kids away.  So it is a balance there, as Parry 
articulates, between imposing a great number of burdens on kids in 
terms of authentication of their identity and driving them to sites 
that just wouldn't have anything at all.  
        MR. SHIMKUS.  Well, and the Attorney General mentioned that 
you have a particular--I mean, he praised what you all do, and that 
may be a good model.  
        Again, my premise is our kids; and if we don't get them in 
some arena by which they can do this that is somewhat controlled 
then there are no controls.  
        MR. KELLY.  Our preferred method is to validate with e-mail 
addresses, and we can only do that right now for 15 percent of high 
schools.  We are constantly looking at effective non, deterring 
ways to get kids into validated networks in a meaningful way 
without driving them away.  
        MR. SHIMKUS.  Yeah.  I have three small boys, and I am 
watching this development.  I taught high school for 4 years, and I 
grew up, so I am trying to remember my history of growing up 
versus what my kids are going through.  
        And when I taught psychology, talking over the phone was the 
way that you shared information discretely with your friends for 
hours--I don't want to typecast it to girls, but I think primarily it 
was--but they wouldn't have shared as much information if they 
knew it was a party line.  
        What the problem is, people don't understand that this is a 
party line, and it is huge.  
        Let me ask--if you know the answer, don't answer the question.  
I want to ask everybody.  Is there a safe site for kids for 
information services now on the Internet?  Just go from left to 
right.  
        MR. ABBOTT.  For information services?  
        MR. SHIMKUS.  For information.  
        MR. ABBOTT.  A safe site?  
        MR. SHIMKUS.  A safe site.  
        MR. ABBOTT.  I don't have one at hand.  
        MR. SHIMKUS.  Okay.  Good.  That is a no.  
Parry, do you know the answer?  
        MS. AFTAB.  Can I give you maybe?  I mean, Toontown with 
Disney is interactive safely because it is a dropdown menu, but, 
otherwise, no.  Because it is not--
        MR. SHIMKUS.  Okay.  Next.  
        MS. COLLINS.  Well, the National Center for Missing and 
Exploited Children, we actually have a website set up for kids, 
netsmartz.org--with a Z.  It has information on safety for kids.
        MR. SHIMKUS.  Can you hyperlink out of it?  
        MS. COLLINS.  Actually, we are in control of the website, so, 
no.  
        MR. SHIMKUS.  Okay.  That is good.  
        MR. DAVIS.  I would vote for her site.  
        MR. SHIMKUS.  All right.  
        MR. KELLY.  We would never claim to be perfectly safe.  
        MR. SHIMKUS.  The question is, is there one out there for 
information?  
        MR. KELLY.  I mean, information, there are quite a number--
        MR. SHIMKUS.  That you can't hyperlink out once you go on 
the Internet to get information.  
        MS. AFTAB.  Where people can post information safely?  
        MR. SHIMKUS.  No, just information.  
        MR. KELLY.  To get information safely.  
        MR. SHIMKUS.  The librarian should have this, I hope.  
        MR. KELLY.  Netsmartz does a fantastic job.  
        MR. SHIMKUS.  All right.  You guys are failing.  
Next, next, next.  
        MS. LENHART.  For information about online safety.  
        MR. SHIMKUS.  Not information on online safety.  For 
information, period.  
        MS. LENHART.  Well, as long as there is no interactivity.
        MR. SHIMKUS.  Is there a site that has no interactivity?  
        MS. LENHART.  Sure, sure.
        MR. SHIMKUS.  Next, next.  
        MS. YOKE.  I very much appreciate your question.  
        MR. SHIMKUS.  I am not setting it up for her, but I just pulled 
out this thing, and I have got the list.  
        MS. YOKE.  Sure.  The ALA believes that education is what 
will keep kids safe; and because of the fact that virtually any and 
every website that is out there on the Internet can link to something 
else and nothing can ever be 100 percent safe, leaving your house 
in the morning does not leave you 100 percent safe, that it is 
education that will help parents and kids stay safe.  
        Driving, for example, can be dangerous, but the solution has 
not been to ban teens and young adults from ever getting behind 
the wheel.  The solution has been to provide them with things such 
as drivers education in high schools across the Nation.  And we 
also--
        MR. SHIMKUS.  You are letting me down.  There was a simpler 
answer for you.  
        MS. YOKE.  We also would agree that driving on the 
information highway can also be dangerous.  So what we need to 
do is give kids the skills, tools, and resources so that they can 
become safe and make good choices on the information highway.  
        MR. SHIMKUS.  Okay.  Next.  You failed.  Dagnab it.  I set you 
up for it.  Home run.  
        MR. ZELLIS.  I am on my seat waiting for the answer.  
        MR. SHIMKUS.  Okay.  The answer is--Mr. Markey mentioned 
in opening statements, Attorney General, when you do your town 
hall meetings--I hope you mention this--especially for kids--we set 
it for kids under the age of 13.  Now that I have kids--they are way 
past that, but it is good for kids 6, 7, 8, 9--www.kids.us.  It is a safe 
site for kids for information.  
        Now there are over 20 users, and the American Library 
Association is a member:  Americanlibraryassociation.kids.us.  
ABC.kids.us, American Library--I said that--games.kids, info.kids, 
connects.kids, music.kids, newyork.kids.  Texas should be on here.  
Shimkus should be on here.  
        So I am taking myself--there are no hyperlinks.  There are no 
chat rooms.  It is information-based only.  
        My sister has just got her degree in education as a third or 
fourth career.  I went to her class on information technology, took 
my 4-year-old with me; and the way my 4-year-old climbs up on 
the desk, he hits E for Internet Explorer and what is his default?  
Kids.us.  Can he go anywhere from there?  No.  It is a safe site for 
kids that we passed here in legislation that it is part of my job to 
make information available, to talk about it because it works; and I 
just hope you take that back with you.  
        My time is way expired.  Thank you.  
        MR. FERGUSON.  The gentleman from New York, Mr. Engel, 
for questions.  
        MR. ENGEL.  Thank you very much, Mr. Chairman.  
        My youngest child is 12, very, very bright young man, but I 
always tell him he is like an addict when it comes to the computer.  
I mean, he comes home from school, and the first thing he does is 
he goes down to the basement and starts with the computer, and he 
is not doing his homework, he is chatting or whatever, and it is just 
a terrible thing.  
        We had a bill that I am doing with the chairman which actually 
passed the House.  It has nothing to do with this.  It is a spoofing 
bill.  And one of the things that I said was the problem is we are 
always playing catch-up.  Because the bad guys are doing things 
and then we find out about it and then we play catch-up to try to 
thwart them.  
        It is very similar here.  I think the bill is fine.  Targeting 
schools and libraries as a condition of E-rate funding is fine, but I 
think that it is only a very small, little part.  I guess we have to start 
somewhere, but I think the bill really doesn't solve the problem.  
Because, just as our children are the first generation to grow up 
with the personal computer, we are the first generation of parents 
to be raising children with these computers.  So the whole thing is 
frustrating.  
        I am thinking, why aren't we doing a massive education 
campaign for parents to learn how to protect their children in the 
online world?  I mean, I am so far behind my children it is really 
almost a joke.  
        Mr. Shimkus talks about his 4-year-old, well, my 12-year-old is 
my youngest; and he can just run circles around me.  When I get 
stuck on the computer, I call him and he--oh, dad, all you need to 
do is this.  
        So, Ms. Aftab, in your written testimony you say, while this 
may appear on its face to be an easy answer, it is neither easy nor 
the answer.  And I agree with you.  I pulled that out because I 
thought that I would agree with you.  
        So I don't know what to say.  I want to just give you an 
opportunity to expand on that, because I think that sort of sums up 
the way I feel.  And I have a couple of questions if anyone else 
would care to answer.  
        MS. AFTAB.  Thank you very much, Mr. Engel.  
I think that everyone is worried.  Law enforcement is worried, 
regulators are worried, legislators are worried, parents are worried, 
schools are worried, kids are worried.  We have to do something.  
        It sounds easy to turn around and say the one thing we can 
control, schools and libraries, through the E-rate, turn it off.  But 
since all of the social networks, the social network technologies are 
going to be used by all of the ISPs, by all of the big sites, by 
Disney and Viacom and everybody else, it is the future of the 
Internet.  This is where everything is going.  So we would be 
turning off, effectively, the entire Internet with this, number one.  
        Number two, it is not really addressing the issue.  The kids, 
when they are involved with sexual predators, require grooming 
time.  It is hard to do that in the library when everyone is fighting 
for a computer or in the classroom when teachers are watching 
what you are doing, and we find the schools who really know what 
they are doing they are not only blocking social networks.  They 
are blocking ESPN, other sites that are not school oriented.  
Because, during the school day, kids are supposed to be studying.  
        So there may be easier ways of dealing with it that aren't as 
hard to craft that won't turn off the entire Internet and will be more 
effective to the real issue.  
        To my knowledge, around the country, I have not found a case 
where a child has been groomed and sexually exploited because of 
their access from a school computer or a library computer on a 
social network.  I think, instead, if we target getting the FTC 
involved on a global site that is doing Internet safety, they have got 
online on guard already, we are partnering with them, getting more 
stuff into the hands of parents, getting kids aware that even smart 
kids can be targeted and that whatever you post online is public, 
and that that cute 14-year-old boy may not be a cute 14-year-old 
boy, if we can get out there and get everyone involved talking 
together, we can stop the turf wars, find out what our group does 
well, find out what NickNick does well.  Get the Facebook and the 
others to put out PSAs, work with the AGs.  I think if we pulled 
together globally--and I think that this committee can help us do 
that--we can come up with answers.  We can make a real 
difference, and that could be easier.  
        MR. ENGEL.  Thank you.  
        Let me ask Ms. Yoke, from the ALA point of view, H.R. 5319, 
as it is currently drafted, would the ALA support it?  
        MS. YOKE.  Well, the goal of DOPA, keeping children safe, is 
a lot of bull.  ALA argues that a more effective and long-term 
solution would be for Congress to authorize and provide 
appropriate funding for Internet education programs that would 
provide resources and support for adequate numbers of qualified 
school library media specialists and public librarians to serve the 
young people in our communities by providing information 
literacy instruction, Internet safety instruction and so on.  
        ALA suggests that Congress does not need to pass another bill 
calling for technological measures to control Internet content.  
Existing CIPA provisions as well as the local policies and activities 
of our school and public libraries are sufficient.  If Congress feels 
that it must pass such a bill, we would ask that libraries be included 
in the FCC Advisory Committee, the terminology be clarified and 
that local decisions be respected.  
        MR. ENGEL.  Thank you.  
        I would just like to ask, with the Chairman's indulgence, one 
question.  I mentioned the spoofing bill and said we are always 
playing catch-up.  The Internet, obviously, from what everyone is 
saying, and we know this, is becoming an enabling technology for 
predators.  Are any of you aware or can share with us what other 
technologies are out there or in research and development that we 
can use to combat and track down predators?  Anyone aware of 
anything that is out there?  Yes.  
        MS. AFTAB.  Social networks can be very helpful in tracking 
predators.  By putting a button on the profiles, the kids can very 
easily report inappropriate communications with them; and it is a 
great way of doing it.  I know Facebook is very responsive to 
abuse reports.  The YFly site has a "report a creep" button.  If 
someone talks to them, they will report it to law enforcement.  It is 
a great way of mobilizing people and reporting bad things.  
        In addition, if you can have a central site so that people know 
where to report different kinds of crimes.  The CyberTipLine is 
fabulous for missing child issues and child pornography issues, but 
it may not be appropriate for cyber bullying.  People need to know 
where to go when bad things happen to make them stop, and I 
think that using social networks and other sites like that to let 
people know where to report them can be very helpful.  
        MR. KELLY.  We have built very extensive reporting tools into 
our site and background monitoring tools for potentially 
inappropriate activities on the network that will highlight accounts 
that could be being misused in terms of too many friend requests, 
especially too many rejected friend requests, somebody just trying 
to make the initial connections, and that basically enforces the 
protections of the user information that we have built into the 
architecture of our system.  
        MR. ENGEL.  Thank you.  Thank you, Mr. Chairman.  
        MR. FERGUSON.  The author of the bill that we are discussing 
today, the gentleman from Pennsylvania, Mr. Fitzpatrick, is 
recognized for questions.  
        MR. FITZPATRICK.  Thank you, Mr. Chairman.  
        First of all, I appreciate all the suggestions of the members of 
the panel, some very good ones about the need to educate children 
about the dangers of surfing on the Internet, who is out there 
lurking beyond where they can see.  It is not just educating 
children, as we have heard from many of the members, educating 
the parents, Members of Congress, educators.  We certainly need 
to do all that.  
        And, Mr. Davis, I certainly applaud the steps that Fairfax 
County Public Schools have taken.  As you indicate in your 
testimony, you have implemented software technology.  I think 
you indicated you may have procedures in place.  You are 
educating children as well.  
        But the purpose of this hearing in discussing the Deleting 
Online Predators Act is to talk about the efficacy or would it make 
sense to protect children unsupervised while in a school computer 
lab setting from being able to access sites like MySpace.com.  We 
do know from the testimony of the prosecutors who were here that 
there are cases of predators who are out there and predators who 
have used the site to get to children, and so we know the predators 
are on the sites.  They are on MySpace, and MySpace is in the 
school.  
        You seem to be saying, Mr. Davis, it is okay for MySpace.com 
to be in the schools as long as we have a policy and we try to 
monitor it.  Wouldn't it be better in the school setting, just in the 
educational setting, to be prohibiting access to that site because we 
know that there are predators on that site, a predator we would not-
-as Mr. Zellis indicated, we would not let a sexual predator walk 
through the front door of the school, but we are permitting them 
access to the school and classroom setting through the Internet.  
What kind of policies can you have in place to protect children 
from that access?  
        MR. DAVIS.  Okay.  I am not saying that it is okay for students 
to have access to this in schools.  In fact, FCPS, we have blocked 
access to these sites for our students.  
        What I am getting at is that the benefits of imposing this--for 
one, school systems that are already subject to or are using E-rate 
funds are subject to the Children's Internet Protection Act, are 
addressing this issue.  I would expect my colleagues across the 
country to already be looking at these sites and already making a 
decision whether that is appropriate for their school to block or not 
to block that site.  
        FCPS, we have decided to block that site.  I know neighboring 
jurisdictions have made that decision as well.  
        So, no, I am not saying that it is okay.  My fundamental point 
is that the benefits would be marginal.  Marginal benefits, though, 
as indicated down here earlier, if it protects one child that is very 
important.  I truly believe that our students have to be prepared to 
deal with these dangers in life, because that is where they are going 
to experience it.  
        There was a comment made earlier about technology and its 
role in this.  Often, technology is accused of having created this 
problem, and we look to technology to solve this problem.  But, in 
fact, it is people who have created this problem, and it is the people 
who create these problems that we need to target with legislation.  
        MR. FITZPATRICK.  I guess my next question would be to the 
prosecutors on the panel.  Mr. Abbott, who has taken leave for a 
moment.  He is gone.  
        Mr. Zellis, I guess this question could be to you.  You spend 
your lifetime prosecuting criminals and you see during the course 
of your time as a district attorney in Bucks County the methods 
that predators prey on children has changed now in the age of the 
Internet.  I mean, would that be a safe thing to say, that the use of 
social networking sites has given predators a new entree to 
children and is it creating greater challenges for prosecutors such 
as yourself?  
        MR. ZELLIS.  As I stated before, it has reinvigorated and has 
given them a new outlet for preying on children.  What happens is 
this is done totally unbeknownst to the parents.  As we went 
around the county, parents are beside themselves when, as the 
Attorney General said, in Texas--and it was no different in Bucks 
County--we did live online presentations, and it just took a few 
minutes to put up on display somebody posing as a teenager--
teenage girl in this instance--and there were hits galore; and it 
frightened and shocked every parent in the town hall meeting.  
        So we have made adjustments as prosecutors.  I know the court 
system has made adjustments in dealing with it.  But we are 
playing catch-up.  
        MR. FITZPATRICK.  In your opinion, in interviewing child 
victims as witnesses for cases in Bucks County or perhaps other 
anecdotal evidence you may have seen, are children prepared for 
the dangers that they encounter while surfing on the Internet?  
        MR. ZELLIS.  I don't think any child is prepared for it.  I think 
the notion that children have to learn what the real life is like, I 
don't think any child could be prepared for what they are seeing on 
the Internet, and these are children who don't even expect it.  They 
are just typing out instant messages to a friend, and all of a sudden 
somebody pops in there.  And it might be pornography, it might be 
explicit language, or it could just be somebody who is trolling 
around and trying to groom children.  
        So, ultimately it is a major, major problem, and you don't 
expect when you are sending your child to school after monitoring 
their computer use at home or after sending the child to the library 
after monitoring their use at home they are going to be exposed to 
this in the school or library.  I certainly wouldn't expect that of my 
children, and I watch their computer use at home.  So to think I 
would send them to school or to the library, they would have 
unfettered or easy access to these social networks that they don't 
have access to at home, I think gets one's blood boiling; and I 
think for the most part most Americans think that kids don't have 
easy access to these social networks when they go to school or they 
go to the library.  
        MR. FITZPATRICK.  It sounds like in Bucks County you have 
done a number of town hall meetings.  You have done Internet 
safety courses.  Is that your experience?  Is that what parents are 
telling you?  
        MR. ZELLIS.  Yes, it is.  I think parents want to know more, and 
that is why I think the FTC part of the legislation is so critical to 
this legislation.  But I also think that parents would be shocked to 
find out that their kids are going to school and while we are telling 
the parents you have to monitor them at home and watch what they 
are doing on the Internet that in school that they have easy access 
to these sites.  
        MR. FERGUSON.  We are going to go to Mr. Kirk for questions.  
        MR. KIRK.  Thank you, Mr. Chairman; and, once again, thank 
you for having me on this committee.  I applaud this legislation by 
Congressman Fitzpatrick and this hearing.  
        The one thing in our panel we have no formal representative of 
what I would regard as the most important group, parents, and I 
think the feeling that I hear from them is overwhelming with 
regard to this legislation.  So my guess is, Mr. Zellis, that since you 
are a prosecutor, you are probably the closest thing to a parental 
representative here as we can get.  
        I am encouraged by a different corporate policy by one social 
networking site and discouraged by another.  Facebook is here.  
And because Facebook's corporate culture--if you can talk about a 
2-year-old company having a corporate culture--Facebook's 
corporate culture is, because it required the dot edu address at the 
beginning, meant that we were overwhelmingly dealing with adults 
who had crossed the age of 18.  And I think that we should have as 
free and open access on the Internet as adults as possible, but our 
law does not say that with regard to children.  There is compelling 
State interest to protect children and their abilities and their rights.  
        And while Facebook is expanding into the high school arena, 
that concerns me.  Because now you are starting to deal with 
children.  It seems to be very responsive and responsible corporate 
policy to deny access to anyone who is not in the same school 
e-mail group.  So only a sexual predator who is actually going to 
school or a teacher can now get access to those kids, but it would 
be a worry.  
        MR. KELLY.  We are very worried about that.  
        MR. KIRK.  Right, as you should.  Because there is a lack of 
common sense here.  
        In Highland Park, Illinois, we have spent an awful lot securing 
the doors of the school.  As a Congressman, when I come to 
school, I have to report to the administrator before I can go 
anywhere, and I am usually challenged by three or four people 
walking through the school.  And yet MySpace can get an Internet 
predator into the school library unhindered.  That should be an 
enormous problem.  
        When we look at the legislation that is currently drafted, I can 
see that easy access is a definitional point, and I might suggest one 
that would make me comfortable, that easy access to be defined as 
any site that has over 100,000 children online.  At that point, I 
really pretty much know who I am talking about.  And the hundred 
grand worth of children is a pretty big group to then begin to think 
about the United States' legal tradition of forcing anyone who 
makes money off of children to offer a unique level of protection.  
        I just think about when we are in the business of making school 
buses or in selling toys to children, we have unique legal burdens; 
and if you get in the business of making money off of children, you 
have a unique legal burden.  I mean, this legislation calls for 
screening.  
        The other approach, if it was written by the other party from 
the start and we could go down this road, is just to let trial lawyers 
rip you to pieces, open up a whole series of Federal liabilities and 
Federal lawsuits that could be leveled against you and go at it that 
way.  
        So I would just say that the Facebook direction is the way to 
go, except I might hold your business plan at less high school and 
more the rest.  
        With regard to privacy rights of kids, we also talk about I think 
it was one Pennsylvania mom that said, I know that all Americans 
have rights, but with regard to my children at home, I am their 
judge, jury, and executioner.  And I think that largely reflects the 
view of a parent.  
        My question is for David.  In your testimony, you just outlined 
that MySpace.com has now been a center of drug activity, of gang 
activity, and of Internet predators, that if it was any other business 
in any other area would be of unique concern to county law 
enforcement.  Isn't it entirely appropriate that the State get 
involved, especially when we are dealing with children?  
        MR. ZELLIS.  Absolutely.  In fact, I brought a picture of a 
MySpace posting which deals with a gang member; and at the 
bottom it says, which gang you should be in?  And it is the Crips.  
It is a recruitment tool used in suburban Bucks County or any 
suburbia around the country.  So, these pose new and unique 
challenges to all of us.  
        We had in Bucks County one of the first cases involving the 
sale of drugs to--and it was a minor who--so the whole idea of the 
age as being the be-all and end-all--this was a juvenile who had a 
posting with drugs, with guns; and he was in the business of selling 
drugs on MySpace.  
        MR. KIRK.  We just heard in Levittown, Pennsylvania, of a 
gang putting a hit out on the class president; and the high school 
graduation had to be cancelled.  
I would just say in Bucks County--I know the answer to this, 
but in Bucks County is it legal for a gang to come into a library 
and recruit children?  
        MR. ZELLIS.  No.  
        MR. KIRK.  Right.  Nationally, we know from the Drug 
Enforcement Administration and ATF that the average drug gang 
shooter is in the seventh grade.  So since we have done so much to 
protect gang recruiting and prevented that from happening in a 
library or in a school, shouldn't we prevent it from happening in a 
library or a school via the Internet?  
        MR. ZELLIS.  One would hope.  
        MR. KIRK.  Right.  Thank you, Mr. Chairman.  
        MR. FERGUSON.  I want to thank all of our panelists for being 
here today.  This is an extremely important discussion that we are 
having.  It is my hope that we will continue to discuss this topic.  
We certainly thank our out-of-town guests for coming in and thank 
Mr. Fitzpatrick and Mr. Kirk for joining us today.  
        With that, this hearing is adjourned.
        [Whereupon, at 1:03 p.m., the subcommittee was adjourned.] 



SUBMISSION FOR THE RECORD OF ELIZABETH RACINE

        Dear Mr. Chairman:
        My name is Elizabeth Racine; I am the mother of three 
teenagers, and have been a writer, editor, and researcher for the 
past 21 years, specializing in family and parenting issues. I've 
appeared in print over 300 times, with articles in Newsday, The 
Chicago Tribune, as well as in Catholic Parent Magazine, Today's 
Catholic Teacher, and Momentum Magazine. I began using the 
Internet extensively in 1994 for my own research projects as well 
as for those of my editorial clients.  Starting in the year 2000, I 
taught eighth grade in Catholic schools for four years before 
returning to full-time freelancing. 
        As my own children began using the Internet, I have 
vigorously monitored their online usage, as well as that of my 
students, with varying degrees of success. Over the past 12 years I 
have grown increasingly concerned-- and now alarmed-- about not 
only what is available for viewing online, especially to our 
children, but also what our children are posting online as well. 
For the past few years I have been giving talks to parents, 
teachers and clergy about these dangers. My real-life stories and 
images have shocked audiences, who previously had no idea that 
this problem existed.  
        I have served as a resource person for many Catholic reporters, 
and recently appeared on Fox 29's special report on Internet abuses 
by children. Despite the increasing news coverage, there is still a 
vast amount of Internet activity that goes unreported. 
        Lately I have been meeting with members of the House of 
Representatives and the Senate to educate and advise them on 
these Internet risks to our children, in hope that they will increase 
legislation and regulation to help protect them. 
        I am grateful for Mike Fitzpatrick's Bill, H.R. 5319,  the 
Deleting Online Predators Act of 2006. While it is not foolproof, it 
is a starting point, a beacon of hope for those, like me, who have 
seen the Internet's underbelly and are alarmed over what is 
happening to our children online. 
        My goal in writing to you today is to help you better 
understand this attack on our children. It is my great hope that 
Congress will assist parents, like me, who are intensely concerned 
about our children's moral and spiritual development. It is time 
that Congress steps in to help parents protect their children.
I began using the Internet in 1994, and my interest in the 
Internet changed abruptly when my then-7-year-old son came to 
me one day while I was in the garage. 
        "Mommy." he started, lower lip trembling, "I saw something 
on the computer." he looked up helplessly when he couldn't find 
the words. Worried, I asked him to explain what happened.
"I was playing games on Lego.com and then when I was done, 
I wanted to find more games for boys to play -so I typed in 
'boys.com.'" 
        And then he stopped.  Seeing his agitation, I ran to the 
computer to see what would possibly be upsetting him (this was 
1997, long before public awareness of rampant pornography). I 
typed in boys.com and was greeted by an image of a young boy, 
about 12 or 13, performing oral sex on a man.  My 9-year-old 
daughter then piped in that she decided to check girls.com also, 
and found an equally appalling photo on that site. 
        Words cannot adequately describe the dark feeling in the pit of 
my stomach or the primordial mother-bear rage that went through 
me over this loss of my precious children's innocence. This feeling 
still wells up in me; my eyes again fill with tears as I write these 
words. No matter how many times I try, I cannot tell this story 
without crying, which is embarrassing, even though I have told this 
story numerous times to parent and teacher groups, trying to get 
parents to pay attention to what their children are doing online. I 
endure this willingly in order to protect the children who are being 
sought so desperately by an industry-indeed, a society-- that is 
professing to try to keep them safe, but is more concerned with 
"free speech" instead of the protection of children. Pornographers 
and its millions of consumers, are only too happy to snare them 
into the web of addiction to pornography to keep them coming 
back for more. Parents and teachers need to be made aware of the 
need to protect our children, at home and at school and the library, 
so that their innocent web wanderings don't turn into a nightmare. 
        We moved to our current home in the year 2000, where we 
enrolled our children in Catholic school. My 12-year-old daughter 
began using Instant Messenger along with her classmates. I would 
check to see what was going on-I would use drop-down menus 
and see what profiles on  the kids were posting, and which ones 
they were viewing. I was in for the shock of my life.one boy had 
a profile on AOL Hometown, and his profile included graphic porn 
cartoons and links to porn sites, when all these porn sites started 
opening rapid-fire on my computer. If you've ever had this happen, 
you don't soon forget it.a link opens, and then ten, twenty, even 
thirty windows pop open on your screen, and you can't stop 
them-and they are all pornographic. I was aghast, and very 
angry-how can MY computer be subject to this? 
        I became a substitute teacher at their school the first year, and 
was asked to become a teacher the following year.  I would be 
teaching 8th grade-the same grade that my daughter would be 
enrolled in. She would not be in my class, but her friends would. I 
still read more and more Internet entries, and came across a saved 
conversation between my daughter and her "friends." The 
language and the cyber bullying that went on were atrocious. And 
here it was, coming from 12-year-olds!! Their parents had no idea 
that they were posting this material.
        This was in 2001. My school became the recipient of a grant 
from the Connelly Foundation to receive a laptop cart, enabling the 
children to have access to a wireless Internet system. Because of 
my prior research, I knew first-hand the dangers of inappropriate 
content on the web, and our school had in place a technology 
person who had a blocking software program installed. We had 
very strict rules about the kids accessing websites in the classroom, 
and what to do if something inappropriate came up on the screen-
the kids were to close the laptop and raise their hand if the 
blocking screen came up, or if something appeared that was out of 
order. As we visited educational websites together as a class, I 
can't tell you the number of times a child received a red "Blocked" 
screen, telling me that they had come upon a site with content 
deemed inappropriate-due to their typing in the educational site's 
name incorrectly for example-a common ploy of pornographers, 
who like to purchase the URLs of misspelled site names in hopes 
of luring in unsuspecting visitors. For example, one of my students 
tried to access the educational site we were using in class 
(Funbrain.com), but accidentally transposed two of the letters in its 
name (FunBrian.com). His computer brought up a red screen, 
which meant it was blocked. 
        Also, it is common for pornographers to purchase expired 
domain names, especially educational websites or those with 
Catholic or religious titles. This is a hot market--they bank on the 
fact that people would innocently click on their stored bookmarks 
and then would be brought to a porn website instead of the 
religious site they were looking for. 
        I have researched kids' use of blog sites, now called Social 
Networking sites, since my own children began using them in 
1999. The first ones were the profile sites on Instant Messenger, 
which could then host "sub-profiles."  These sub-profiles allowed 
children to post all sorts of information about themselves, and I 
immediately saw the danger in them, since kids could write 
whatever they wanted on them, and many posted pornography. I 
tried to alert parents to this danger and met with varying levels of 
response-some were happy to know so they could correct 
matters, others said I was out to get their kids and that I was lying 
about what had been posted! Since I was teaching at the time, this 
put me in a very awkward position. 
        With the exponential growth of the latest social networking 
sites, MySpace being the most popular, I have had my own 
accounts on all of them, and have been solicited by porn stars - all 
the big name porn stars try to lure visitors to their own MySpace 
pages, which feature very suggestive photos, and then, of course, 
links to the porn site. I have posted one such solicitation below, 
which leads to a live web-cam site. I received another one today, 
which invited me to join a MySpace group which is pornographic.  
I visited the group to see what it was about, and I saw comments 
posted by lots of kids who were under 18, and who were upset that 
they had been solicited! So there is hope there, but I can't imagine 
how many more kids were only too happy to visit the web cam site 
and participate in the goings-on.

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>

        The link in her site leads to the following websites: 
        www.imlivenow.net  and  www.ezezdates.info 

        On the www.imlivenow.net site, there are pictures of Melissa 
        along with this message:
        "These pictures are not very revealing because kids may  
        see this page. On my webcam I get naked and nasty ;] 
        All you have to do is Click here for your FREE Password

        Anyone who has spent any amount of time trolling the pages 
on MySpace, Xanga, or other social networking sites cannot help 
but see what a cesspool it is.it's no surprise to me that there is an 
increasing number of child predator solicitations, leading to rape 
and even murder. The thing I CANNOT believe is that all schools 
are not required to have a blocking mechanism in place for the 
students' safety and well-being. Kids are very interested in these 
sites and very excited to interact with their friends online-and 
their hormones are raging and most of them cannot pass up the 
temptation to view porn. They are oblivious to the danger, even 
when they are educated. 
        Even from a schoolwork standpoint, as a teacher, I can't 
imagine trying to teach and having to compete with kids who 
might be more interested in clicking over to their MySpace account 
during a class assignment, and having that eat up their academic 
learning time.  And from what I read on MySpace, they do it ALL 
THE TIME during class. A teacher cannot visually see every 
computer at every moment, so it is only too easy for kids to do this.
        Libraries are another place that blocking software should be 
mandatory. Recent news stories show that news crews have filmed 
men masturbating right there in the open at the library while 
viewing porn on the library computer-only a few feet away from 
the children's room. My stomach lurches when I hear of this taking 
place-how can we not put an end to that sort of thing? What kind 
of sick society allows that to happen, when the answer is readily 
available in the form of blocking technology. 
        WKYC in Cleveland had an expose on this recently: 
http://www.wkyc.com/news/news_article.aspx?storyid=52623

        We can't really show you, we have video of Cooper pleasuring 
himself while watching porn at the Berea Library, just across 
the room from the children's section.  
 
        Take our word for it. And his. 
 
        "I wasn't thinking. I made a mistake," Cooper admitted. 
 
        If Cooper doesn't trust himself, should we? Well, apparently, 
the Berea Library does.  
 
        Berea Library Manager Cindy Bereznay said she saw Cooper 
masturbating the last time he was in her library. 
 
        Bereznay said they caught Cooper in the act a few years ago.  
 
        "I told him I would have to call the police if it continued," she 
said. 
 
        And Cooper ran out of the building.

        I realize that H.R. 5319 is not foolproof, because blocking 
technology is not foolproof. Unfortunately, blocking technology 
can be circumvented, and there are numerous sites being made 
available to children to allow them to get around their school or 
home blocking software-these sites are run by adults, which I can 
hardly believe. But, just because the mechanism isn't foolproof 
does not mean we shouldn't implement it.  Just as seatbelts are not 
a guarantee that no harm will come to someone who wears one, so 
blocking technology is to children. Blocking inappropriate content 
will protect children more than the alternative, which is to allow 
everything to come to them unfiltered. It is better to do something 
rather than to do nothing. In the near future, an organization called 
CP80 (www.cp80.org) will unveil its simple yet ingenious plan to 
protect our children while it still allows for free speech. 
        In the meantime, I implore Congress to evaluate seriously these 
threats to our children and make their protection their foremost 
concern. H.R. 5319 is a solid beginning, and I ask that it be 
implemented, along with other bills that seek to protect our 
children online.



SUBMISSION FOR THE RECORD OF MICHAEL A RESNICK, ASSOCIATE 
EXECUTIVE DIRECTOR, NATIONAL SCHOOL BOARDS ASSOCIATION

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>

  The seal will deal with several issues impacting safety, such as their law enforcement policies (how 
easy it is for law enforcement agencies to work with the site when cybercrimes and abuses are 
reported or in conducting investigations, how long they maintain IP data to assist in tracking the 
identity of cybercriminals and the location of missing children, and how well they inform law 
enforcement about what information they collect and retain and how to legally request it), safety 
(privacy and security settings, abuse reporting mechanisms, the expertise of their abuse reporting 
staff, their terms of service and how well they are enforced), their customer service (how they handle 
request from parents and schools, how easy it is to remove or modify a profile, how well they 
educate their users about safety and security, their technological protections against malicious code 
and ID theft, and their relationship with high-risk sites) and if they cater to preteens or teens, how 
carefully they care for their interests (such as how well they comply with the child-protection 
privacy rules and laws and how sensitive they are to appropriate marketing and advertising practices 
and placement and how well they handle cyberbullying and other youth-centric abuses).
  Some websites, including MySpace.com, make it very difficult to remove a profile. In MySpace's 
case, the user must fill out an online form to request instructions on profile deletion and a special 
code will be e-mailed to the non-MySpace e-mail they used when setting up their account for them 
to use to shut down their profile page. Due to the fact that many users either use a fake e-mail 
address to protect their privacy or have since stopped using the one they provided when the account 
was set-up, the code cannot be delivered. Even if the e-mail address is real and still functioning, 
however, many ISPs and e-mail providers block MySpace communications sent over their networks 
as SPAM. Without the code, the profiles remain up, even if the user wants them removed, which 
may lead to inflated user-numbers. (WiredSafety has arranged for a special process to assist in the 
removal of teen/preteen profiles when the e-mail address is not working, but I suspect that it is not 
widely used unless the user comes to us for our assistance.)
  See attached advice for parents, in Appendix. 
  See the press release from Cox Communications and link to full results here: 
http://www.cox.com/takecharge/survey_results.asp
  Bailey discusses the shift from the old practice of "calling" whereby a male suitor would arrive at 
the house of a young woman "expecting to be received in her family's parlor, to talk, to meet her 
mother, perhaps to have some refreshments or to listen to her play the piano" to the new practice of 
"dating" whereby the young woman would expect to be "taken 'out' somewhere and entertained." 
See p. 13 for this reference and p.19 for a discussion of the automobile's influence in this transition.
  Tonn, Jessica. "Expert Sees Need for School Staff To Access Social-Networking." Education 
Week. Vol. 25 Issue 33, p16. 
  "Life Beyond Pay-Work-Life Balance," The Economist, July 7, 2006.
  Information Literacy: Skills for the Information Age. Westport: Libraries Unlimited. Page 5.
  http://www.bcps.org/offices/lis/
  http://www.census.gov/prod/2005pubs/p23-208.pdf
  Toward Equality of Access: The Role of Public Libraries in Addressing the Digital Divide. Pages 
19-20. http://www.gatesfoundation.org. 
  "Growing Up Online," Science News, Vol. 169 Issue 24, p376.
 
 
 
 







221


(1)

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
